<html>
<title> - OVERSIGHT FIELD HEARING ON THE ENDANGERED SPECIES ACT 30 YEARS LATER: THE KLAMATH PROJECT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
OVERSIGHT FIELD HEARING ON THE ENDANGERED SPECIES ACT 30 YEARS LATER: 
                          THE KLAMATH PROJECT

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

           Saturday, July 17, 2004, in Klamath Falls, Oregon

                               __________

                           Serial No. 108-104

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
94-998 PS                 WASHINGTON : 2005
______________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               Stephanie Herseth, South Dakota
Tom Osborne, Nebraska                George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Dennis R. Rehberg, Montana           Ruben Hinojosa, Texas
Rick Renzi, Arizona                  Ciro D. Rodriguez, Texas
Tom Cole, Oklahoma                   Joe Baca, California
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

                   KEN CALVERT, California, Chairman
        GRACE F. NAPOLITANO, California, Ranking Democrat Member

George Radanovich, California        Calvin M. Dooley, California
Greg Walden, Oregon                  Jay Inslee, Washington
Thomas G. Tancredo, Colorado         Raul M. Grijalva, Arizona
J.D. Hayworth, Arizona               Dennis A. Cardoza, California
Tom Osborne, Nebraska                George Miller, California
Rick Renzi, Arizona                  Ciro D. Rodriguez, Texas
Stevan Pearce, New Mexico            Joe Baca, California
Devin Nunes, California              Nick J. Rahall II, West Virginia, 
Richard W. Pombo, California, ex         ex officio
    officio
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Saturday, July 17, 2004..........................     1

Statement of Members:
    Calvert, Hon. Ken, a Representative in Congress from the 
      State of California........................................     5
        Prepared statement of....................................     6
    Doolittle, Hon. John T., a Representative in Congress from 
      the State of California....................................     9
        Prepared statement of....................................    10
    Herger, Hon. Wally, a Representative in Congress from the 
      State of California........................................     7
        Prepared statement of....................................     8
    Radanovich, Hon. George, a Representative in Congress from 
      the State of California....................................     7
    Walden, Hon. Greg, a Representative in Congress from the 
      State of Oregon............................................     2

Statement of Witnesses:
    Brown, Hon. Ralph, Vice-Chair, Curry County Board of 
      Commissioners, Gold Beach, Oregon..........................    27
        Prepared statement of....................................    28
    Carman, David, Tulelake, California..........................    12
        Prepared statement of....................................    13
    Fletcher, Troy, Klamath River Inter-Tribal Fish & Water 
      Commission Representative..................................    25
    Gaines, Bill, Director of Government Affairs, California 
      Waterfowl Association, Sacramento, California..............    31
        Prepared statement of....................................    33
    LaMalfa, Hon. Doug, Assemblyman, 2nd District, California 
      State Assembly.............................................    21
        Prepared statement of....................................    23
    Lewis, Dr. William M., Jr., Professor of Environmental 
      Science and Director, Center for Limnology, University of 
      Colorado, Boulder, Colorado................................    38
        Prepared statement of....................................    40
    Rodgers, Kirk, Regional Director, Mid-Pacific Region, Bureau 
      of Reclamation, U.S. Department of the Interior............    44
        Prepared statement of....................................    45
    Smith, Hon. Jimmy, First District Supervisor, Humboldt County 
      Board of Supervisors, Eureka, California...................    35
        Prepared statement of....................................    37
    Vogel, David A., Senior Scientist, Natural Resource 
      Scientists, Inc., Red Bluff, California....................    14
        Prepared statement of....................................    16

Additional materials supplied:
    Smith, Hon. Gordon H., a U.S. Senator from the State of 
      Oregon, Statement submitted for the record.................     4
    Miscellaneous letters and statements submitted for the record    72


 OVERSIGHT FIELD HEARING ON THE ENDANGERED SPECIES ACT 30 YEARS LATER: 
                          THE KLAMATH PROJECT

                              ----------                              


                        Saturday, July 17, 2004

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                         Committee on Resources

                         Klamath Falls, Oregon

                              ----------                              

    The Subcommittee met, pursuant to call, at 9:00 a.m., at 
the Ross Ragland Theater, 218 North Seventh Street, Klamath 
Falls, Oregon, Hon. Ken Calvert [Chairman of the Subcommittee] 
presiding.
    Present: Representatives Calvert, Radanovich, and Walden.
    Also Present: Representatives Herger and Doolittle.
    Mr. Elliott. Good morning, ladies and gentlemen. I'm John 
Elliott, Chair of the Klamath County Board of Commissioners. It 
is my distinct honor to welcome you here this morning for this 
meeting of the Water and Power Subcommittee, chaired by 
Congressman Ken Calvert of California. And without any further 
ado, because I know we've got some listening to do for the next 
two to three hours, I'd like to introduce Congressman Ken 
Calvert, California.
    Mr. Calvert. Thank you very much. The oversight field 
hearing by the Subcommittee on Water and Power will come to 
order. The Subcommittee is meeting today to hear testimony on 
the Endangered Species Act and the Klamath Project. Mr. 
Mitchum, my name is Ken Calvert; I'm Chairman of the 
Subcommittee, and I welcome everybody here today who has taken 
valuable time to listen and educate others about this and the 
community's future. I also thank those who help set this 
hearing up and the Members joining me today who have worked 
hard to find resolution on the complex issues we'll hear about 
later.
    Before we go into opening statements and testimony, I'll 
ask unanimous consent for our distinguished colleagues, Mr. 
Doolittle and Mr. Herger, to sit on the dais.
    Without objection, so ordered.
    I would like to recognize a number of individuals who will 
carry out some important duties before we begin. First, Callie 
Crawford, Taylor Boyd, Jacqueline Macy, and Nolan Macy, all 
from the Tulelake area here in California, or down in 
California, I should say, will present the colors. And if 
you'll all please come forward, we'll begin with that first. 
Thank you.
    [Colors presented.]
    Mr. Calvert. Next, will John Bowen please come up, who will 
lead us in the benediction?
    [Benediction given.]
    Mr. Calvert. Next, will Frank King please come forward and 
lead us in the Pledge of Allegiance?
    Mr. King. Thank you all for coming to this hearing. I'm 
Frank King. I'm a veteran of World War II and homesteader of 
'49. Would you please join me in a moment of silence for those 
veterans and the armed forces people serving our country now?
    Thank you. Now, will you follow me in the Pledge of 
Allegiance, please.
    [Pledge of Allegiance.]
    Mr. Calvert. Thank you, Mr. King. Now, it's my privilege to 
introduce the local Congressman from this region, someone 
that's my privilege to work with every day and does a fine job 
for not just for this region but the State of Oregon and the 
entire country, Mr. Walden.

STATEMENT OF THE HON. GREG WALDEN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Mr. Walden. Thank you very much, Mr. Chairman. Thank you.
    Thank you, and thank you, Mr. Chairman, for convening this 
field hearing here in Klamath Falls to look at these issues 
surrounding the Endangered Species Act.
    Before I begin my opening statement and all that, I have to 
share some difficult news. Unfortunately we've heard some bad 
news about one of Klamath's own. Lance Corporal Brian Kelly, a 
lifelong Klamath Falls resident and son of former Klamath Falls 
Police Department Officer Pat Kelly and Joanie Kelly, was 
killed in Iraq on Thursday. And so Mr. Chairman, may I suggest 
that we pause for a moment of silence at this time in memory of 
Lance Corporal Brian Kelly, and certainly in support of his 
family and his parents.
    Mr. Chairman, I want to thank you again for convening this 
hearing in the Klamath Basin. The issues that have been faced 
by the people in this basin have been severe. There have been 
threats not only to the species, but obviously to the way of 
life of many in this basin. And yet, through all of this, there 
has been the sense of the need to try and work together, even 
in very difficult times and with very different agendas. The 
need to try to find solutions to a very complex problem that, 
while triggered by a decision involving the Endangered Species 
Act, had been coming for some time. And it will be some time 
before all the problems are resolved. But there is a spirit in 
this basin of trying to find solutions.
    On the way here, you know, we diverted to look at the A 
Canal screening. The accomplishment there is, I think, 
significant to the enhanced survival of the sucker fish. It was 
long overdue, and it's an investment that the Federal 
Government made to the tune of some $15 million. But it's 
essential in our efforts to try and improve the survivability 
of the sucker fish. Also we're working, as you know, on 
solutions to fish passage at Chiloquin Dam, to reaccess up to 
95 percent of the sucker's habitat.
    There are a number of conservation projects underway in 
this basin, teaming farmers with government agencies to figure 
out ways to better utilize water, be more efficient in its use, 
and farm community has stepped forward financially and 
otherwise to be good stewards of the land and the water.
    And there are many other issues that are being debated, 
sometimes fiercely, and it's understandable when you look at 
everything that's at stake. But there is progress being made in 
this basin, solid, step-by-step progress. We all know there's a 
lot more to be done.
    The reason that we're here today, in my opinion, is to look 
at the role of a Federal law that is 30 years old and never 
been updated. Endangered Species Act is a very difficult law to 
administer for the agencies, and I think the things we've seen 
here in the basin have given me a great passion to try and fix 
this law, fix it so that it works for the people and fix it so 
it works for the species.
    It was as a result of a Resources Committee field hearing 
after the water had been cutoff in 2001 that drove the 
agencies, in collaboration, frankly, with the Bush 
Administration, to ask for an independent peer review of the 
major decisions made in the Klamath Basin, the decisions to 
keep a high lake level and to cutoff water to the farmers. The 
National Academy of Sciences was brought in, and I think most 
of us have this, their final report. And in this, while they 
say that many of the decisions were based on sound science, 
there were real questions about the two principal decisions, of 
keeping high lake levels and stream flows. And that led me to 
believe that there needs to be outside independent peer review 
of decisions to list or delist a species, work on recovery 
programs and consultations.
    We do this in many areas. The Federal Drug Administration 
has 30 peer review groups; 5 of the 30 committees are 
statutory, created by the 1976 Medical Devices Act. The 
Department of Health and Human Services has major 18-member 
peer review panels called National Committee on Vital and 
Health Statistics. It reviews all data that comes in and out of 
HHS before administrative decisions are made. The Marine Mammal 
Protection Act has peer review commission that conducts stock 
assessments and reviews recovery plans. Even the No Child Left 
Behind Education Act has a peer review component. The Labor 
Workforce Investment Act of the Department of Labor requires 
peer review to evaluate training programs. Ag Research and 
Extension and Education Reform Act requires peer review. The 
Safe Drinking Water Act requires peer review. When it comes to 
the survival of the species or its extinction or the survival 
of a community or its economic extinction, why in the devil 
wouldn't we ask for peer review so that we get it right? That's 
what needs to be done.
    Having said that, Mr. Chairman, I know that saying peer 
review is, in my opinion, a good thing, how we implement that 
will be the challenge, because literally there are hundreds of 
decisions made every day. We don't want to bog down the process 
to the point it doesn't work. But clearly we have to do better. 
We have to upgrade a law that's 30 years old, that isn't 
working, and we have to make it right.
    So Mr. Chairman, I thank you for bringing the committee 
here, I thank my colleagues for their efforts throughout time 
on these issues, and before I close, I want to recognize that I 
have a statement here from Senator Gordon Smith, who serves on 
the Subcommittee on Water and Power, or I'm sorry, who serves 
on the Finance Committee, and is also on the Special Committee 
on Aging and on Commerce, Science, and Transportation, Energy 
and Natural Resources, and Rules and Administration. He's been 
a real advocate for fixing the problems in the basin. His 
legislative assistant, Valerie West, no newcomer to Oregon 
issues, is here as well for the hearing, and so I welcome 
Valerie, and I'd like to ask the committee accept Senator 
Smith's statement into the record.
    Mr. Calvert. Without objection, the Senator's full 
statement will be entered into the record. Gentleman have any 
more comments?
    [The statement submitted for the record by Senator Smith 
follows:]

  Statement of The Honorable Gordon H. Smith, a U.S. Senator from the 
                            State of Oregon

    Mr. Chairman, I appreciate the Subcommittee convening this 
important hearing in Klamath Falls. It is vital that we examine how the 
Endangered Species Act (ESA) is being implemented and enforced thirty 
years after its enactment.
    Unfortunately, the goals of the ESA have too often been coopted by 
those with other agendas. As the late Michael Kelly so eloquently wrote 
in July 2001, ``the Act has worked as intended, but it has been 
exploited by environmental groups whose agenda is to force humans out 
of lands they wish to see returned to a pre-human condition. Never has 
this been made more nakedly, brutally clear than in the battle of 
Klamath Falls....''
    It is timely to re-examine the Act, and the standards established 
under the Act. The best-available data standard for science under the 
ESA is ill-defined and allows for sweeping regulatory decisions when 
little data--or data of poor quality--is all that is available. Also, 
the lack of peer review of that data or decisions based on such data, 
have resulted in decisions made in the name of the ESA, that were not 
supported by the evidence. Critical habitat designations often 
encompass huge geographic areas, limiting human activity.
    Decisions are often made at the field level, and any efforts to 
review or modify them have, too often in recent years, led to the 
unfounded charges of ``politicizing'' science. Scientists cannot get 
their work published in academic journals unless it is peer-reviewed. 
To me, it is imperative that decisions that affect people's livelihoods 
and property under the ESA be peer reviewed, and some standard for the 
science used in these decisions must be established.
    That is why I was proud to introduce S. 2009, legislation that 
would require a higher standard for the science used in administering 
the ESA. The ``Sound Science for Endangered Species Act Planning Act of 
2004'' is the Senate version of Congressman Walden's peer review bill. 
It would require independent scientific peer review of certain actions 
taken by the regulatory agencies under the Endangered Species Act. In 
addition, it would require the Secretary of the Interior and the 
Secretary of Commerce to give greater weight to scientific or 
commercial data that is empirical or has been field-tested or peer-
reviewed.
    In recent years, we in the Northwest have experienced situations in 
which federal agency scientists either demanded actions not supported 
by scientific data, or actually fabricated the data itself. In December 
2001, it was revealed that federal employees had submitted hairs from a 
Canada lynx being held in captivity as though they had been recovered 
during field surveys in several national forests to determine the range 
and habitat of this threatened species.
    Obviously, this example pales in comparison to the biological 
decisions in 2001 that led to water being cut off to Klamath Project 
irrigators. That decision cannot be undone, but it must not be 
repeated. As the National Academy of Sciences' report made clear, the 
decisions pertaining to lake elevations in Upper Klamath Lake and flows 
in the Klamath River were not supported by the empirical data, and the 
suckers and the salmon in this basin will never be recovered by 
focusing solely on the federal Klamath Project.
    I look forward to working with my House colleagues to find 
solutions to the ESA that will actually recover species while 
maintaining a strong economy and way of life for those in Klamath Falls 
and across this nation who make their living from the land.
                                 ______
                                 
    Mr. Walden. No, Mr. Chairman, I just appreciate, again, the 
Committee's diligence on these issues and support for the 
people and values of this basin, and thank you for being here.

STATEMENT OF THE HON. KEN CALVERT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Calvert. Thank you. I will make a brief opening 
statement since we're here today to hear directly from various 
folks who are on the ground, have firsthand knowledge of these 
issues, and that's what we want to hear. I would like to 
encourage those of you in the audience who want to submit 
testimony for the record, please do so.
    The whole point of the field hearing is to hear from those 
affected directly. Since we don't have time to hear from 
everyone, we'll certainly accept any statements for the record. 
So please take that opportunity.
    Thirty years ago, as Mr. Walden pointed out, Congress had 
the best of intentions when it passed the Endangered Species 
Act. In 30 years, only 7 species out of 1,300 have been 
recovered, and those are mainly due to other conservation laws. 
That means that the Endangered Species Act has a success rate 
of less than 1 percent. But at the same time, communities 
across the west are stopped cold in their tracks to the point 
where some legitimately wonder whether their way of life has 
also been endangered. For instance, entire projects, including 
a hospital, are suddenly scrapped or delayed in my part of the 
country, southern California, because of the Delhi Sands 
Flower-Loving Fly, or communities or forests are needlessly 
torched because the Endangered Species Act wouldn't allow for 
thinning in my part of southern California. We're all too aware 
of the impacts right here in this part of Oregon.
    In fact, for the record I would like a show of hands of 
those who have been affected firsthand by the 2001 water 
shutoff. And I can't see you, but raise your hands out there. 
Please, by the way, I will make a comment, any outward 
expression--this is a congressional hearing, any outward 
expression, unless it's asked for or acknowledged by the Chair, 
is not allowed, so we would appreciate--either pro or con, so 
we can do this in a very business-like manner.
    Clearly, something isn't working. No one would ask you to 
buy four tires for an old car that doesn't run. But in its 
current form, that's exactly what the Endangered Species Act is 
really doing, pouring more money into a broken, tired program 
and creating more economic hardships for those already caring 
for their land.
    Today represents an historic opportunity to right the 
wrongs of past and bring about positive change for the benefit 
of the American people and wildlife. We can bring the 
Endangered Species Act into the 21st century while helping 
communities in the Klamath Basin have economic and water 
certainty. We've already found here through peer-reviewed, 
independent science conducted by the National Research Council 
that more water for fish doesn't necessarily mean more fish 
protections. I just hope we're utilizing that science to its 
fullest extent.
    There's no reason why we can't require by law independent, 
peer-reviewed science for every major aspect of the Endangered 
Species Act and use that science to make the best-informed 
decisions in the decisionmaking process. This is not a new idea 
for other Federal agencies, as was pointed out by Mr. Walden. 
They do it on a daily basis. Everyone should support this 
effort if they truly care about protecting and recovering 
endangered species. Today's hearing, like our hearings in 2002, 
is a giant results-oriented leap forward in this march. Next 
week we will continue when the Resources Committee meets to 
pass bills, including Mr. Walden's bill, that will bring the 
Endangered Species Act out of the old school way of thinking. 
We owe you, who have to live with the Endangered Species Act 
every day, nothing less.
    With that, I'd now like to recognize Mr. Radanovich for his 
opening statement.
    [The prepared statement of Mr. Calvert follows:]

           Statement of The Honorable Ken Calvert, Chairman, 
                    Subcommittee on Water and Power

    The Subcommittee on Water and Power will come to order. I am Ken 
Calvert, Chairman of this Subcommittee, and I welcome everyone here 
today who has taken valuable time to listen and educate others about 
their community's future. I also thank those who have helped set this 
hearing up and the Members joining me here today who have worked hard 
to find resolution on the complex issues we will hear about later.
    Thirty years ago, Congress had the best intentions when it passed 
the Endangered Species Act.
    In these 30 years, only 7 species out of 1300 listed have been 
``recovered'' and those are mainly due to other species conservation 
laws. That means that Endangered Species Act has a success rate of .01% 
at best. But, at the same time, communities across the West are stopped 
cold in their tracks to the point where some legitimately wonder 
whether their way of life has become endangered. For instance, entire 
projects are suddenly scrapped in my district because of the Delhi 
Sands Flower-Loving Fly or communities and forests are needlessly 
torched because the Endangered Species Act wouldn't allow for thinning. 
We are all too aware of the impacts here.
    Clearly, something isn't working. No one would ask you to buy 4 new 
tires for an old car that doesn't run. But, in its current form, that's 
what the Endangered Species Act is really doing: pouring more money 
into a broken, tired program and creating more economic hardships for 
those already caring for their land and experiencing record drought. In 
the meantime, though, it's lining the pockets of a very few, vocal 
special interest groups using litigation as a way to achieve their 
goals.
    Today represents an historic opportunity to right the wrongs of the 
past and bring about positive change for the benefit of the American 
people and wildlife. We can bring the Endangered Species Act into the 
21st Century while helping communities in the Klamath Basin have 
economic and water certainty. We have already found here--through peer-
reviewed, independent science--that more water for fish doesn't 
necessarily mean more fish protections. I just hope we're utilizing 
that science to its fullest extent.
    There's no reason why we can't require--by law--independent, peer 
reviewed science for every major aspect of the Endangered Species Act 
and use that science to make the best-informed decisions in the 
decision-making process. This is not a new idea for other federal 
agencies--they do it on a daily basis. Everyone should support this 
effort if they truly care about protecting and recovering endangered 
species.
    Today's hearing--like our hearing in 2001--is a giant, results-
oriented leap forward in this march. Next week, we continue when the 
Resources Committee meets to pass bills--including Mr. Walden's bill--
that will bring the Endangered Species Act out of the ``old school'' 
way of thinking. We owe you--who have to live with the Endangered 
Species Act everyday--nothing less.
                                 ______
                                 

 STATEMENT OF THE HON. GEORGE RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Thank you, Mr. Chairman, and it's a real 
pleasure to be here in Greg Walden's congressional district. I 
just wanted to say to the people of the Klamath Basin, I'm from 
California, in the Yosemite and Central Valley part of 
California, but I do have to say that the experience that 
you've experienced has been really the best example of the need 
for modification and change to the Endangered Species Act, 
because what has happened to you, to me, has just been 
inexcusable. And I look forward to learning from the panel 
today and through the results of this hearing more ways in 
which we can encourage people to work together, rather than be 
divisive, to meet the needs of the environment, but also not 
put at risk the economy of your community. So with that, I 
won't go on any longer, because frankly, I left my opening 
statement in the airplane, but I'm looking forward to the 
testimony and hope that we'll all learn a lot from this. Thank 
you, Mr. Chairman.
    Mr. Calvert. We'll leave the hearing record open to make 
sure we can submit your full record.
    Mr. Radanovich. Thank you; I appreciate it.
    Mr. Calvert. I'd now like to recognize Mr. Herger for his 
opening statement.

    STATEMENT OF THE HON. WALLY HERGER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Herger. Thank you very much, Mr. Chairman, and again I 
want to thank you for convening this incredibly important 
hearing here in the Klamath Basin. And while the Oregon side of 
the Klamath Basin is represented so well by Congressman Walden, 
the California side is represented by Congressman Doolittle and 
myself.
    And I'd like to take a moment, Mr. Chairman, if I could, to 
read a very brief letter from a young man named Blake 
Bettendorf. He's from Tulelake. And I can't see into the crowd, 
but I believe Blake is with us today. And if he is, maybe he'd 
stand. I'm not sure where he is. But anyway, he--Blake was 8 
years old when he wrote me this letter in the wake of the 
tragic 2001 water shutoff. He's probably 11 today. As you can 
see, it was written on second grade stationary. On the back he 
drew a nice picture of a tractor farming in the field.
    And this is what his letter said, dated 4/12/01. ``Dear 
Congressman Herger, I have farmed all my life. I want to do it 
more than 8 years. I love crops and fields. Please help us. 
People count on us. The stores do too. So they really need 
us.'' And it's, ``Second grade, your friend, Blake.''
    Mr. Chairman, Blake is the poster child for what is at 
stake here. This young man is the face of agriculture in the 
Klamath Basin. His future and the future of every man and woman 
in this community hangs in the balance. This is why we will 
continue to fight. I want Blake to grow up knowing he has a 
future in this community.
    While farmers have received water each year since the 
shutoff, and while they were vindicated by the National 
Research Council's report, this community remains at risk. 
Therein lies our most important message. Nothing has changed. 
Water deliveries are tenuous, agriculture continues to face 
demands for water, devoid of any scientific basis, lenders are 
skittish, families have left. These people are living day to 
day. They cannot continue like this. We need certainty.
    We will hear today from respected scientists that this 
tragedy should never have happened. The NRC said, ``There is 
insufficient scientific or technical justification,'' for the 
high lake and reservoir levels. In other words, the science 
from the 2001 is fundamentally wrong, yet it continues to drive 
decisionmaking. That must end. The biological opinions must be 
changed to reflect the best science, and farmers need firm 
assurances that they will be involved.
    The water bank must be done away with. It was supposed to 
be an interim solution as storages developed and the best 
science was incorporated. Instead, it has placed additional 
demands on farmers and instituted more land idling. Mr. 
Chairman, this water bank is harming agriculture. We need to be 
vigorously pursuing water storage opportunities. Congress 
passed legislation in 2000 directing the Bureau to do just 
that. Here we are today, however, nearly 4 years later, and I 
have not heard a word to indicate positive movement forward. We 
need the committee's help to get the Bureau off the dime and 
push these critical storage studies forward with the urgency 
they demand.
    As we reflect back on and hear testimony today about the 
tragedy of 2001 and the lingering economic effects, let me 
repeat this critical message: The reason why we're here, 
despite some positive developments, nothing has changed. Much 
remains to be done. We urgently need the committee's help using 
the fresh air the NRC report provides to take the positive 
steps that will create water supply certainty and restore a 
stable economic future for Blake in this community. Thank you, 
Mr. Chairman.
    [The prepared statement of Mr. Herger follows:]

 Statement of The Honorable Wally Herger, a Representative in Congress 
                      from the State of California

    Mr. Chairman, I'd like to take a moment to read a very brief letter 
from a young man named ``Blake Bettendorf.'' He's from Tulelake.
    April 12, 2001
    Dear Congressman Herger,
    I have farmed all my life. I want to do it more than 8 years. I 
love crops and fields. Please help us! People count on us. The stores 
do too. So they really need us.
    2 grade, Your friend,
    Blake
    Blake was 8 years old when he wrote this letter to me in the wake 
of the tragic 2001 water shut off. He's probably 11 today.
    Mr. Chairman, Blake is the poster child for what is at stake here. 
This young man is the face of agriculture in the Klamath Basin. His 
future--and the future of every man and woman in this community--hangs 
in the balance. This is why we will continue to fight. I want Blake to 
grow up knowing he has a future in this community.
    While farmers have received water each year since the shutoff, and 
while they were vindicated by the National Research Council's report, 
this community remains at risk. Therein lies our most important 
message: Nothing has changed. Water deliveries are tenuous ... 
agriculture continues to face demands for water devoid of any 
scientific basis ... lenders are skittish ... families have left. These 
people are living day to day. They cannot continue like this. We need 
certainty.
    We will hear today from respected scientists that this tragedy 
should never have happened. The NRC said, ``there is insufficient 
scientific or technical justification'' for high lake and reservoir 
levels. In other words, the ``science'' from 2001 is fundamentally 
wrong. Yet, it continues to drive decision making. That must end. The 
Biological Opinions must be changed to reflect the best science. And 
farmers need firm assurances that they will be involved.
    The ``water bank'' must be done away with. It was supposed to be an 
interim solution as storage is developed and this best science 
incorporated. Instead, it has placed additional demands on farmers and 
instituted more land idling. Mr. Chairman, this ``water bank'' is 
harming agriculture.
    We need to be vigorously pursuing water storage opportunities. 
Congress passed legislation in 2000 directing the Bureau to do just 
that. Here we are today, however, nearly four years later, and I have 
not heard word one to indicate positive movement forward. We need the 
Committee's help to get the Bureau ``off the dime'' and push these 
critical storage studies forward with the urgency they demand.
    As we reflect back on and hear testimony today about the tragedy of 
2001 and the lingering economic effects, let me repeat this critical 
message--the reason why we're here: despite some positive developments, 
Nothing has changed. Much remains to be done.
    We urgently need the committee's help, using the ``fresh air'' the 
NRC report provides, to take the positive steps that will create water 
supply certainty and restore a stable economic future for Blake and 
this community.
    Thank you.
                                 ______
                                 
    Mr. Calvert. Thank you, gentleman. I would now like to 
recognize Mr. Doolittle for his opening statement.

  STATEMNT OF THE HON. JOHN T. DOOLITTLE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Doolittle. Mr. Chairman, thank you. You have a full 
copy of my opening statement, and I will not go over that at 
this time. I will simply say that I'm delighted to be here with 
my colleagues. I thank you especially, Mr. Chairman, for 
convening this field hearing.
    I think this is a very important opportunity for us to hear 
from the experts as to what needs to be done to improve the 
Endangered Species Act, but also I hope, as one of the area's 
representatives, that we will find a solution that will meet 
the needs of all the stakeholders. It's my belief that probably 
more water needs to be added to the system as a way to bring 
the certainty that Mr. Herger was speaking of, as a way to 
resolve a lot of the problems that we have here.
    This Klamath Irrigation Project has been, I think, unfairly 
criticized. It's one of the great Federal reclamation projects 
in the United States, one of the earliest ones. Nevertheless, 
it's not without problems, as we've come to realize over the 
years, as certain major deterioration has occurred to fisheries 
and brought about undesirable conditions. I think that we hold 
the ability to identify solutions to remedy some of those 
problems.
    I support very strongly the right of the people in this 
basin to the livelihood that they're accustomed to having. I 
know that we have a great division of interest, say between the 
Tribes and the farmers.
    I would hope that a solution could be developed that would 
treat all parties equitably and would actually do something to 
resolve the problems rather than just to simply be a constant 
source of division and discord and frustration, such as it 
seems to have been over the past few years.
    We have made strides in other areas farther down south in 
our district. We were able to come to terms with a solution 
after years and years of disagreement. These issues affecting 
us here, I would submit, are more complex and perhaps more 
intractable, but I think we're people of good faith working 
together toward a common end, much can be accomplished. So it 
is in that spirit I hope we will hold this hearing, and I thank 
you again for the opportunity to be here and to draw focus to 
what is really a very, very serious set of problems in this 
region.
    [The prepared statement of Mr. Doolittle follows:]

   Statement of The Honorable John T. Doolittle, a Representative in 
                 Congress from the State of California

    Good morning, Mr. Chairman. I want to thank you for honoring the 
request made by Congressman Herger, Congressman Walden and me to 
conduct this important field hearing in Klamath Falls, Oregon. I would 
also like to thank those who are here to testify today and the many 
individuals who have continued to fight for responsible environmental 
policy that encourages collaboration and community stability, not 
conflict and uncertainty.
    As you know, I am honored to represent the communities made up of 
hard working people in Modoc County, California. For generations, the 
citizens of this county and nearby counties in Oregon, California, and 
Nevada have cultivated a great appreciation and respect for the natural 
resources of this landscape and the wildlife that shares it. These 
communities have worked and continue to work hand in hand with federal 
and state agency officials in an effort to maximize the potential of 
these vast resources. Unfortunately, these award-winning efforts and 
leadership roles have yielded little benefits when faced with the 
rigid, outdated, and unsuccessful Endangered Species Act (ESA). 
Communities that once supported dozens of timber mills and raised tens 
of thousands of domesticated livestock now watch in horror as the ESA 
threats to cripple a third industry, that of irrigated agriculture. We 
cannot stand by and let this happen. It is my hope that this House 
Water and Power Subcommittee Field Hearing (Hearing) will reverse the 
chain of events that have brought us to this unfortunate place and 
serve as a catalyst for amending the ESA to make it a better and more 
effective law while respecting the rights and interests of communities 
and property owners.
    From spotted owls, frogs, beetles, fish, and even soils and plants, 
my constituents have suffered extreme difficulties as a result of ESA 
mandates. In addition, the taxpayer has borne the cost of this 
excessive law and the expensive and time consuming burdens it places on 
vital local endeavors ranging from levee construction to road building 
to farming. However, the costs have never been so high as they are in 
the Klamath Basin (Basin). From lost crops in 2001 to the cold feeling 
of uncertainty with regards to water supplies, ESA requirements and the 
haphazard implementation of programs designed to ``benefit'' species 
have taken a dramatic toll on the economies and social well-being of 
these farming communities. I find it both ironic and disheartening that 
the very communities besieged by this process are ones that were 
started by men and women who sacrificed the most for our country. For 
those who may not know it, the Klamath Irrigation Project (Project) was 
settled by veterans of World War I and World War II and built on the 
federal government's promise of a reliable water supply for crops in 
perpetuity. These patriots could have never imagined that the most 
serious and threatening foe to their way of life and that of their 
children and grandchildren would not end up being the Japanese, 
Germans, or Russians, but their own government and its misguided 
policies manipulated through the judicial system by environmental 
zealots and extremists.
    I believe the original homesteaders would be proud of the way the 
communities they started have responded to the injustices brought on by 
the ESA. For the last ten years Project farmers have advocated 
solutions that will bring benefits to fish and birds as well as to 
sustainable agriculture. Project farmers have entered into voluntary 
agreements that have improved habitat for suckers, enhanced fish 
passage capabilities, restored wetlands, improved water quality, and 
bettered already impressive water-efficient agricultural practices. In 
addition, farmers agreed to early shutdowns in 1992, 1994, and 2000 in 
an effort to conserve water for environmental purposes. To this day, 
they pump valuable groundwater with minimal or no compensation. Project 
farmers have been leaders in developing and encouraging new water 
storage capabilities and participated in innovative partnerships with 
Klamath Wildlife Refuge Managers and officials from every stakeholder 
group that offers a fair and open mind. I am pleased to see that these 
efforts have been recognized with recent awards and accolades. The 
Klamath Water Users Association (KWUA) recently accepted two awards on 
behalf of its members: a 2003 Oregon Leader in Conservation Award and 
an award for contributing to the goals of the Oregon Plan for Salmon 
and Watersheds. In addition to these tributes, the Tulelake Irrigation 
District was granted the F. Gordon Johnston Award at the Mid-Pacific 
Water Users Conference in recognition of its innovative canal lining 
project. Finally, the Basin is now home to a national ``Excellence in 
Conservation'' award as determined by the Natural Resources 
Conservation District. Mike Bryne, a rancher and farmer in Tulelake, 
was given this prestigious award for his leadership in arranging and 
encouraging conservation measures on private land. Clearly, these 
efforts are not driven by greed or by a desire to manipulate and 
degrade the environment, but rather by fervent respect and love for the 
land that supports these communities and produces commodities American 
citizens take for granted every day. Project farmers understand that 
the great benefits bestowed from the land come with great 
responsibility for its sustainability and vibrancy. They have accepted 
this responsibility and have excelled in implementing projects 
beneficial to the entire watershed, sacrificing their own time and 
financial resources.
    While the leadership efforts of farmers have recently received high 
praise and appreciation from officials in Salem and Washington D.C., 
these efforts have not lessened the burdens imposed by a bloated and 
divisive water bank affecting Project farmers and by the failure to 
incorporate the best available science into flow regimes for the 
Klamath River and lake levels for Upper Klamath Lake.
    I insist that the objective science and recommendations published 
recently by the National Research Council (NRC) regarding endangered 
and threatened fishes in the Klamath River Basin be implemented by the 
federal agencies having jurisdiction in this matter. A brief 
examination of this report yields many useful facts, smartly pointing 
out that the recovery of threatened coho and endangered suckers will 
demand a watershed-wide approach and will not be solved by the valiant 
efforts of farmers and ranchers that make up a mere two percent of the 
entire watershed. Additionally, flaws in the underlying science and 
assumptions guiding agency decisions were questioned and a whole host 
of insightful and easily-implemented recommendations were made. Perhaps 
most striking was the report's finding that Project operations were not 
responsible for the 2002 fish die-off 200 miles downstream on the 
Klamath River. Also of note was its sharp rebuke of the methods and 
findings of Dr. Thomas Hardy. We are here today to highlight these 
aspects of the report and to find the most effective way to incorporate 
the findings into the biological opinions governing species recovery 
and Project operations.
    It has been said that great challenges present great opportunities. 
That is the situation we are all faced with in the Basin. Project 
farmers have done more than just talk about conserving resources and 
promoting environmental health, they have implemented worthwhile 
projects on the ground while weathering unconscionable uncertainty 
regarding the water that supports their livelihoods and sustains their 
communities. They have stepped up to the challenges presented to them, 
and it is time that the federal government recognize these efforts and 
move to incorporate the recommendations contained in the NRC report as 
well as other initiatives that will benefit users throughout the 
watershed.
                                 ______
                                 
    Mr. Calvert. Thank you. Gentleman's full statement will be 
entered into the record without objection.
    I would now like to recognize our witnesses today, and they 
are Mr. Dave Carman, Chico, California; Mr. Carman is 
accompanied by Mr. Venancio Hernandez; Mr. David Vogel, Natural 
Resources Scientist, Incorporated, Red Bluff, California; The 
Honorable Doug LaMalfa, Assemblyman, 2nd District, California; 
Mr. Troy Fletcher, Klamath River Inter-Tribal Fish and Water 
Commission representative; Mr. Fletcher is accompanied by Mr. 
Allen Foreman, Chairman of the Klamath Tribes; The Honorable 
Ralph Brown, Vice-Chair, Curry County Board of Commissioners, 
Gold Beach, Oregon; Mr. Bill Gaines, Director of Government 
Affairs, California Waterfowl Association, Sacramento, 
California; The Honorable Jimmy Smith, Supervisor, Humboldt 
County Board of Supervisors, Eureka, California; Dr. William M. 
Lewis, Jr., Chair, Committee on Endangered and Threatened 
Fishes in the Klamath River Basin, University of Colorado, 
Boulder, Colorado; Mr. Kirk Rodgers, Regional Director, Mid-
Pacific Region, Bureau of Reclamation; Mr. Rodgers is 
accompanied by Mr. Steve Thompson of the Fish and Wildlife 
Service and Mr. Jim Lecky, National Marine Fisheries Service.
    Now, before I recognize Mr. Carman to begin, I would like 
to explain to all our witnesses, since we have a number of 
witnesses, that we have a little clock up here. It's a 5-minute 
clock. And what that means is, is that when the green light is 
on, that means that there's 4 minutes have gone by. When the 
yellow light is on, that means hurry up, just like going 
through the--and finish your statement, because we're going to 
stick to the 5-minute rule today, because that allows us a 
little more time to ask questions, because we're going to go 
through all of your opening statements first, and then get into 
questions.
    And so with that I would like to recognize Mr. Carman to 
begin his testimony.

  STATEMENT OF DAVE CARMAN, CHICO, CALIFORNIA; ACCOMPANIED BY 
                       VENANCIO HERNANDEZ

    Mr. Carman. Thank you, Mr. Chairman. As you said, I am 
accompanied by Mister--
    Mr. Calvert. I think your mike isn't on, or not close 
enough.
    Mr. Carman. Is that taking off of my time?
    Mr. Calvert. I don't think it's on. Is there a little 
switch on that? We've got some technical help coming here. I 
think you have to be very close to the mike, sir. Get closer.
    Mr. Carman. Are we coming through?
    Mr. Calvert. I don't know. Are we coming through to the 
audience? We got our aid audio guy on it right now. Hold on. 
We're going to old technology here, put a wire in it.
    Mr. Carman. Now what.
    Mr. Calvert. There you go. We're ready. You're recognized 
for 5 minutes.
    Mr. Carman. Thank you, Mr. Chairman. As I said, I'm 
accompanied by Mr. Venancio Hernandez.
    Mr. Chairman and Members of the Committee, my name is Dave 
Carman, and I am a World War II combat veteran and homesteader. 
My presence here today is to represent the veteran 
homesteaders. I would like to begin my testimony with an 
excerpt from Americans at War, by Steven Ambrose.
    ``From beginning to end, the Japanese American War in the 
Pacific was waged with a barbarism and a race hatred that was 
staggering in scope, savage almost beyond belief, and 
catastrophic in consequence. Each side regarded the other as 
subhuman vermin. They called each other beasts, roaches, rats, 
monkeys, and worse. Atrocities abounded, committed by 
individuals, by units, by entire armies, by governments. 
Quarter was neither asked nor given. It was a descent into 
hell.''
    I was born in 1918 in L.A., California. I joined the United 
States Army in 1941. When Pearl Harbor was attacked, I was 
stationed at Fort Jackson, South Carolina. As a 1st Lieutenant 
of the 7th Amphibious Infantry Division, our first amphibious 
landing was in the Aleutian Islands. This was followed by 
Kwajalein Island, where we engaged approximately 5,000 enemy 
soldiers. We landed on February 1st, and by the next evening, 
the operation was complete. We took no prisoners. Our next 
amphibious landing was Leyte Island during the retaking of the 
Philippines, where General MacArthur made his famous remark, 
``I have returned.'' The life expectancy of a lieutenant 
infantryman was seven and a half minutes. I left all my best 
friends; I survived. Why, I don't know. We don't know those 
things.
    After 4 years and 8 months of service, I came home with the 
rank of 1st Lieutenant. When I heard about the homesteading 
opportunity in Tulelake, California, I applied. In 1948 I was 
one of 44 applicants chosen out of 2,000. At the time I had 
never heard of Tulelake, except as a great hunting area. When I 
arrived to see my homestead, there was nothing there, just an 
expanse of opportunity.
    No roads, no houses, no trees, just bare ground. I then 
pitched my tent in the corner of my homestead. My wife, 
Eleanor, was expecting our second child, could not join me 
until later. A tent was not acceptable living quarters for a 
young woman, a small child, and another baby on the way.
    When I began my new life as a Tulelake homesteader, there 
were approximately 300 homesteaders, most of them with 
families. We united and began to build schools, churches, and a 
hospital in Klamath Falls. We started a community. We were 
living the American dream, and our dream was achieved by hard 
work and dedication. And I must say, we could never have done 
this without our wives.
    In 1957 we formed our own irrigation district, taking over 
from the U.S. Bureau of Reclamation. In 1967 we paid off our 
portion of the Klamath Project debt to the Federal Government, 
and the irrigation district became totally ours.
    In closing, I want to say we fulfilled the American dream, 
and in 2001 the Endangered Species Act came very close to 
destroying our dream. Our dream was changed into a nightmare. 
We now know that the water cutoff was not justified.
    In my hand I have a patent for a homesteader signed by 
President Franklin D. Roosevelt, given to a veteran of World 
War I. This document guarantees the right to use water from the 
Klamath Reclamation Project by a homesteader and his heirs 
forever. I would like to remind everyone that our children 
learned farming from us.
    They are homesteaders in the same regard, just as we were 
after World War II. Excuse me.
    Our community has become the poster child of abuse by the 
Endangered Species Act. I respectfully request that the members 
of this Congressional Committee never allows us to be betrayed 
by an Act that has become a tool to destroy rural America. I 
thank you.
    [The prepared statement of Mr. Carman follows:]

           Statement of David Carman, Tulelake, California, 
                 on behalf of the Veteran Homesteaders

    Mr. Chairman and members of the committee:
    My name is David Carman and I am a World War II Combat Veteran and 
Homesteader. My presence here today is to represent the Veteran 
Homesteaders. I would like to begin my testimony with an excerpt from 
Americans at War by Stephen Ambrose: ``From beginning to end the 
Japanese-American war in the Pacific was waged with a barbarism and 
race hatred that was staggering in scope, savage almost beyond belief, 
and catastrophic in consequence. Each side regarded the other as 
subhuman vermin. They called each other beasts, roaches, rats, monkeys 
and worse. Atrocities abounded, committed by individuals, by units, by 
entire armies, by governments. Quarter was neither asked, nor given. It 
was a descent into hell.''
    I was born in 1918 in Los Angeles, California. I joined the United 
States Army in 1941. When Pearl Harbor was attacked I was stationed at 
Fort Jackson, South Carolina. As a 1st Lieutenant of the 7th Amphibious 
Infantry Division our first amphibious landing was the Aleutian 
Islands. This was followed by Kwajalein Island where we engaged 
approximately 5 thousand enemy soldiers. We landed on February 1st and 
by the next evening the operation was complete. We took no prisoners. 
Our next amphibious landing was Leyte Island during the re-taking of 
the Philippines where General MacArthur made his famous remark, ``I 
have returned''.
    The life expectancy of a lieutenant infantryman was seven and a 
half minutes. I lost all my best friends. I survived, why I don't know, 
we don't know those things.
    After 4 years and 8 months of service, I came home with the rank of 
a 1st Lieutenant. When I heard about a homesteading opportunity in 
Tulelake, California I applied. In 1948 I was one of 44 applicants 
chosen out of 2000. At the time I had never heard of Tulelake except as 
a great hunting area. When I arrived to see my homestead there was 
nothing there, just an expanse of opportunity. No roads, no houses, no 
trees, just bare ground. I then pitched my tent in the corner of my 
homestead. My wife Eleanor was expecting our second child, but could 
not join me until later. A tent was not acceptable living quarters for 
a young woman, a small child and another baby on the way.
    When I began my new life as a Tulelake homesteader, there were 
approximately 300 homesteaders, most of them with families. We united 
and began to build schools, churches and a hospital in Klamath Falls. 
We started a community. We were living the American dream and our dream 
was achieved by hard work and dedication, and I must say we could never 
have done this without our wives.
    In 1957, we formed our own irrigation district taking over from the 
U.S. Bureau of Reclamation. In 1967 we paid off our portion of the 
Klamath Project debt to the federal government and the irrigation 
district became totally ours.
    In closing, I want to say we fulfilled the American dream and in 
2001 the Endangered Species Act came very close to destroying our 
dream. Our dream was changed into a nightmare. We now know that the 
water cut-off was not justified.
    In my hand, I have a patent for a homesteader signed by President 
Franklin D. Roosevelt given to a veteran of World War I. This document 
guarantees the right to use water from the Klamath Reclamation Project 
by a homesteader and his heirs forever. I would like to remind everyone 
that our children learned farming from us. They are homesteaders in the 
same regard just as we were after World War II.
    Our community has become the poster child of abuse by the 
Endangered Species Act. I respectfully request that the members of this 
congressional committee never allow us to be betrayed by an Act that 
has become a tool to destroy rural America.
                                 ______
                                 
    Mr. Calvert. Thank you. Thank you, Mr. Carman. Thank you 
for your statement. Thank you for your service.
    Mr. Carman. Thank you.
    Mr. Calvert. Next I am privileged to represent--recognize 
Mr. Vogel. Mr. Vogel, you're recognized for 5 minutes.

 STATEMENT OF DAVID VOGEL, NATURAL RESOURCE SCIENTISTS, INC., 
                     RED BLUFF, CALIFORNIA

    Mr. Vogel. Mr. Chairman and other Congressional members, my 
name is David Vogel. Thank you for the opportunity to testify 
today. I'm a fishery scientist with 29 years of experience and 
have served as a science advisor to Klamath Project water users 
for the past 12 years. Today I'll be summarizing two topics 
that are further detailed in my written testimony.
    The first point refers to the double standard used by the 
fishery agencies in implementing the ESA. In 1988 it was 
assumed that the suckers would be extinct in just a few years. 
That population crisis never materialized. Either mistakes were 
made on the assumed population status or the sucker populations 
have demonstrated a remarkable improvement. I believe it was a 
combination of both. The suckers are now conclusively known to 
have much greater numbers, reproduction, and distribution than 
originally reported. Although this is indisputable, empirical, 
and positive evidence, current implementation of the ESA does 
not provide the flexibility to downlist or delist the species. 
The process and rationale to list a species should not be held 
to a different standard for delisting. The science on the 
suckers evolved with beneficial new information, but the Fish 
and Wildlife Service's application of the ESA did not. Despite 
the so-called ecosystem approach to recovery, advocated by 
Federal agencies, their action showed otherwise. In fact, the 
exact opposite took place. They focused on single-species 
management and Klamath Project operations.
    In 1988 the Klamath Project was not identified as having 
known adverse effects on the sucker populations. Yet, 4 years 
later, using limited or no empirical data, the Service turned 
to the Klamath Project as their singular focus. Paradoxically, 
since the early 1990s, despite an abundance of scientific 
evidence on the species' improvement and lack of relationship 
with Klamath Project operations, the agency increased 
restrictions on irrigators. This circumstance caused tremendous 
expense by diverting valuable resources away from other known 
factors affecting the fish.
    A similar occurrence occurred with NOAA Fisheries during 
and after the coho salmon listing. The Klamath Project was not 
identified as a significant factor causing declines in coho. 
But shortly thereafter and with no supporting data, the agency 
chose to center its attention on the Klamath Project as the 
principle factor. Both agencies adopted a single-minded 
approach of targeting the Klamath Project. What compelling 
empirical scientific data would cause a broad-spectrum approach 
for series recovery to rapidly shift into a narrow, singular 
attack on project irrigators?
    The bottom line on the ESA double standard is this: The 
standard to list a species is vastly different than delisting a 
species, and what agencies say they will do at the time of 
listing is radically different after listing. The public was 
misled.
    Now for the good news. My second point today pertains to 
the outstanding benefits provided by the NRC's final report. 
It's a long-overdue breath of fresh air. This outstanding 
effort and product must serve as a catalyst for balanced 
natural resource management and get our collective goals back 
on track. After reading the report, the benefits of an ESA peer 
review become obvious. The report advocates a watershed 
approach, peer review, stakeholder involvement, focus on other 
factors in adaptive management actions. Notably these 
recommendations were not new to the two agencies. We have 
reported much of the same information to those agencies over 
the past decade but were importantly largely ignored.
    We are beginning to see signs of progress in the basin.
    However, there are some individuals in a state of denial 
over the NRC report. The agencies still have too much focus on 
the Klamath Project. Instead, attention should return to a 
watershed approach and other more creative and inclusive 
methods of satisfying the ESA. If Federal agencies meaningfully 
incorporate many of the NRC's recommendations, we fully expect 
positive results. However, if the agencies ignore it, we could 
again return to the disaster that transpired in 2001. The 
manner in which the ESA is administered in the Klamath Basin 
must change, or the species may never be delisted. This would 
not be a result of biological reasons, but of procedural 
inconsistencies with the ESA.
    In conclusion, science is constantly evolving based on new 
information. Why shouldn't the ESA also evolve and adapt based 
on lessons learned, such as those in the Klamath Basin? Thank 
you.
    [The prepared statement of Mr. Vogel follows:]

            Statement of David A. Vogel, Senior Scientist, 
                   Natural Resource Scientists, Inc.

                              INTRODUCTION
    Mr. Chairman and other Congressional members, my name is David 
Vogel. Thank you for the opportunity to testify at this important 
hearing. I am a fisheries scientist who has worked in this discipline 
for the past 29 years. I earned a Master of Science degree in Natural 
Resources (Fisheries) from the University of Michigan in 1979 and a 
Bachelor of Science degree in Biology from Bowling Green State 
University in 1974. I previously worked in the Fishery Research and 
Fishery Resources Divisions of the U.S. Fish and Wildlife Service 
(USFWS) for 14 years and the National Marine Fisheries Service (NMFS) 
for 1 year. During my tenure with the federal government, I received 
numerous superior and outstanding achievement awards and commendations, 
including Fisheries Management Biologist of the Year Award for six 
western states. For the past 14 years I have worked as a consulting 
scientist on behalf of federal, state, and county governments, Indian 
tribes, and numerous other public and private groups. During my career, 
I have been extensively involved in Endangered Species Act (ESA) issues 
including research on threatened and endangered species, listing of 
species, Section 7 Consultations, Biological Assessments, Biological 
Opinions, and recovery planning. I was a principal author of the 
original 1992 Biological Assessment for the Klamath Project and served 
as a peer reviewer for both of the National Research Council (NRC) 
Klamath Committee's reports. I have worked as a scientific consultant 
for the Klamath Water Users Association (KWUA) for the past 12 years.
    I would like to bring to your attention several points highly 
relevant to the purpose of this hearing. The details of my testimony 
are encompassed by two main topics:
    1)  A serious problem with inconsistent application of ESA science
    2)  The benefits of the recent NRC's review of the Klamath 
situation

      INCONSISTENT APPLICATION OF ESA SCIENCE IN THE KLAMATH BASIN
                 (THE PROBLEM OF ESA DOUBLE STANDARDS)
    While conducting my research, I uncovered some very troubling 
information relating to the original listing of the suckers as 
endangered in 1988. A chronology of events leading up to and following 
the listing reveals disturbing evidence that should serve as a wake-up 
call in order to avoid future ESA problems similar to those experienced 
in the Klamath basin. As you will see, we have learned from the Klamath 
situation that: 1) the standard to list a species is greatly different 
than the standard to delist a species; and 2) what the federal agencies 
claim they will do at the time of species listing (ecosystem approach) 
can be dramatically different after listing (narrow, singular focus). 
The following are just some representative examples, although many 
others exist.
Sucker Population Estimates
    The most compelling and prominent reason why the federal government 
justified listing the two sucker species as ``endangered'' in 1988 was 
an apparent abrupt downturn in both populations during the mid-1980s. 
At that time, the sucker population declines were characterized as 
precipitous (Federal Register, Vol. 53, No. 137), alarming (USFWS 
1987), drastic (Williams 1986), shocking (Bienz 1986), dramatic, and a 
crisis (Kobetich 1986a). In 1986, the Klamath Tribes believed that both 
species would become extinct by 1991 without immediate action (Kimbol 
1986). At the same time, the Bureau of Indian Affairs (BIA) suggested 
the shortnose suckers would be extinct in just a few years (BIA 1986). 
In 1987, a USFWS report stated that the consensus of opinion was: 
``shortnose suckers are in danger of dying out in the next several 
years'' (Williams 1987). In 1984, the Upper Klamath Lake population of 
shortnose suckers was estimated at 2,650 fish and in 1985 too few fish 
could be found to estimate the population size. The estimated Lost 
River sucker population was 23,123 fish in 1984 and 11,861 fish in 1985 
(Federal Register, Vol. 53, No. 137). In the Lost River watershed, it 
was assumed (incorrectly) that only a small population of Lost River 
suckers were present and that the shortnose suckers had so extensively 
hybridized, their populations were discounted as contributing to the 
species (Kobetich 1986a, Federal Register, Vol. 53, No. 137). To 
support the decision to list the suckers, the USFWS believed the only 
significant remaining populations were in Upper Klamath Lake. We now 
know that the assumptions by the USFWS were in error and the assumed 
sucker population crisis never materialized. In fact, shortly after 
listing of the species, the populations demonstrated dramatic 
increases.
    The estimates used to justify an extremely low population in the 
1980s were based on a very limited, inappropriate technique and 
exceptionally small sample size, but was deemed adequate by the USFWS 
to support listing the species. However, more than a decade later, with 
a much more valid, sophisticated technique and extremely large sample 
sizes that amply demonstrated very high sucker populations, the new 
method was deemed by the USFWS as unsuitable for use in delisting. 
Displaying a striking inconsistent application of ESA science in its 
recent decision not to accept a delisting petition, the USFWS 
concluded, ``Comparisons between current estimates and those made 
during the fishery, prior to its termination in 1987, are not 
informative due to extreme differences in methodology. Population 
estimates made since listing, while numerically higher than earlier 
estimates, show no overall trend for increasing populations within the 
last decade.'' (Federal Register, Vol. 67. No. 93). The science on the 
suckers evolved with beneficial new information, but the USFWS's 
application of the ESA did not.
    One of the most revealing statements demonstrating a conflicting 
use of the ESA is provided by the USFWS in a 1986 internal memorandum. 
At that time, the USFWS believed that there were only about 12,000 Lost 
River suckers in Upper Klamath Lake and that suckers elsewhere were 
hybridized or simply small, remnant populations. Yet given those 
circumstances, the USFWS concluded: ``We have chosen not to pursue 
listing of the Lost River and Klamath largescale suckers at this time 
because of their larger population sizes and broader distribution'' 
[compared to the shortnose suckers] (Kobetich 1986a). It is apparent 
the agency flip-flopped its standard for ``endangered'' status because 
by the mid-1990s, it was determined that the Lost River suckers greatly 
exceeded the original 12,000 population by tens of thousands of fish 
and were found over a greater geographic area, yet the species remained 
``endangered''.
Sucker Recruitment
    The lack of significant recruitment of both species was considered 
by the USFWS as a convincing reason to list the species as 
``endangered'' in 1988, suggesting that neither species of sucker had 
spawned successfully in Oregon for approximately 18 years (Federal 
Register, Vol. 53, No. 137, citing Scoppettone 1986). Conversely, it is 
now evident that the Upper Klamath Lake sucker populations have gone 
from assumed little or no recruitment in the approximate 18 years prior 
to listing, to recruitment in every year including substantial 
recruitment in some years (NRC 2004). Based on data collected during 
the 1990s, we now know the USFWS's assumptions on sucker recruitment 
were flawed.
Harvest of Suckers
    Just prior to the listing of the suckers in 1988, a sport snag 
fishery was allowed. Before 1969, the fishery was largely unregulated 
with no harvest limit; in 1969 a generous bag limit of 10 fish per 
angler was imposed (Golden 1969). During the early to mid-1980s, 
despite the belief that the numbers of fish were in a state of rapid 
decline, the State of Oregon still allowed the sport snag fishery. 
Ultimately, because of increased focus on the status of the sucker 
populations, Oregon eliminated the fishery in 1987. What is 
particularly interesting about this circumstance is that written 
records indicate that none of the involved individuals at the time 
believed that the annual sport harvest of thousands of suckers on their 
spawning grounds was a significant factor contributing to the declines 
in the populations (e.g., Andreason 1975). In 1986, the USFWS 
concluded, ``Loss of fish to the snag fishery does not appear to have a 
causal factor in the decline.'' (Kobetich 1986a) and ``Fishing does not 
appear to be a significant threat for any of the suckers.'' (Kobetich 
1986b). However, an examination of historical records demonstrates that 
the harvest of suckers was extensive (Cornacchia 1967, Golden 1969). 
The first detailed description explaining how and why the snag fishery 
caused significant harm to the sucker populations was provided by Vogel 
(1992). More recently, the NRC Klamath Committee came to the same 
conclusion (NRC 2004). If the USFWS would have properly assessed the 
known impacts on the suckers caused by the snag fishery and the 
benefits from ceasing the fishery, it very likely could have affected 
the ultimate listing decision.
    Simply stated, the largely unregulated snag fishery slaughtered the 
sucker populations. Since the fishery was eliminated in 1987, the two 
sucker populations dramatically rebounded. The threat was removed and 
the populations increased ten-fold. But unlike the rationale to 
originally list the species, the current inflexibility of the ESA will 
not account for that major beneficial effect.
Species Distribution
    As stated earlier, the USFWS essentially discounted the Lost River 
suckers in the drainage as a significant contribution to the species 
status because only a ``small, remnant population'' was present in 
Clear Lake. The shortnose suckers in the drainage were essentially 
written off because of purported extensive hybridization.
    As soon as just three years after the sucker listing, it became 
evident that the USFWS's assumptions on the status of shortnose suckers 
and Lost River suckers in the Lost River/Clear Lake watershed had been 
in serious error. Surveys performed shortly after the sucker listing 
found a substantial (reported as ``common'') population of shortnose 
suckers in Clear Lake exhibiting a young age distribution (1-23 years) 
and young Lost River suckers (3-23 years old). Within California, the 
surveyors considered populations of both species as ``relatively 
abundant, particularly shortnose, and exist in mixed age populations, 
indicating successful reproduction'' (Buettner and Scoppettone 1991).
    The geographic range in which the suckers are found in the 
watershed is now known to be much larger than believed at the time the 
suckers were listed as endangered in 1988. For example, other than the 
abundant population of shortnose suckers found by surveys performed in 
Clear Lake just after the listing, it was reported in 1991 that 
shortnose suckers were found ``throughout the Clear Lake watershed in 
the upper basin''. It was also reported that ``there may be a 
substantial population'' of Lost River suckers in Clear Lake (Buettner 
and Scoppettone 1991). Since the 1991 report, shortnose suckers have 
also been found at Bonanza Springs, Anderson-Rose Dam, and Tule Lake; 
Lost River suckers have been found at the latter two locations. Recent 
population estimates for suckers in the Lost River/Clear Lake watershed 
indicate their numbers are substantial and that hybridization is no 
longer considered a significant issue (NRC 2004). Tens of thousands of 
shortnose suckers, exhibiting good recruitment, are now known to exist 
in Gerber Reservoir.
    Had it been known, these major findings undoubtedly would have had 
a significant influence on the listing decision. Again, unlike the 
rationale used to list the species, the inflexibility of the ESA has 
not accounted for this major improvement to fish distribution 
throughout the watershed.
The USFWS and NMFS Singular Focus on the Klamath Project
    The Endangered Species Act of 1973 states: ``The purposes of this 
Act are to provide a means whereby the ecosystems upon which endangered 
species and threatened species depend may be conserved ``''. Despite 
the so-called ecosystem approach to species recovery advocated by the 
USFWS and NMFS, their actions in the Klamath basin over the past decade 
amply demonstrates that the exact opposite took place. They focused on: 
1) a single-species approach; and 2) Klamath Project operations.
    At the time of the listings in 1988, the Klamath Project was not 
identified as having known adverse affects on the sucker populations, 
yet four years after the listing, using limited or no empirical data, 
the USFWS turned to the Klamath Project as their singular focus. 
Paradoxically, since the early 1990s, despite new beneficial empirical 
evidence on the improving status of the species and lack of 
relationship with Klamath Project operations, the USFWS became ever 
more centered on project operations and increased restrictions on 
irrigators instead of paying attention to more obvious, fundamental 
problems for the species. This circumstance caused tremendous expense 
in dollars and time by diverting resources away from other known 
factors affecting the species.
    In 1987, the USFWS published a notice in the Federal Register 
soliciting comments on the proposed listing of the two suckers as 
endangered species. No public hearing was requested or held, probably 
because the USFWS did not identify Klamath Project operations as 
affecting the species. For the most part, the listing was innocuous. 
Only 13 written comments were received, with none opposed to the 
listing. Only two private parties responded; the rest of the comments 
in support of the listing came from government agencies, an Indian 
Tribe, and environmental organizations. Numerous documents prior to the 
sucker listing made it evident that the USFWS would not focus on the 
Klamath Project. If the suckers were proposed for listing today, it 
would be interesting to note how many individuals would oppose it 
knowing the scientific facts that the last 16 years have produced; 
particularly if the USFWS would have revealed that it was going to 
focus its attention on Klamath Project operations.
    A similar circumstance occurred with NMFS during and after the coho 
salmon listing in the lower basin. It cited the reasons to list coho 
salmon, excluding Klamath Project operations as a significant factor 
affecting the species. However, shortly following the listing, and with 
no supporting data, NMFS chose to center its attention on the Klamath 
Project as the principal factor affecting coho salmon. Both agencies 
adopted a single-minded approach of focusing on Klamath Project 
operations to artificially create high reservoir levels and high 
reservoir releases. This puzzling, similar sequence of events has yet 
to be explained by agency officials. What compelling, empirical 
scientific data would cause a broad-spectrum approach for species 
recovery to quickly turn into a narrow, singular attack on Klamath 
Project irrigators?
    Based on what was learned in the Klamath basin, what the agencies 
say they will do at the time of a listing and what they end up doing 
after the listing are radically different. These problems have 
continued well after the sucker and coho listings. Now that the 
independent NRC report has been published, hopefully, this unbiased and 
balanced document will put things back on track toward a more holistic 
approach. The fact remains, despite the ESA mandate, the USFWS and NMFS 
did not use an ecosystem-based approach for species recovery.

                        THE NRC'S KLAMATH REPORT
    As an individual who has been extensively involved with ESA 
technical issues in the Klamath basin for more than a decade, I can 
tell you that the NRC's final report is a long-overdue breath of fresh 
air for the basin. For reasons now clearly evident, our original 
recommendation for an outside technical review of the ESA activities in 
the Klamath basin by an objective group such as the National Academy of 
Sciences back in 1993 (KWUA 1993) was an important first step. The 
benefits of an ESA peer review are obvious after reading the NRC's 
final report.
    The NRC Klamath Committee and the NRC staff should be commended for 
a job well done. Despite intense efforts by some agencies and 
individuals, the NRC Committee did not succumb to ``peer pressure 
science'' to derive their conclusions. Science needs open dialogue and 
debate, not the animosity and close-mindedness that some isolated 
individuals and groups have generated in the basin.
    We are beginning to see signs of progress with ESA activities in 
the basin. However, alarmingly, there are some individuals within the 
agencies that are in a state of denial over the findings and 
conclusions of the NRC's report. This is evident, for example, when you 
examine the recent NOAA Fisheries revised incidental take statement for 
the Klamath Project Biological Opinion. The agency did not mention or 
incorporate the pertinent findings of the final NRC report and 
continued to cite non-peer reviewed draft reports to form their 
``opinions''. Also unfortunately, there appears to be a disturbing 
mindset and trend among some groups to spend time and funds 
unnecessarily on litigation when it comes to ESA issues. That approach 
will stifle the scientific advancement of species recovery. These two 
circumstances should not be allowed to occur. Despite the NRC's final 
report, the USFWS and NMFS still have too much focus on the Klamath 
Project (as indicated from recent Biological Opinions) and not enough 
emphasis on a watershed-wide approach. The NRC final report should 
serve as the primary mechanism to get the Klamath situation back on 
track toward species recovery and reduction of resource conflicts. The 
agencies need to begin focusing on other factors affecting the species 
and other, more creative and inclusive methods to satisfy the ESA 
statute (NRC 2004).
    It is very important to note that many of the most pertinent 
findings, conclusions, and recommendations of the NRC Klamath Committee 
were not new to the USFWS or NMFS. The NRC final report advocates a 
watershed approach, peer review, greater stakeholder involvement, 
oversight of agency actions, focus on factors other than the Klamath 
Project operations, reduction of resource conflicts, and incorporation 
of the principles of adaptive management toward species recovery. Over 
the past decade, I and others reported much of the same and similar 
technical findings and recommendations to those two agencies, but were 
mainly ignored (e.g., Vogel 1992, KBWUPA 1993, KBWUPA et al. 1994, KWUA 
et al. 2001, and comments by the KWUA on the USFWS and NMFS Biological 
Opinions). Additionally, the NRC's major conclusion that there is 
insufficient scientific justification for high reservoir levels and 
high instream flows was always prominent in our technical comments on 
the agencies' biological opinions during the past decade.

                                SUMMARY
Inconsistent Application of the ESA
    In the Klamath basin, the science associated with the species 
evolved, but the ESA did not adapt or incorporate that science. At the 
time of the 1988 listing of the suckers as endangered species, the 
information on population status, geographic distribution, and 
recruitment was either in error or the sucker populations have 
demonstrated a remarkable improvement over the past decade. I believe 
it was a combination of both. The two sucker populations are now 
conclusively known to be much greater in size, demonstrating major 
increases in recruitment, and are found over a much broader geographic 
range than originally reported in the 1988 ESA listing notice. Despite 
this indisputable empirical evidence, current implementation of the ESA 
does not provide the flexibility necessary to downlist or delist the 
species. The process and rationale to list a species should not be held 
to a different standard for delisting a species. Additionally, despite 
the ESA mandate, the USFWS and NMFS did not use an ecosystem-based 
approach for species recovery and inappropriately focused their 
resources on the Klamath Project.
The NRC Klamath Report
    The NRC Klamath Committee's final report was an outstanding effort 
and the product must serve as a catalyst to advance balanced natural 
resource management in the basin. If federal agencies meaningfully 
incorporate many of the NRC's principal findings, conclusions, and 
recommendations, we fully expect positive results to the species 
recovery and reduced resource conflicts. We should use the momentum of 
the NRC's final report to guide recovery efforts and watershed 
improvements. However, if the agencies do not take this pro-active 
approach, we could again return to the disaster that transpired in 
2001. If the manner in which the ESA is administered in the Klamath 
basin does not change, it is unlikely that the species will ever be 
delisted. This circumstance would not be a result of biological 
reasons, but because of procedural problems with the ESA and its 
implementation.
    Science is constantly evolving based on new research and 
information. Why shouldn't the ESA also evolve and adapt based on 
lessons learned such as those in the Klamath Basin?

                               REFERENCES
Andreasen, J. K. 1975. Systematics and status of the Family 
        Catostomidae in Southern Oregon. PhD Thesis, Oregon State 
        University, Corvallis, OR. 76 p.
Bienz, C. S. 1986. Letter to U.S. Fish and Wildlife Service, Endangered 
        Species Division transmitting results from the collective 
        efforts of the Klamath Tribe and Oregon Department of Fish and 
        Wildlife on the sucker study. February 6, 1986. 6 p.
Buettner, M. and G. Scoppettone. 1991. Distribution and Information on 
        the Taxonomic Status of the Shortnose Sucker, Chasmistes 
        brevirostris, and Lost River Sucker, Deltistes luxatus, in the 
        Klamath Basin, California. Completion Report. CDFG Contract FG-
        8304. 101 p.
Bureau of Indian Affairs. 1986. Briefing paper on Klamath Tribal 
        resident fishery regarding the status of the shortnose and Lost 
        River suckers. BIA Portland Area Office. December 30, 1986.
Cornacchia, P. 1967. Eugene Register-Guard. May 7, 1967. News article 
        entitled ``Mullet -- homely, but popular''.
Golden, M.P. 1969. January 1969. The Lost River sucker Catostomus 
        luxatus (Cope). Oregon State Game Commission-Central Region 
        Administrative Report No. 1-69. January 1969. 9 p.
Kimbol, C. E. (Chairman, the Klamath Tribe). 1986. Letter to Stanley 
        Speaks, Area Director, BIA regarding immediate request of 
        program support for Klamath Tribal fishery resource protection. 
        December 22, 1986.
Klamath Basin Water Users Protective Association. 1993. Initial 
        ecosystem restoration plan for the upper Klamath River basin 
        with focus on endangered species recovery and water management 
        improvements. January 1993.
Klamath Basin Water Users Protective Association, Klamath County, and 
        Modoc County. 1994. Comments by the Klamath Basin Water Users 
        Protective Association, Klamath and Modoc Counties, on the 
        draft Upper Klamath River Basin Amendment to the Long Range 
        Plan for the Klamath River Basin Conservation Area Fishery 
        Restoration Program and the Long Range Plan. January 17, 1994. 
        44 p.
Klamath Water Users Association, D.A. Vogel, K.R. Marine, and A. J. 
        Horne. 2001. Protecting the beneficial uses of waters of Upper 
        Klamath Lake: a plan to accelerate the recovery of Lost River 
        and shortnose suckers. March 2001. 39 p.
Kobetich, G. C. 1986a. U.S. Fish and Wildlife Service Project Leader, 
        Endangered Species, Sacramento, CA. June 2, 1986. Memorandum to 
        Chief, Endangered Species, Portland, OR requesting emergency 
        listing of the shortnose sucker (Chasmistes brevirostris) as an 
        endangered species. 4 p.
Kobetich, G.C. 1986b. Memorandum from U.S. Fish and Wildlife Service 
        Project Leader, Endangered Species, Sacramento, California to 
        Assistant Regional Director, Federal Assistance, Portland, 
        Oregon re. ``Briefing Statement--Opposition and Support for 
        Listing of the Shortnose Sucker as an Endangered Species''. 
        July 7, 1986. 4 p.
National Research Council. 2004. Endangered and threatened fish in the 
        Klamath River basin: causes of decline and strategies for 
        recovery. The National Academies Press, Washington, DC. 397 p.
Scoppettone, G. G. 1986. Memorandum to U.S. Fish and Wildlife Service, 
        AFWE, Portland, Oregon regarding Upper Klamath Lake, Catostomid 
        research trip report. October 3, 1986.
U.S. Fish and Wildlife Service. 1987. Two Klamath River Fishes. 
        Endangered Species Technical Bulletin Vol. XII, No. 9. 
        September 1987.
Vogel, D.A. 1992. Preliminary assessment of potential factors limiting 
        populations of the Lost River sucker, Deltistes luxatus, and 
        shortnose sucker, Chasmistes brevirostris. Vogel Environmental 
        Services. July 1992. 29 p.
Williams, J. 1986. U.S. Fish and Wildlife Service. Minutes of the May 
        16, 1986 meeting -- Status of Klamath Basin suckers. May 20, 
        1986. 6 p.
Williams, J. 1987. Memorandum from Jack E. Williams, USFWS-Sacramento, 
        to Interagency Klamath Basin Sucker Working Group and 
        interested parties re. maintenance of juvenile shortnose 
        suckers at Dexter National Fish Hatchery. August 31, 1987.
                                 ______
                                 
    Mr. Calvert. Thank you. I would now like to recognize Mr. 
LaMalfa, Assemblyman LaMalfa, for his testimony. You're 
recognized, sir, for 5 minutes.

       STATEMENT OF THE HON. DOUG LaMALFA, ASSEMBLYMAN, 
                    2ND DISTRICT, CALIFORNIA

    Mr. LaMalfa. Thank you, Chairman Calvert and Members of the 
Committee, not only for allowing me to testify today, but for 
convening this hearing up here on such an important issue for 
the Klamath Basin and State of California and for our nation. 
I'm testifying today not only as the Assemblyman that 
represents the area, including Modoc and Siskiyou County, but 
as the Natural Resources Vice-Chairman for the Assembly in 
Sacramento, as well as a lifelong rice farmer who understands 
the vital need for water for producing crops, environmental 
stewardship, and for the survival of our rural communities.
    This is not merely a struggle between environmentalists, 
local Tribes, farmers, and the government. I would like to 
specifically emphasize that farmers and ranchers are the 
strongest supporters of sound environmental stewardship and are 
committed to improving their businesses to meet environmental 
purposes. The agricultural community has a rich history of 
utilizing their land for open space preservation, watershed 
conservation, and wildlife habitat. The success of our 
agricultural industry as a positive partner for local wildlife 
habitat has not only been a huge success, but also a vital link 
in the chain between environmental stewardship and the economy. 
This is a critical relationship that the ESA must recognize.
    Water is the lifeblood of farming, and we must not minimize 
the importance of this ongoing controversy. Wrong decisions 
made here in the Klamath Basin can create a precedence with far 
reaching consequences. If a misapplication of a rule or 
regulation can suddenly and arbitrarily shut off the water 
here, it can happen anywhere in the nation. If that happens, 
farmers will not be the only ones in danger; our nation's food 
supply will suffer as well.
    We need only look back on the oil embargoes of the '70s and 
the current spike in steel and concrete prices today, driven by 
actions of our rivals around the globe. They do not have 
America's best interests in mind. Do we want to depend on them 
for our food supply as well? Indeed, this morning, on the way 
up, I saw a bumper sticker on an Explorer that said, if you 
like to imported fuel, you'll love imported food, which puts me 
at risk of having my whole 5-minute testimony summarized in a 
bumper sticker.
    But nonetheless, we must be more thoughtful about what our 
regulations and ESA policies have brought on our American 
Heartland and the salt of the earth families who work it all 
for us. The impact of the sudden availability of water left 
local farmers and ranchers immediately harmed, leaving 
thousands of acres of vital farmland unable to produce. The 
resulting trickle-down effect to the broader communities and 
region at large was nearly insurmountable.
    Only after the wholesale destruction of an entire region's 
way of life was a study done that demonstrated the flaws in the 
application of ESA to stop the flow of Klamath water. The 
report rejects the idea that there was any scientific 
justification behind 2001 shutoff of Klamath Project water to 
stakeholders. It is a national tragedy that it took such 
widespread harm to show the lack of credibility in the 
standards set forth in the ESA. The current application of the 
ESA simply is not working. It didn't work here, and this is 
just one example of how dangerous faulty implementation or 
faulty original standards can be.
    The final report of the National Academy of Sciences has 
shown that shutting off water to the Klamath Project was 
absolutely incorrect response to the discovery of the low 
numbers of these fish.
    A full watershed approach involving the local landowners, 
farmers, and ranchers will be the only effective means to 
protect these fish. It is ironic that the people that suffered 
the most from the hasty and panicked response in the first 
place will be the individuals who are the ones involved 
firsthand in the recovery of these species. It is imperative 
that any solution that is implemented in the Klamath Basin must 
be achieved cooperatively with input from all different 
stakeholders with solutions based upon sound scientific 
principles, not fear or mass hysteria.
    Depriving agricultural land of the vital water it needs and 
painting local farmers as the enemy of wildlife are all 
ineffective solutions to a watershed-wide problem. Those have 
been the only solutions attempted thus far, which is a 
travesty. Uncertain science must never be used to justify a 
decision that causes such devastating hardship for our people. 
The government must never implement sudden and unpredictable 
changes in the law or its application that are harmful to the 
farming families and communities they affect.
    To suddenly shut off the water tap to an ag community is 
reckless. We must instead phase in thoughtful environmental 
policy changes over a period of time by working together with 
the people who will be affected, instead of adopting arbitrary 
decisions that devastate business, communities, and lives.
    The current pattern here in the Klamath Basin is flawed, 
and the status quo cannot continue. None of the stakeholders 
are happy or satisfied with the illogical way that the issues 
affecting the project have been treated. Long-term solutions 
for the basin must be comprehensive, scientifically justified, 
and must approach these issues in a way that can be maintained 
effectively in this region for years to come. Instead, I feel 
we must shift the focus from redividing the water pie as it is 
into enhancing, making larger the water pie so that historical 
rights and users are respected and preserved, as well as new 
needs. Our future as well as our heritage demand a vision for a 
long-term solution and not crisis management. Thank you very 
much.
    [The prepared statement of Mr. LaMalfa follows:]

Statement of The Honorable Doug LaMalfa, Assemblyman, Second District, 
   California, and Vice-Chair, Assembly Natural Resources Committee, 
                       California State Assembly

    Thank you Chairman Pombo, Chairman Calvert, and Members of the 
Committee, for allowing me to testify on the issue of the Klamath River 
Basin and the future of the application of the Endangered Species Act 
in this region. I come here today, not just to testify as an 
Assemblyman who represents people and communities harmed by the initial 
water shut off, but also as a lifelong rice farmer who understands the 
vital need of water to producing crops, protecting the environment, and 
the survival of our rural communities.
    This is not strictly a multi-sided struggle between 
environmentalists, local tribes, farmers, and the government. Many of 
the water users have implemented many different programs in an attempt 
to aid the recovery of the endangered sucker and coho salmon species 
that instigated the Bureau of Reclamation's (Bureau) initial shut off 
of the water supply on April 6, 2001. Assistance on creating and 
restoring wildlife refuges, ecosystem enhancement, water quality 
projects and strong attempts at water efficiency are just a few of the 
things that local communities have taken upon themselves in order to 
mitigate harmful effects on these endangered species.
    The impact of the sudden unforeseen availability of water to these 
local communities was devastating. Not only were farmers and ranchers 
immediately harmed, leaving thousands of acres of vital farmland unable 
to produce, but the resulting trickle-down effect to the broader 
communities and region at large was nearly insurmountable. The loss of 
water inflicted $200 million worth of economic damage to the Klamath 
region. You will hear individuals testify today that entire communities 
were almost wiped out entirely by this random and inappropriate 
application of the Endangered Species Act (ESA).
    After the wholesale destruction of an entire region's way of life, 
a study showed that the application of the ESA to shut off availability 
of Klamath water was inappropriate and incomplete. Moreover, the report 
rejects the idea that there was any scientific justification behind the 
2001 shut-off of Klamath Project Water to stakeholders. There was not 
enough scientifically based proof that higher lake and river levels 
would have any effect on the endangered fish. It is a national tragedy 
that it took such widespread harm to show the lack of credibility in 
the standards set forward in the ESA.
    The final report by the National Research Council (NRC) on the 
issue of these endangered species has shown that shutting the water off 
at the Klamath Project was absolutely the incorrect response to the 
discovery of the low numbers of these fish. The final report shows that 
a full watershed approach will be the only effective means to protect 
these fish--a watershed approach that would necessarily include the 
farmers and ranchers in the area. It is ironic that those individuals 
who suffered the most from the hasty and panicked response in the first 
place, will be the individuals who are integrally involved in the 
recovery of the species.
    Hype, fear, and incomplete science almost led to the destruction of 
an entire vital agricultural region. We cannot allow that to ever 
happen again, and we must act to restore stability and harmony between 
the stakeholders of the water in this region.
    It is imperative that any solution that is implemented to the 
myriad challenges in this region must be achieved cooperatively. There 
must be input from all the different stakeholders and such solutions 
must be based upon sound scientific principles as laid out by NRC 
report. The foundation of these solutions must not pander to fear or 
mass hysteria.
    The West Coast's farmland is not just food-producing and economy-
boosting land, it is land that supports the health of the local 
watershed, it is land that feeds, houses, and protects local wildlife, 
it is land that promotes and maintains open space. It is a fallacy to 
believe that without the use of local farmland and the cooperation of 
local farmers and ranchers that the proposed improvements to the 
watershed can be made to protect these endangered species. This is why 
any plan for this area must be a coordinated effort between all the 
stakeholders. The scientific condition of the watershed must be 
determined, and a realistic balanced approach to improving it must be 
worked out at the local level. Regulations and bans, depriving 
agricultural land of the vital water it needs, and painting local 
farmers as the enemy of the local wildlife are all ineffective 
solutions to a watershed-wide problem. Those have been the only 
solutions attempted thus far. That's a travesty.
    We need only look back on the oil embargoes of the 1970's and the 
current spike in steel and concrete prices today, driven by actions of 
our rivals around the globe. They do not have America's best interests 
in mind. Do we want to depend on them for our food security now by 
essentially offshoring our farming as well? We must be more thoughtful 
about what regulations and ESA policies have wrought on our American 
heartland and the salt-of the earth families who work it for all of us.
    The NRC report has provided many different approaches and ideas on 
how to solve this problem. These solutions must be reviewed and a 
balanced, region-wide solution based on sound scientific principles 
that works for all stakeholders must be adopted.
    Current application of the Endangered Species Act simply isn't 
working. It didn't work here, and this is just an example of how 
dangerous faulty implementation or faulty original standards can be. A 
cooperative approach to revising the ESA based upon solid scientific 
principles is critical to preventing the ``mass hysteria'' approach to 
application that was apparently utilized here on the Klamath. 
Constructive changes must be made that consider long-term solutions.
    Many so-called ``environmental problems'' are attempted to be 
solved by outright bans, strict regulations, or other sudden and 
unpredictable changes in the law or its application. This ``shotgun'' 
approach to protecting the environment is too random and too harmful to 
the people, businesses, and communities that it affects. Solutions 
should be implemented over a period of time, so that the people and 
environments that are affected can have time to adapt and implement the 
ultimate goal. To suddenly shut off the water tap to an agricultural 
community, to suddenly determine that a certain fertilizer or pesticide 
can no longer be used, or to suddenly mandate the levels of emissions 
that have to be met because of environmental concerns is unrealistic. 
It gives farmers, ranchers, and other affected parties no time to 
implement changes over a period of time, effectively damaging or 
destroying their businesses, their communities, and their way of life.
    I would like to emphasize that farmers and ranchers are definitely 
NOT against environmental protection, or to making changes, adaptations 
or improvements to their businesses for environmental reasons. The 
agricultural community has shown time and again their willingness and 
ability to utilize their land for open space preservation, watershed 
conservation, and wildlife habitat. They have worked hand-in-hand with 
the environmental community to change things for the better, when they 
have been approached. As a rice grower, the success of our industry as 
a positive partner for local wildlife habitat has been not only a huge 
success, but also a vital link in the chain between environmentalism 
and economy.
    This is the direction that the Endangered Species Act should go. We 
must endeavor to find ways to phase in thoughtful environmental policy 
changes over a period of time by working together with stakeholders and 
involving the actual people on the ground who will be affected, instead 
of adopting arbitrary decisions with no warning that devastate 
businesses, communities and lives.
    The current pattern here in the Klamath Basin is flawed, the status 
quo cannot continue. None of the stakeholders are happy or satisfied 
with the uninformed, illogical, and capricious way that the issue of 
the Klamath Project has been treated. Resources management here needs 
to take place in an objective and reasonable way that balances the 
needs of all the people who will be affected, with the needs of the 
environment. The solution needs to be comprehensive and scientifically 
justified, it needs to approach the issue in a way that can be utilized 
and maintained effectively in that region.
                                 ______
                                 
    Mr. Calvert. Thank you, gentleman. Thank you. Before we 
introduce our next witness, I would ask that everyone please 
turn off their cell phones. Apparently it's interfering with 
the sound system. So if you would please turn off your cell 
phones or Blackberries or whatever, it's causing electronic 
problems.
    And with that I would now like to recognize Mr. Fletcher 
for 5 minutes.

STATEMENT OF TROY FLETCHER, KLAMATH RIVER INTER-TRIBAL FISH AND 
WATER COMMISSION REPRESENTATIVE; ACCOMPANIED BY ALLEN FOREMAN, 
                  CHAIRMAN, THE KLAMATH TRIBES

    Mr. Fletcher. Thank you. Mr. Chairman, Members of the 
Committee, my name's Troy Fletcher. I'm a member and executive 
director of the Yurok Tribe. I'm accompanied here today by the 
Honorable Allen Foreman, Chairman of the Klamath Tribes of 
Southern Oregon. I'm speaking before you today on behalf of the 
Klamath River Inter-Tribal Fish and Water Commission. The 
commission represents three of the largest federally recognized 
Tribes in northern California and the Klamath Tribes located in 
southern Oregon. Collectively the Tribes' ancestral territories 
covers the entire Klamath Basin. The Inter-Tribal Commission's 
purpose is to serve the member Tribes' common goal of restoring 
and protecting the Klamath River Basin fish and water 
resources. We have advocated in the past and prior to this 
meeting that each Tribe would have liked to have a 
representative testify before you. We appreciate the 
opportunity of what we have here. We understand some of the 
constraints and other things that you're facing. In any event, 
our voice is necessary; our voice is important.
    With regard to the specific application of the Endangered 
Species Act in the Klamath Basin, it's important to note that 
the goals of the ESA fall way short of implementing the United 
States' solemn commitments to native people in the basin. The 
government must also consider--
    Mr. Calvert. Excuse me. Will the gentleman please suspend.
    Any disruptions from the audience will not be tolerated. 
Please allow the witnesses to give their testimony. Thank you.
    Mr. Fletcher. Thank you. In addition to the ESA, the 
government must also consider the element of Federal trust 
responsibility to the protection and restoration of Tribal 
Trust resources, which requires the restoration of all fish 
species in the Klamath Basin to a level sufficient to provide 
for the meaningful exercise of Tribal fishing rights, Tribal 
hunting rights, and gathering rights, etcetera. We urge the 
committee to keep in mind the Federal Government's duty to 
protect the resources of our Tribes, that it includes a duty to 
protect all of those resources, not just the two species 
subject to the ESA concerns and protection, and when this 
committee discusses the best way of balancing the needs of the 
species and the human needs, they keep in mind a special 
Federal obligation to protect the species upon which the Tribes 
depends. The Department of Commerce has confirmed that that's 
their policy. In addition to recovering salmon populations to 
the point of delisting, it's also to restore populations to a 
level which meets Tribal Trust requirements. As to the Act 
itself, the Endangered Species Act in this river has now been 
polluted--politically diluted as badly as the water has been 
polluted.
    But it's not as simple that the National Fisheries Service 
and U.S. Fish and Wildlife Service used bad science or that the 
use of questionable science is the problem. The problem is the 
NRC report, which turned away from the acceptable scientific 
practices and the universally acceptable precautionary 
principle. That's the foundation of the ESA. The ESA requires 
that when dealing with listed species, Federal agencies must 
rely on the best scientific information available at that time, 
and if data were lacking, to err in favor of the species being 
protected. As case in point, the NRC itself issued a report on 
the science and Endangered Species Act in 1995, which clearly 
stated, says, ``The ESA reasonably asked scientists to make 
conservative decisions about protecting species on the brink of 
extinction based on the best available data.'' It does not 
require certainty or all the information that scientists or 
decisionmakers might like to have, because it simply might not 
be there.
    In the Klamath in 2000, the agencies did just that, that in 
the biological opinions issued. The Bureau of Reclamation had 
issued a draft operations plan, which the services determined 
through the best information available would jeopardize the ESA 
listed species. They required higher lake levels and river 
flows than the Bureau had proposed, which resulted in cutbacks 
to project irrigators. The NRC then became involved under 
contract with the Department of Interior, and ignoring its own 
1995 report, completely turned the precautionary principal of 
ESA management on its head. In essence, what the NRC concluded 
was that there was no definitive proof that flows and lake 
levels, which were in place during the 1990s, harmed coho 
salmon or suckers, so therefore there was no scientific 
evidence to change the water management pattern that was in 
place during the 1990s. This new NRC process requiring 
conclusive scientific evidence of harm, rather than the normal 
ESA policy to ensure against harm, creates a biased risk for 
harm.
    One thought we'd like to leave you with and the panel with, 
particularly management agencies, is the listing of the species 
under the ESA indicates that past management has not been 
conducive to the propagation of these species. We then have to 
change something; we have to get away from the status quo. The 
Tribes in the basin are made up of human beings, we're family 
members, we're parents, we're grandparents, we have children, 
we have the same aspiration as the other people in this basin. 
When it comes to veterans, many Tribal people in this basin 
died for this country, even before they had the right to vote. 
So when it comes to fair and what needs to happen, we ask that 
and we make clear and affirm that all the Tribes in the basin 
are ready to roll their sleeves up, are ready to work with the 
farming community, with Congress, with the Federal agencies, to 
do what we need to do to fix this basin. But from our 
perspective, it can't be the status quo; it cannot remain the 
status quo. And a solution cannot be at the expense of Tribal 
resources, our fisheries, our wildlife, or our gathering 
materials. We're ready to work, and we ask for your leadership 
to help us get there. Thank you.
    Mr. Calvert. Thank you. Thank you, Mr. Fletcher. I would 
now--would like to ask, next on my list is Commissioner Brown.
    Mr. Brown.

        STATEMENT OF THE HON. RALPH BROWN, VICE-CHAIR, 
    CURRY COUNTY BOARD OF COMMISSIONERS, GOLD BEACH, OREGON

    Mr. Brown. Thank you, Mr. Chairman and Members of the 
Subcommittee. For the record, I'm Ralph Brown from Brookings, 
Oregon. I'm County Commissioner there. I also sit on the 
Pacific Fisheries Management Council. I've been involved with 
that--I'm entering my ninth year. I also own fishing vessels 
that fish out of the Port of Brookings Harbor. I'm not going to 
read my testimony. You can read every bit as good as I can. You 
can use it more as background.
    The theme that I would hope you would leave with here from 
me, though, is summarized in one sentence: Don't forget the 
people. I've been involved in management for over 20 years, in 
resource management. Eighteen of those have been in positions 
of decisionmaking and policymaking. The first thing that 
happens when we decide that we need to do something with 
resources, is that we forget that what we're always trying to 
do is change people's behavior. And we tell people they have to 
do things. We don't ever ask them if there's a better way to do 
it. We will get further in protecting our resources if we 
remember that we're trying to get people to change, that we're 
going to be working with people who have motivations, they have 
reasons for doing what they're doing, it benefits them some 
way, and we need to work with incentives and with inducements 
as much as we work with coercion in order to achieve change. 
And I would hope that you will consider that as you go through 
your deliberations on endangered species in the future, pay 
more attention to the economics, pay more attention to the 
social part of the reasons people do things.
    You mentioned--Mr. Herger mentioned Blake, 8 years old, 
that wants to farm. I bought my first commercial fishing 
license when I was 8 years old. I started fishing summers with 
my dad. At one point when was 40, I decided that I'd try to 
figure out if I could figure out how much time I had spent on 
the ocean, and it was 30 percent of my life had actually been 
spent out on the ocean, and a good portion of that was salmon 
fishing.
    When I was a kid, there were four processors in the Port of 
Brookings. Want to talk about human impacts, there are none 
now. The buildings aren't even there. There were 10,000 salmon 
boats on the West Coast. We're down to a couple hundred--a 
couple thousand, excuse me.
    Troy mentioned that the Tribes are people too. We're all 
people here, and we all need consideration, and we're all 
affected by this.
    I remember kind of the high point of the downturn, if 
you'll excuse my calling it a high point, in salmon on the 
coast. I was sitting in a restaurant talking to a friend of my 
dad's, fellow that was in his mid 60s. And he was sitting there 
staring into his coffee cup, and he finally, in a very quiet 
voice that I'll never forget said, I don't know what to do 
anymore, I don't fit anywhere.
    The Klamath River has impacted my area in ways that I can't 
even begin to explain. Not too many years ago fishermen 
delivered $7 million worth of salmon annually into the Port of 
Brookings. Because we had the processors there, that had a 
community affect of about three times that, $21 million worth 
of community impact. We're down to about $700,000 in landings 
or less, and we have no processors. The impact, when you have 
no processors, is about one to one. The community impact of 
salmon now, of commercial salmon, is about $700,000. It doesn't 
take a real math whiz to see that's about one thirtieth of what 
it used to be.
    Remember the people. If I could sit here for 5 minutes and 
just say that, remember the people, that's what I would do. 
When you do your deliberations, you've seen the cartoons with 
the little guy sitting on your shoulder, the devil on one side 
and the angel on the other, and I hope you'll picture the 
little angel say, remember the people.
    I came over and met with farmers here, and it's in my 
written testimony, I won't repeat it, and I saw the same fear, 
and I saw the same anger that I see in Tribal people, that I 
see in people on the coast. We have to get together if we're 
going to fix this. We can fix it. I'm glad Troy--I'll quit here 
in just a second. I'm glad Troy made the offer that he made. I 
hope that the farmers will take him up on it, sit down, and 
start working cooperatively, because that's the only way we're 
going to fix this. Thank you.
    [The prepared statement of Mr. Brown follows:]

                 Statement of Ralph Brown, Vice-Chair, 
         Curry County Board of Commissioners, Brookings, Oregon

    Good morning, Mr. Chairman and members of the Sub-committee.
    I am Ralph Brown of Brookings, Oregon. I wear several hats at this 
hearing. I am a County Commissioner from Curry County. I sit on the 
Pacific Fisheries Management Council, and own fishing vessels that fish 
out of the Port of Brookings Harbor.
    I want to make it clear that, although I grew up in the salmon 
fishing industry, I do not fish for salmon in my fishing business now. 
The truth is that I know very little about the biology of salmon in 
fresh water or of the hydrology of the Klamath River. Some people in 
the fishing business will think that I am a strange choice to speak on 
Klamath issues because of this and, to some degree, it is a valid 
criticism. I do have over twenty years resource management experience 
however.
    My interest in the Klamath River grows out of my fishery management 
experience, out of the impact that the management of Klamath salmon has 
had on the communities of Curry County, and out of several attempts to 
hold meetings between Klamath Farmers and Fishermen.
    Management of Klamath River salmon has had a tremendous impact on 
the communities of what we call the Klamath Management Zone. This zone 
runs from below Eureka, California to north of Gold Beach, Oregon. We 
have intentionally moved most of the commercial salmon fishery out of 
this area, and reduced the recreational fishery.
    Salmon fishery management essentially consists of mapping the 
various runs of fish by time and area. We try to find locations and 
seasons for the fishery that allow harvests of abundant runs while 
keeping the harvests of stocks of concern below allowable levels, such 
that all runs are fished at capacity but not over harvested. Runs of 
concern consist of both those on the threatened or endangered list and 
some that are simply vulnerable to over fishing due to the timing and 
location of the run. We have management concerns with several of the 
runs on the Klamath River. Coho are listed under the Endangered Species 
act, of course, but most of our management has been aimed at another 
species, Fall-run Chinook. This fish has been a major constraint to 
salmon fisheries along the Coast and management of it has had a large 
impact on the communities of the Klamath Management Zone.
    During summer months, Klamath River Fall Chinook are found from San 
Francisco to the Columbia River. Percentages of Klamath Fish found in 
the catch are highest near the mouth of the Klamath River and taper to 
low levels with greater distances from the River. The area where the 
percentage of Klamath River catches is the highest is the Klamath 
Management Zone. Catch is limited in this area in order to allow access 
to more abundant runs in other areas.
    When I was a child, the Klamath Management Zone was one of the most 
popular fishing areas along the Coast. Hundreds of commercial fishing 
boats from Seattle to San Francisco would spend their summers fishing, 
and selling their catch, in the area. Ports had processing facilities 
all along the shoreline of the harbors. Today there are very few salmon 
boats that fish in the area. There are no major processors, only buying 
stations, located in the Ports of Gold Beach, Brookings, Crescent City 
or Trinidad.
    Thousands of recreational fishermen would come to these ports to 
fish in the summer. We have only had full recreational fishing seasons 
during the last two summers following nearly complete closures for much 
of the 1980's and 1990's.
    The number of commercial salmon fishing boats on the West Coast has 
dropped from nearly 10,000 during the 1970's to only about 1,000 active 
vessels today. Much of the restriction that brought this decline was 
due to Klamath salmon abundances, and management restrictions that were 
necessary on other more abundant runs to insure that catches of Klamath 
Fall Chinook were kept at allowable levels. The hardships caused by 
this reduction in salmon fishing along the Coast are fresh in the minds 
of Coastal residents and in the salmon industry. We do not want to see 
a repeat of this disaster.
    My interest in getting fishermen and farmers together was the 
result of a meeting with Representative Walden. A couple of years ago, 
I crowded my way into a meeting with Congressman Walden concerning 
reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act. We were sitting there explaining to the Congressman our 
problems with lawsuits by environmental groups over NEPA processes, our 
problems with inadequate data and science and overly restrictive 
management as a result, when he commented that we sounded just like a 
bunch of Klamath farmers. He said that the conversation that we were 
having was identical to conversations with the Klamath Farmers, and yet 
farmers and fishermen were at each other's throats all of the time. We 
agreed that farmers and fishermen probably had more in common than we 
had differences if we ever sat down and talked, and got to know each 
other. He asked me to try to find a way to bring fishermen and farmers 
together.
    I'm not sure that I would have followed up on this but when I got 
home from Washington D.C. I found a message from Dan Keppan, of the 
Klamath Water Users Association, on my answering machine. He had been 
contacted by Representative Walden's staff and given a report on the 
discussion we had. Dan and I had our first meeting in Klamath Falls 
shortly after.
    In talking to Dan it was apparent that fishermen and farmers, as 
resource users, have many common issues. We agreed to try to hold a 
series of meetings between the fishing and farming communities and see 
if we could establish communication such that our common interests 
could be established and perhaps allow a more rational discourse on our 
differences.
    Along the Coast spanning the Klamath Fishery Management Zone, a 
coalition of interested fishing groups, Ports and local Governments has 
been formed. This is the Klamath Zone Fisheries Coalition. The Klamath 
Zone Fisheries Coalition seemed like a natural place to start so I 
contacted them and interested them in joining in the discourse.
    We have had several meetings. One of these included a tour of the 
Klamath Water Project and one was a tour of the fishing industry in 
Curry and Del Norte counties. Our last meeting was held at a Pacific 
Fishery Management Council meeting where representatives of the Klamath 
Water Users Association also had an audience with the Management 
Councils Habitat Committee.
    For me, the tour of the Water Project was enlightening. I left 
feeling that I had a much better understanding of the pride that the 
farmers felt in the project and a better understanding of their view of 
the history of the river. I recommend this tour to anyone with an 
interest in water issues in the area.
    I hope that the tour of the fishing industry gave the farmers a 
similar understanding of the importance of the salmon fishery to us and 
gave them some feel of the hardship that we have already felt.
    Even when trying to get along and understand each other it is 
sometime difficult for fishermen and farmers to have a discussion that 
doesn't rub against raw wounds. Farmers and fishermen have differing 
views of the world and differing views of this situation in particular. 
The animosities and fears of both groups are real, intense and barely 
concealed beneath some very thin skin. Simple words like ``fish die-
off'' or ``fish kill'' have different connotations to fishermen and 
farmers. Fishermen innocently using the term ``fish kill'' can cause a 
very visible reaction from a farmer as the farmer interprets this as 
finger pointing at them. For fishermen, the term ``die-off'' implies 
that there was no cause and therefore no reason to take corrective 
action. Farmers feel threatened by the potential of water curtailments 
but fishermen remember the hard times and feel threatened by anything 
that might harm fish. The participants of the meetings that we have had 
seem to be somewhat better able to look past this.
    I have found a great deal of interest among individuals in 
continuing these meetings and in continuing to expand the circle of 
participants. Until the circle of participants is expanded 
considerably, the meetings will not significantly change the debate 
over the condition of the river. Funding to continue these meetings has 
become a problem, and finding a group that has the trust of both the 
farmers and fishermen to organize and take the lead is challenging.
    I suspect that the Klamath Taskforce was intended to fulfill this 
niche, but for some reason this is not working. We need to have a 
discussion of the Taskforce process to see why it doesn't seem to be 
working and to see if we can get a process in place that has the 
function of bringing people together toward a better understanding of 
each other and of the problem.
    I am going to conclude with some almost random observations that I 
have made during the meeting process.
    Although Coho and steelhead are the listed species, in many ways, 
the river is managed for fall run Chinook. Ocean management is clearly 
centered on fall run Chinook and shortages of fall run Chinook are what 
caused much of the curtailment of salmon fisheries in the ocean. The 
fish that died a few years ago were predominately fall run Chinook. 
Often when Salmon fishermen are expressing concern for salmon on the 
river it is not the listed species that is being talked about. It is 
fall run Chinook.
    Similarly, coastal fishermen often talk about the Klamath River but 
mean the entire watershed, not just the main stem. Most of the 
fishermen that I talk to are convinced that the Trinity River is as 
important as the main stem of the Klamath to the health of salmon in 
the system. We strongly support a system-wide, watershed approach to 
examinations of the river. We need to deal with the entire watershed, 
not just part of it.
    Finally, when dealing with the management of a wild species, such 
as salmon, we usually are not trying to change the behavior of the 
species but of the people that interact with the species. We are trying 
to change behaviors that have caused species to decline. These may be 
direct takes, such as in fishing or hunting, or may be indirect takes 
through changes is habitat, but in each case we are trying to change 
human behaviors. We would be better off if we kept that in the fore 
front of or thoughts as we discuss these issues.
    We seem to rely primarily on coercive rules to change behaviors. 
This often has the effect of producing resentment, and resistance, to 
the regulations and to the regulators. We need to pay more attention to 
the social and economic conditions that influence behavior and look for 
incentives and inducements to pull people into behavior change, not 
just penalties, that push people to change.
    In short, my recommendation for the Klamath River is to remember 
that we are trying to change people. We need to remember that we are 
dealing with good hearted, well meaning individuals on all sides, but 
people that have differing understanding of the issues and of the 
solutions and goals. We need to examine our process to insure that they 
promote better understanding of each other, and that they promote 
development of common goals. We need to be sure that we examine our 
methods of promoting behavior change and whenever possible use 
incentives and inducements not just coercion.
                                 ______
                                 
    Mr. Calvert. Thank you. Thank you, Mr. Brown. Next, Mr. 
Gaines, you're recognized for 5 minutes.

   STATEMENT OF BILL GAINES, DIRECTOR OF GOVERNMENT AFFAIRS, 
    CALIFORNIA WATERFOWL ASSOCIATION, SACRAMENTO, CALIFORNIA

    Mr. Gaines. Good morning, Mr. Chairman and Members of the 
Committee. My name is Bill Gaines. I'm the Director of 
Government Affairs for the California Waterfowl Association, 
and I would also like to thank each of you for traveling to the 
Upper Klamath Basin today to provide us with an opportunity to 
talk about our concerns related to the Endangered Species Act. 
The Upper Klamath Basin is the most critical waterfowl staging 
area in all of North America. So important is the Klamath Basin 
to Pacific flyaway and continental waterfowl that you can 
easily find the Klamath Basin on a waterfowl flyway map by 
simply looking for the apex in the flyway hourglass.
    Historically, this Basin contained over 350,000 acres of 
naturally occurring wetland habitats. Today, however, many of 
these natural wetlands have been lost. Yet, each year, an 
estimated 80 percent of our Pacific flyway waterfowl, nearly a 
full one-third of our continental waterfowl population, travels 
through the Klamath Basin annually on their migratory 
adventure.
    Nearly all of the remaining wetlands today in the Upper 
Klamath Basin are contained within the Klamath Basin National 
Wildlife Refuge Complex. These habitats not only provide 
critical waterfowl habitat, but they also provide critical 
habitat for an estimated 430 other wildlife species, as well as 
serving as the biggest staging area for bald eagles throughout 
all of the lower 48 states.
    Recognizing the importance of the Upper Klamath Basin to 
migratory waterfowl, in 1908 President Teddy Roosevelt 
established the Lower Klamath National Wildlife Refuge as our 
nation's first waterfowl refuge. Today, nearly 100 years later, 
it remains by far and away our most important waterfowl refuge 
throughout the entire National Wildlife Refuge System.
    However, due to changes in the natural hydrology of the 
basin, many of these wetlands within the complex and outside of 
the complex must now be managed, they must be artificially 
irrigated and intensely managed to re-create marsh conditions. 
They no longer get naturally wet during flood periods. As a 
result of that condition, quantity and quality of wetland 
habitat available in any given year is directly tied to the 
availability of water supplies for wetland management.
    Some environmentalists, in their effort to protect both 
fish and wildlife, have called for the elimination of 
agriculture in the Upper Klamath Basin to address these 
concerns. I'm here to assure you today that that is not the 
solution to the Upper Klamath Basin or the Klamath watershed's 
water problems. Agriculture today provides critical habitat for 
Pacific flyaway waterfowl. It's similar to the Sacramento 
Valley, where 700,000 acres or any 700,000 acres of rice is 
critically important surrogate habitat to replace many of the 
wetlands that have been lost.
    Cereal grains and other wildlife friendly agricultural here 
in the Klamath Basin provide an estimated 50 percent of the 
food energies necessary to feed Pacific flyaway waterfowl. If 
we were to do away with agriculture in an effort to free up 
water supplies for managed wetlands on the refuge or for fish, 
we would not help Pacific flyaway waterfowls. We would 
devastate the Pacific flyaway waterfowl resource. In addition 
to the habitat that agricultural production provides, growers 
here in the upper Klamath Basin also play a critical role in 
our annual efforts to manage our wetlands because they provide 
tail water in the fall when they dewater their agricultural 
lands, which is critical to the management of Upper Klamath 
Basin, manage wetlands within the complex and elsewhere. The 
willingness of growers and local irrigation districts, like 
Tulelake Irrigation District and Klamath Irrigation District, 
to wheel that water to the refuge and to provide some water of 
their own for refuge management during the important fall flood 
up is vitally important to our ability to manage these 
wetlands, especially during the especially important fall flood 
time of the year. Ag is not part of the problem here in the 
Upper Klamath Basin. It's not part of the waterfowl problem. It 
is part of the solution.
    Three species of fish continue to hold 1,200 families and 
the Pacific flyaway waterfowl resource hostage here in the 
Upper Klamath Basin, and we would like to offer some solutions 
that can address these problems. First of all, we ask Congress 
to ask the Department of Interior agencies to veer away from 
single-species and consider all species, as well as the 
benefits of wildlife-friendly agriculture when they are making 
decisions related to the Endangered Species Act.
    We also ask Congress to seek changes in the Endangered 
Species Act, which recognize our international obligation under 
the Migratory Bird Treaty and to elevate waterfowl, which is 
our shared international resource, to a par with listed species 
under the Endangered Species Act.
    We also ask Congress to elevate the priority of refuge 
water deliveries to a par with Endangered Species Act actions 
as well, without impacting deliveries to the agricultural 
community, which are vital, not only to the local economy, but 
vital to the Pacific flyaway as well. This can be done, but it 
can't be done without significant Federal funding that can help 
us do projects, like off stream storage projects that can help 
us capture excess flows during the time of year when excess 
flows are flowing down the river, or tail water return systems, 
which allow growers and other water users to more efficiently 
utilize the water that is available to them.
    Finally, we ask for an opportunity to work with Congress in 
the next farm bill to carefully design new and creative 
programs specifically designed to address the needs of Klamath 
Basin agriculture and to provide local growers with incentives 
to provide even more wildlife-friendly agriculture to the 
Pacific flyaway waterfowl.
    Again, the Upper Klamath Basin is the most important 
staging area for waterfowl throughout our North American 
continent. It is important that we take every step we can to 
address this international waterfowl resource and to protect 
the agricultural growers who are so important to providing the 
food energies necessary for that resource today. I thank you 
for the opportunity to provide these comments.
    [The prepared statement of Mr. Gaines follows:]

        Statement of Bill Gaines, Director, Government Affairs, 
                    California Waterfowl Association

    Good morning. Mr. Chairman and Members of the Committee, my name is 
Bill Gaines, and I am the Director of Government Affairs for the 
California Waterfowl Association. On behalf of our Association's nearly 
20,000 members, and waterfowl enthusiasts throughout the Pacific 
Flyway, I would like to thank you for coming to Klamath Falls, and for 
providing us the opportunity to present our concerns regarding the 
chronic water crisis that continues to plague the Upper Klamath Basin.
    Founded in 1945, the California Waterfowl Association (CWA) is a 
private, nonprofit organization dedicated to the conservation of 
California's waterfowl, wetlands and our sporting heritage. The 
California Waterfowl Association effectively pursues this mission 
through waterfowl research, habitat projects, education and outreach 
programs, and Government Affairs activities.
    The Upper Klamath Basin is the most critical waterfowl staging area 
in all of North America. So important is the Klamath Basin to North 
American waterfowl on their annual migration that the region can be 
easily located on a flyway map simply by locating the ``apex of the 
Pacific Flyway hourglass.''
    Historically, this Basin contained over 350,000 acres of naturally 
occurring seasonal and permanent wetland habitats. Today, however, 
largely due to the construction of the Klamath Reclamation Project, 
over 75% of these historic wetlands have been destroyed. Yet, each 
year, an estimate 80% of Pacific Flyway waterfowl--representing nearly 
a full one-third of the continental population--depend upon this 
Basin's few remaining wetlands and agricultural lands for critical 
staging habitat. In addition to waterfowl, remaining wetlands in the 
Basin B nearly all of which are contained within the Klamath National 
Wildlife Refuge Complex B also provide critical habitat for many other 
species. In fact, more than 430 other wildlife species have been 
documented in the Upper Klamath Basin B including the largest wintering 
concentration of bald eagles in the lower 48 states.
    Recognizing the importance of the Upper Klamath Basin to migratory 
waterfowl, and the tremendous loss of waterfowl habitat resulting from 
the construction of the Klamath Reclamation Project in 1906, President 
Teddy Roosevelt established the Lower Klamath National Wildlife Refuge 
by Executive Order in 1908. Nearly one hundred years later, the Klamath 
National Wildlife Refuge Complex remains the most important waterfowl 
refuge in the entire National Wildlife Refuge System.
    Because of the Klamath Reclamation Project, and the manner in which 
it changed the Upper Basin's natural hydrology, nearly all of the 
region's wetlands must now be ``managed'' B artificially irrigated and 
intensely managed to maintain marsh conditions. In effect, public and 
private wetland managers in the Klamath Basin must now ``farm for 
ducks''. As a result of this condition, the quantity and quality of 
wetland habitat available in any given year B most notably the critical 
waterfowl habitats available on the Lower Klamath and Tule Lake 
National Wildlife Refuges B is heavily dependent upon availability of 
wetland water supplies from the Klamath Reclamation Project. 
Tragically, as you are all keenly aware, the Upper Basin's highly 
limited surface water supply, combined with the regulatory actions 
mandated by Biological Opinions, will result in little Project surface 
water being made available to the refuges this year, and little or no 
water for these managed wetlands in all but the wettest of future water 
years.
    Combined, Lower Klamath and Tule Lake National Wildlife Refuges 
require about 216,000 acre-feet of water each year for full and 
appropriate habitat management. Yet, again this year, artificially high 
Endangered Species Act (ESA) mandated water levels in Upper Klamath 
Lake and enhanced flows in the Klamath River will minimize Klamath 
Reclamation Project deliveries to wildlife habitat on Klamath National 
Wildlife Refuges--marking the fifth year in a row in which the Refuge 
Complex must operate on a substantially reduced water budget. With this 
summer's Project deliveries to the refuge again at a minimum, refuge 
staff are being forced to cannibalize some wetland units in an attempt 
to adequately manage others. The net result being a 50% reduction in 
wetland habitats available on Lower Klamath Refuge.
    Some environmentalists, in their effort to protect both fish and 
wildlife, have sought to address this problem by calling for the 
complete elimination of agriculture in this Basin in order to redirect 
surface water to refuge wetlands. Our Association, however, is here to 
tell you that the elimination of agriculture is not the answer. In 
fact, eliminating agriculture in the Upper Klamath Basin in an attempt 
to free up wetland water would substantially harm, not help Pacific 
Flyway waterfowl. With three-quarters of our Upper Basin wetlands no 
longer available, it is crucial that we do all we can to manage the few 
habitats that remain in order to maximize their values and functions 
for waterfowl and other wildlife. Yet, even if we had sufficient annual 
Klamath Project water available to maximize the values of these few 
wetlands, we still could not meet the biological needs of the 
tremendous numbers of waterfowl that depend upon this region. As such, 
similar to California's Sacramento Valley where over one-half million 
acres of rice production provides vitally important surrogate habitat 
for waterfowl, cereal grains and other wildlife-friendly agriculture in 
this Basin are critical to meeting the annual needs of Pacific Flyway 
waterfowl.
    In addition to the direct habitat agricultural production provides, 
perfectly timed ``tail water'' made available to the refuges by growers 
who are de-watering their fields in the late summer and early fall 
provides the cornerstone of surface water necessary for the especially 
important annual fall flood up. Further, the willingness of farmers and 
local agricultural irrigation districts to pump ground water from their 
wells and wheel it to the refuges at time of greatest need, often at 
little or no cost, has proved integral to refuge management throughout 
this continuing water crisis. Suffice it to say that removing wildlife-
friendly agriculture from the Upper Klamath Basin B regardless of the 
quantity of water it may free up for refuge use B would devastate our 
Pacific Flyway waterfowl resource by eliminating roughly half of the 
Upper Basin's annual waterfowl food base and our only current stable 
source of annual wetland surface water supplies.
    Members of the Committee, three species of fish continue to hold 
the Pacific Flyway, the bald eagle, roughly 430 other wildlife species, 
1,200 families and the entire local economy hostage in the Upper 
Klamath Basin. The California Waterfowl Association does not believe 
that this was Congress' true intent when they passed the Endangered 
Species Act a few short decades ago. Truly, as our nation becomes more 
urbanized, conflicts between our fish and wildlife species and our 
human environment will become increasingly common. Today's crisis in 
Klamath can be viewed as the ``canary in the mineshaft'' for what we 
can expect in the future should resource agencies be allowed to 
continue to implement the ESA as they do today.
    To address these very real concerns, we ask Members of this 
Committee, and all of Congress to join our Association in seeking some 
solutions. We ask you to join us in calling for U.S. Department of 
Interior agencies to veer away from irresponsible ``single-species'' 
management, and instead require that the impacts and risks to waterfowl 
and wildlife be also considered when making water allocation and other 
decisions under the ESA. We also ask that the importance of wildlife-
friendly agriculture and the vital water supplies that the farming 
community makes available for wetland use be fully considered when 
evaluating the importance of agriculture in the Upper Basin relative to 
the watershed's environmental needs.
    The California Waterfowl Association also asks for an opportunity 
to work with Congress on seeking changes in the Endangered Species Act 
which recognize our obligation to our international neighbors under the 
Migratory Bird Treaty and elevate our internationally shared migratory 
waterfowl resource to a par with listed species. We also wish to work 
with Congress on obtaining careful, common sense amendments to the ESA 
which will forever ensure that impacts to all non-listed species are 
appropriately considered before implementing actions directed at 
addressing listed species concerns. Closer to home, and more 
specifically, we ask for Congress to direct the Klamath Reclamation 
Project to elevate the priority of refuge water deliveries to an equal 
par with fish water, without impacting agricultural deliveries which 
are vital not only to the local economy, but also to Pacific Flyway 
waterfowl.
    We also urge Congress to strongly consider appropriating federal 
funding for projects designed to increase the surface water annually 
available to meet the region's water needs. For example, off-stream 
storage facilities to capture excess flows when available, and tail-
water return systems which more effectively utilize available supplies 
could play a vital role in addressing the region's water woes. In 
addition, these types of facilities, if properly managed, can also 
provide additional waterfowl habitat and groundwater recharge benefits. 
We also hope to work with Congress to design new and creative programs 
in the next Farm Bill which provide additional incentives to encourage 
more wildlife-friendly farming and ranching practices.
    The Upper Klamath Basin is the most important waterfowl staging 
area in all of North America. Yet only about 25% of the Basin's 
historic wetland habitat base remains today. With nearly all of these 
remaining wetlands contained within the boundaries of the Klamath Basin 
National Wildlife Refuge Complex, it is critical that we allocate 
sufficient water to address the needs of the waterfowl, bald eagles and 
the hundreds of other species which depend upon this habitat. When 
making water allocation decisions we must also consider the vitally 
important wildlife benefits provided by local agriculture, and, of 
course, the importance of farming to local families and the community.
    Finally, we ask the Committee to recognize that the most important 
environmental assets of the Klamath Basin B its waterfowl B are also 
the greatest victims of the current water management decisions. It is 
also important to recognize that waterfowl hunting provides a financial 
and emotional commitment to the conservation, and enhancement of 
wetlands throughout North America. Throughout California, as an 
example, 70% of the wetlands which remain today are privately owned and 
managed, with the sole incentive of these landowners being the ability 
to hunt ducks and geese on these habitats during the waterfowl season. 
Yet, these wetlands directly or indirectly support hundreds of wildlife 
species year-round, as well as an estimated 50% of California's listed 
species.
    Klamath Reclamation Project water allocations mandated to address 
the needs of three listed fish species in the Klamath Basin are 
seriously threatening the future health and well-being of the Upper 
Klamath Basin community, and the Pacific Flyway. We urge the Committee 
to recognize this serious fault and demand that future water management 
strategies assure that waterfowl, including the farm and ranch food 
resources, are equally protected.
    The California Waterfowl Association appreciates the opportunity to 
provide testimony today. We do not believe there can be only one 
``winner'' in this crisis. We believe that if we all work together we 
can find solutions which meet the needs of the local community, the 
Pacific Flyway, other wildlife and the fish species. We look forward to 
working with Congress and all interests in seeking these solutions.
                                 ______
                                 
    Mr. Calvert. I thank you, gentleman. I would now like to 
recognize Supervisor Smith. Supervisor Smith, you're recognized 
for 5 minutes.

        STATEMENT OF THE HON. JIMMY SMITH, SUPERVISOR, 
    HUMBOLDT COUNTY BOARD OF SUPERVISORS, EUREKA, CALIFORNIA

    Mr. Smith. Thank you, Mr. Chairman, for the honor of being 
here today. I really appreciate it. I am a member of the 
Humboldt County Board of Supervisors. Prior to my election, I 
was a commercial fisherman and owner of a 46-foot salmon 
troller, which I just sold 6 weeks ago, and Dungeness Crabber, 
operating out of Humboldt Bay. My nearly 40 years of ocean 
fishing prompted interest in the complete life cycle of salmon. 
To that end I studied and trained in salmon management in the 
off season.
    I'm proud to say I worked with former Congressman Bosco and 
a number of sport, Tribal fishermen, business owners, and 
elected officials to generate language for Public Law 99-552, 
the Klamath River Restoration Act. The intent then, as today, 
was to restore fish and wildlife in the Klamath River Basin. 
Even during the '80s, as those discussions occurred, Tribal 
Elders stated clearly, water is the key.
    Sadly, we have not been able to stop the decline of 
important fish species in the Klamath System. Although the 
Endangered Species Act has weighed in as a tool to protect and 
aide in the recovery of the Klamath's fish populations, it has 
not reversed the deadly trend. The battle for water and 
protections will continue.
    I recognize and respect the concerns expressed by the 
farmers. Humboldt County believes in protecting its 
agricultural lands and the ranchers and farmers so important to 
our economy. We are working diligently with the State of 
California to make sure Williamson Act standards are maintained 
so tax incentives can keep those agricultural lands intact; 
it's absolutely essential. The same respect is extended to the 
landowners in the Klamath Basin. In fact, the fishermen and 
coastal constituencies support economic assistance for Klamath 
Basin farmers who suffer from drought or are contributing to 
water for fish and wildlife. I know some of those people and 
have hunted on their lands.
    It is common knowledge that other important species are 
dependent on the farm lands in the Klamath Basin. Wintering 
herds of mule deer and antelope forage on the agricultural 
lands when winter snows force them out of the mountains. Eagles 
concentrate here because of the abundant waterfowl populations, 
also supported by the farmers. It is acknowledged that the 
Klamath landowners have a bond with the land; they are 
essential food producers and are known for being fiercely 
independent, similar in every regard to the commercial 
fishermen. We all share the pain for protecting listed species.
    California fishermen must avoid coho salmon, but in spite 
of zero harvest, the coho are still in trouble. In fact, 
fishermen have been denied access to huge areas of ocean and 
abundant Central Valley stocks to eliminate incidental contact 
with listed coho. Most certainly, coho protections and low 
numbers of Klamath chinook continue to have profound impacts to 
Humboldt County's economy. Of great concern is the loss of 
about 50 percent of the California salmon fishing fleet since 
1995, which is, by the way, 1,320 vessels. At an average 
$40,000 income, discounting idle vessels, that's a $40 million 
in annual losses.
    Of equal importance is the economic devastation dealt to 
the recreational fisheries and the once-thriving service 
industries. The Tribes are also suffering irreparable harm with 
continuous cuts to their commercial subsistence and ceremonial 
salmon harvests.
    Throughout history coho and chinook have been able to 
withstand El Ninos, floods, and droughts, although their 
populations suffered in the short-term. They cannot, however, 
be expected to support fishing economies when babies die in the 
river by the hundreds of thousands and adult spawners meet 
sudden death, as in 2002. The thousand plus fishing businesses 
that perished over the last 9 years are testimony to those 
losses. Prior to 1995, California lost an additional 4,000 
vessels with staggering ramifications to support businesses and 
related employment. As an example, Humboldt Bay has only one 
fish processor left, and three once-thriving boat repair 
facilities are gone forever. Although these losses are not 
wholly attributable to the Klamath salmon failure, it is the 
most significant factor in the economic decline.
    This year's fisheries managers again reduced fishing 
opportunity to protect projected low returns of Klamath River 
chinook. The very token Humboldt and Del Norte Counties' quota 
was reduced by 40 percent. These and other stringent 
regulations are in effect because of dismal returns last year. 
Those returning adults are now what is left of the 
approximately 300,000 young salmon that died in the river in 
2000, 2001. This year young fish are again dying by the 
thousands before they can complete their journey to the ocean.
    And finally, the regulations are clear and immediate, more 
closures, reduced harvest, huge economic impacts from Central 
Oregon to San Francisco, and never any assistance on the coast, 
not even recognition that economic disasters continue to occur 
on the coast with alarming regularity.
    So I would ask, in summation, Mr. Chairman, if we could 
investigate and agree on the cause of juvenile and adult 
deaths, increase flows in the Klamath and Trinity Rivers. 
Please support Humboldt County's effort to have the 50,000 acre 
fee made available, as the '59 Contract once stated. We will 
help make sure those fish don't die. And maintain and fully 
fund, please, the Klamath Task Force and the Management Council 
so that those decisions made with sound science can be 
implemented, even though they do affect fisheries. If you have 
to close them down, we want the best information and best 
managers. And I thank you all for being here today. It's a 
great, great opportunity for all of us. Thank you.
    [The prepared statement of Mr. Smith follows:]

  Statement of The Honorable Jimmy Smith, First District Supervisor, 
        Humboldt County Board of Supervisors, Eureka, California

    Thank you Mr. Chairman for the honor to appear here today. My name 
is Jimmy Smith. I am a member of the Humboldt County Board of 
Supervisors. Prior to my election, I was a commercial fisherman and 
owner of a 46-foot Salmon Troller and Dungeness Crabber, operating out 
of Humboldt Bay. My nearly forty years of ocean fishing prompted 
interest in the complete life cycle of salmon. To that end I studied 
and trained in salmon management in the off season.
    I am proud to say, I worked with former Congressman Bosco and a 
number of sport and Tribal fishermen, business owners and elected 
officials to generate language for P.L. 99-552, the Klamath River 
Restoration Act. The intent then, as today, was to restore fish and 
wildlife in the Klamath River Basin. Even during the early 1980's, as 
those discussions occurred, Tribal Elders stated clearly ``water is the 
key.'' Sadly, we have not been able to stop the decline of important 
fish species in the Klamath system. Although the Endangered Species Act 
has weighed in as a tool to protect and aide in the recovery of the 
Klamath's fish populations, it has not reversed the deadly trend. The 
battle for water and protections will continue.
    I recognize and respect the concerns expressed by the farmers. 
Humboldt County believes in protecting its agricultural lands and the 
ranchers and farmers so important to our economy. We are working 
diligently with the state to secure Williamson Act standards to 
maintain tax incentives to keep agricultural lands intact. The same 
respect is extended to the landowners in the Klamath Basin. In fact, 
the fishermen and the coastal constituencies support economic 
assistance for Klamath Basin farmers who suffer from drought or are 
contributing water to fish and wildlife. I know some of those people, 
and have hunted on their lands. It is common knowledge that other 
important species are dependent on the farm lands in the Klamath Basin.
    Wintering herds of mule deer and antelope forage on agricultural 
lands when winter snows force them out of the mountains. Eagles 
concentrate here because of the abundant waterfowl populations, also 
supported by the farmers. It is acknowledged that the Klamath 
landowners have a bond with the land; they are essential food producers 
and are known for being fiercely independent. Similar in every regard 
to the commercial fishermen. We all share the pain for protecting 
listed species. California fishermen must avoid Coho salmon, but in 
spite of zero harvest, the Coho are still in trouble. In fact, 
fishermen have been denied access to huge areas of ocean and abundant 
Central Valley Chinook stocks, to eliminate incidental contact with 
listed Coho. Most certainly, Coho protections and low numbers of 
Klamath Chinook continue to have profound impacts to Humboldt County's 
economy. Of great concern is the loss of about 50% of the California 
salmon fishing fleet since 1995, which is 1,320 vessels; at an average 
$40,000 income, discounting idle vessels, that's a $40,000,000 annual 
loss. Of equal importance is the economic devastation dealt to the 
recreational fisheries and the once thriving service industries. The 
Tribes are also suffering irreparable harm with continuous cuts to 
their commercial, subsistence and ceremonial salmon harvests. 
Throughout history Coho and Chinook have been able to withstand El 
Ninos, floods and droughts, although their populations suffered in the 
short-term. They cannot however, be expected to support fishing 
economies when babies die in the river by the hundreds of thousands and 
adult spawners meet sudden death as in 2002. The thousand plus fishing 
businesses that perished over the last nine years are testimony to 
those losses. Prior to 1995, California lost an additional 4,000 
vessels with staggering ramifications to support businesses and related 
employment. As an example, Humboldt Bay has only one fish processor 
left and three once thriving boat repair yards are gone forever. 
Although these losses are not wholly attributable to the Klamath salmon 
failure, it is the most significant factor in the economic decline.
    This year fisheries managers again reduced fishing opportunity to 
protect projected low returns of Klamath River Chinook. The very token 
Humboldt and Del Norte Counties quota was reduced by 40%. These and 
other stringent regulations are in effect because of dismal returns 
last year. These returning adults are what are left after approximately 
300,000 young salmon died in the Klamath River in 2000. This year young 
fish are again dying by the thousands before they can complete their 
journey to the ocean.
    The regulations are clear and immediate, more closures, reduced 
harvest, huge economic impacts from Central Oregon to San Francisco; 
and never a penny in assistance. Not even recognition that economic 
disasters continue to occur on the coast with alarming regularity. 
Although the ESA lacks perfection, it is not to blame for the conflicts 
occurring in the Klamath Basin. Protections are needed to assure 
survival of Klamath fish.

                         WHAT COURSE DO WE SET?
    1.  Investigate and agree on the cause of juvenile and adult salmon 
mortalities.
    2.  Increase flows in the Klamath and Trinity Rivers. Support 
Humboldt County's request for the Bureau of Reclamation to give the 
50,000 acre feet, as promised in the 1959 Contract Agreement. Humboldt 
has agreed to use the water to prevent fishery disasters. Releases 
could be structured under the guidance of federal, state and Tribal 
fishery managers.
    3.  Support water banking and increasing storage capacity.
    4.  Expand our relationship with knowledgeable local government 
officials. Leaders like County Supervisors Joan Smith and Marcia 
Armstrong have proven backgrounds and a willingness to work with 
agriculture, tribes and fisheries interests. Exchange ideas, especially 
areas of documented success.
    5.  Maintain and fully fund the Klamath Task Force and the Klamath 
Management Council. Even though they make serious fishery management 
and restoration decisions, they make recommendations based on sound 
science with open process.
    I stand by to help in any way that I can. Thank you for this 
generous opportunity to speak today.
                                 ______
                                 
    Mr. Calvert. Thank you, Supervisor. I would now like to 
recognize Dr. Lewis for his testimony. Dr. Lewis, you're 
recognized for 5 minutes.

    STATEMENT OF WILLIAM M. LEWIS, JR., CHAIR, COMMITTEE ON 
 ENDANGERED AND THREATENED FISHES IN THE KLAMATH RIVER BASIN, 
 AFFILIATED WITH NRC, UNIVERSITY OF COLORADO, BOULDER, COLORADO

    Dr. Lewis. Mr. Chairman and Committee Members, thank you 
for inviting me to this meeting. My name is William Lewis. I am 
professor of Environmental Sciences at University of Colorado 
in Boulder, and I served, between 2001 and 2003, as Chair of 
the National Research Council's Committee on Endangered and 
Threatened Fishes in the Klamath River Basin.
    As you know, there was a drought in 2001. And the drought 
coincided, and I think this is something we might forget the 
significance of, coincided unexpectedly with the release of 
regulations that had been prepared ahead of time, restricting 
water management latitude of Klamath Project, which delivers 
water to about 220,000 acres of privately irrigated lands, east 
and south Upper Klamath Lake. The coincidence in time of these 
events was such of course to lead to the total shutoff of water 
for the first time to the Klamath Project. In effect the 
Project was dried up for that season. Had this coincidence not 
occurred, there might have been time to evaluate by calculation 
what the effects of this regulation would be in an extreme 
year, perhaps some measures would have been taken to prevent 
this kind of tragedy.
    At any rate, there were--a lot of things were said on both 
sides of this issue, and some of them weren't very scientific. 
But there were some scientific questions that were raised. The 
water users wanted to know what basis the agencies had for 
making these decisions, and of course, the agencies had 
explained their basis in their documents, but I think the users 
wanted interpretation, reassurance, and a criticism, I suppose, 
of these decisions.
    So the Academy was called on to form a committee, and that 
was the committee of which I was Chair. The committee had two 
charges.
    One was to prepare rather quickly, over a period of a year, 
an interim report to focus on the documents surrounding the 
2001 opinion and evaluate the science. That was the language 
that was used in the task. And notice that this stops short of 
saying whether or not the agencies did exactly the right or 
wrong thing, but rather to evaluate the scientific basis for 
the decisions that they made, and then to take a broader 
overview and determine as best they could what would be needed 
to make the fishes recover in the future.
    In its first effort, which resulted in an interim report, 
the committee found a lot of scientific basis for a number of 
the recommendations of the agencies. For example, I would cite 
the fish screen, which the U.S. Fish and Wildlife Service has 
been requiring for over a decade and finally was created in 
2004, I'm glad to say.
    But where water management considerations were concerned, 
the committee could not find a strong scientific basis at all, 
either with regard to water levels in Upper Klamath Lake or 
flows in the Klamath main stem. And so it concluded that these 
decisions were poorly based in a scientific sense.
    The committee also recognized, however, that the agencies 
must use their judgment quite extensively in carrying out the 
Endangered Species Act, in the same way a physician uses 
judgment in prescribing medication early on in a course of 
treatment. But we also recognize that the agencies could be 
expected reasonably to change their position as information 
develops, adjust, perhaps even retract from earlier decisions, 
and the public must understand this ebb and flow of scientific 
information and the effect it might have on an agency.
    At any rate, the interim report was received with great 
controversy. The irrigators felt that the committee had sided 
with irrigation, had seen the merits of irrigation somewhat. 
And people who were interested in environmental protection felt 
that the committee had not held up its side in looking after 
the endangered fishes. Actually, the committee really did 
neither of those things.
    It simply answered the question that was put to it and 
didn't interpret in terms of policy. But it did raise an 
interesting issue, and that is what an agency does when it 
makes an initial judgment that subsequently is contradicted by 
hard information. That is a very interesting question about the 
agencies.
    Then there was the final report. In the final report, the 
committee concluded that none of these three fish species could 
be caused to recover merely by negotiations with the Klamath 
Project.
    That simply is far too narrow a scope, that this is a 
basin-wide problem, that there are many opportunities to 
improve the welfare of these fish beyond water level 
manipulation and flow manipulation, and the committee outlined 
a number of these.
    Now, the committees--excuse me, the agencies that the 
committee was considering knew about a lot these things, but 
didn't have the money to pursue a lot of them, so I'm glad that 
Congress has acted on that, and I'm glad that the agencies are 
showing new energy, and I sense, as Representative Walden said, 
that there is energy in the community here to move 
constructively on these issues, but it will require much better 
communication, less animosity, and more money. Thank you.
    [The prepared statement of Dr. Lewis follows:]

Statement of Dr. William M. Lewis, Jr., Professor and Director, Center 
for Limnology, University of Colorado at Boulder, and Chair, Committee 
 on Endangered and Threatened Fishes in the Klamath River Basin, Board 
  on Environmental Studies and Toxicology, Division on Earth and Life 
       Studies, National Research Council, The National Academies

    Good morning, Mr. Chairman and members of the Committee. My name is 
William Lewis, Jr. I am professor of Environmental Science and Director 
of the Center for Limnology at the University of Colorado's Cooperative 
Institute for Research in Environmental Sciences. I recently served as 
Chair of the National Research Council's Committee on Endangered and 
Threatened Fishes in the Klamath River Basin. The National Research 
Council (NRC) is the operating arm of the National Academy of Sciences, 
National Academy of Engineering, and the Institute of Medicine; it was 
chartered by Congress in 1863 to advise the government on matters of 
science and technology.
    The Lost River sucker and shortnose sucker of the Klamath River 
basin were listed as endangered by the U.S. Fish and Wildlife Service 
under the federal Endangered Species Act in 1988. These two fish 
species, which are restricted in their distribution to the Klamath 
River basin, were so abundant a century ago that they served as a major 
food source for American Indians and supported a commercial fishery. 
Both species are large, have a long life span, and can tolerate a 
number of kinds of environmental extremes that many other fishes 
cannot. The two species originally occupied much of the upper half of 
the Klamath River basin. Their distribution and abundance are now much 
reduced, and most of the present subpopulations are not self-
sustaining.
    In listing the two endangered sucker species, the U.S. Fish and 
Wildlife Service cited overfishing as one cause of decline. Other 
causes are also important, however, as indicated by the failure of 
these species to recover after a ban on fishing in 1987. The U.S. Fish 
and Wildlife Service identified water management practices (including 
water-level manipulation and entrainment of fish through irrigation 
structures), adverse water quality, introduction of competitive or 
predatory fishes not native to the Klamath basin, physical alteration 
of habitat such as marshes and spawning areas, blockage of migration 
pathways, and genetic isolation of subpopulations. These factors are 
related to a number of human activities, including irrigated 
agriculture, power production, and livestock management.
    The coho salmon, a migratory species that spends approximately half 
of its life in streams and the other half in the ocean, is distributed 
from California to the Aleutian Islands. It is divided into distinctive 
genetic subgroups that are termed ``evolutionarily significant units.'' 
One of these evolutionarily significant units spawns and develops 
through its early life stages in waters of the Klamath River basin and 
nearby drainages. Although once abundant in the Klamath River basin, it 
has declined notably over the last 80-90 years. As a result of its 
decline, it was listed in 1997 by the National Marine Fisheries Service 
as threatened under the federal Endangered Species Act. In evaluating 
the decline, the NMFS listed overfishing as one initial cause. 
Prohibition of fishing for wild coho (as distinguished from hatchery 
fish, which bear hatchery markers) has not led to recovery, however. In 
attempting to identify other factors that may be suppressing coho, the 
NMFS has listed irrigation-related flow manipulation of the Klamath 
River, physical blockage of migration pathways by dams or irrigation 
structures, high temperature or other poor water-quality conditions 
related in part to flow manipulation, and physical habitat impairment. 
Coho presently occupy only the lower portion of the Klamath River 
basin, below Iron Gate Dam. Their previous distribution, prior to the 
installation of mainstem dams, extended upstream. Coho mature almost 
exclusively in tributary waters, and migrate to the ocean during spring 
to complete the second half of their life cycle prior to their return 
for spawning, after which they die.
    As required by the Endangered Species Act (ESA), the two listing 
agencies responsible for ESA actions on behalf of the listed suckers 
and coho salmon have conducted formal consultations with the U.S. 
Bureau of Reclamation, which manages water in parts of the upper 
portion of the Klamath River basin through its Klamath Project, which 
serves 220,000 acres of private, irrigated agricultural lands. Because 
water management is a potential direct or indirect factor affecting the 
listed species, the consultations were intended to produce 
documentation of the operational effects of the Klamath Project on the 
listed species, and to elicit proposals from USBR for avoidance of 
jeopardy to these species through future operations of the Klamath 
Project. The listing agencies have engaged in numerous rounds of 
consultation with the USBR. The consultations have culminated in the 
production of biological assessments by the USBR and biological 
opinions by the listing agencies. In its biological assessments, the 
USBR has proposed changes in water management and screening of its main 
water intake as well as some other measures intended to benefit the 
fish. In all cases, however, the listing agencies have found the USBR 
proposals inadequate and have required more extensive changes in water 
management and some greater commitments to other actions as well.
    The agencies released assessments and opinions during early 2001, 
as they had in previous years. The biological opinions of the two 
listing agencies for 2001 required substantially increased stringency 
in management of water by the Klamath Project. Specifically, the USFWS 
required that annual minimum water levels in Upper Klamath Lake, which 
is home to an impaired population of endangered suckers, be less 
extreme than in previous years, which in effect eliminated part of the 
storage value of the lake for the Klamath Project. In addition, the 
NMFS required higher minimum flows downstream of Iron Gate Dam. The 
effect of this requirement was to reduce further the ability of the 
USBR to store water in Upper Klamath Lake for use in irrigation. Thus, 
the total amount of water available to the USBR for use by the Klamath 
Project in dry years was significantly reduced as a result of the 2001 
biological opinions.
    After release of the 2001 biological opinions by the listing 
agencies, it became clear that 2001 would be a year of extreme drought. 
Whereas similar extremes of drought in recent years (1992, 1994) had 
led to water restrictions for the Klamath Project, they had not 
eliminated irrigation on the private lands irrigated by the Klamath 
Project. The new restrictions for water level in Upper Klamath Lake and 
flows in the mainstem Klamath could not be met, however, without 
cessation of irrigation on the lands served by the Klamath Project. 
While a small amount of water was made available late in the season, 
there was virtually no irrigation through the Klamath Project during 
the growing season of 2001. Thus, the coincidence of an extreme drought 
with new restrictions on water management combined to make disastrous 
consequences for Klamath Project irrigators and their economic 
dependents. Had 2001 been a normal or wet year, the restrictions no 
doubt would have generated much controversy, given that the 
implications for drought years of the future would have been evident 
through calculations of water shortfalls in dry years. The events 
combined, however, to force the controversy to a crisis over a period 
of just a few weeks, during which water users and their supporters 
criticized the decisions of the listing agencies, while parties with 
economic or other interests in fish applauded the ESA-based water 
restrictions as a step toward restoration of the three listed fishes.
    The economic hardship brought on by the combination of drought and 
the new water restrictions focused much attention on the scientific 
basis for judgments that were made by the listing agencies. Therefore, 
the U.S. Department of the Interior and the Department of Commerce 
asked the National Academy of Sciences (NAS) to form, through the 
National Research Council (NRC), a committee (the NRC Committee on 
Endangered and Threatened Fishes in the Klamath River Basin) that would 
be capable of assessing the scientific and technical issues surrounding 
the water restrictions. The committee's charge, which was written by 
the U.S. Department of the Interior and Department of Commerce in 
consultation with NRC staff, called for the committee to produce an 
interim report focusing on the strength of scientific support for the 
biological assessments and biological opinions of 2001. In a second 
phase, leading to a final report, the committee was charged with a 
broader overview of the requirements of the listed species for recovery 
in the future. The committee released its interim report in February 
2002 and its final report in October 2003. As is the case with all NRC 
reports, these two reports were rigorously reviewed externally and were 
revised by the committee in response to review under supervision of the 
NRC and the NAS.
    In its interim report, the NRC committee found that proposals by 
the USBR for water management in the future left open the possibility 
of establishing lower mean water levels in Upper Klamath Lake and lower 
mean flows in the Klamath River main stem than had been the case over 
the past decade. Although it was not clear whether changes of this type 
were actually the intent of the USBR proposals, the committee found the 
proposals unjustified on grounds that lower mean operating levels and 
flows were unknown and were not analyzed scientifically by the USBR for 
its assessments.
    In analyzing the USFWS's biological opinion if 2001, the NRC 
committee found considerable scientific support for a number of 
requirements specified by the USFWS. For example, installation of a 
fish screen to prevent outright mortality of multiple age classes of 
endangered suckers entering the Klamath Project's main irrigation canal 
near the outlet of Upper Klamath Lake was proposed by the USFWS, and 
the committee found this recommendation highly supportable. In 
examining the scientific basis for a USFWS requirement that water 
levels in Upper Klamath Lake be held higher than they had been in the 
recent past, however, the committee found considerable data, collected 
primarily with federal support during the 1990s, that the projections 
of benefit to the fish from this change in management were contradicted 
by evidence. Specifically, extremes of water quality impairment 
producing mortality of suckers in Upper Klamath Lake did not coincide 
with years of low water level. Also, proposed benefits sought through 
expansion of habitat associated with higher water levels did not appear 
in the form of a higher output of young fish, as determined by sampling 
of fish during the 1990s. Thus, the committee found the scientific 
basis for the requirement for stricter regulation of water levels in 
Upper Klamath Lake to be unsupported scientifically, but also noted 
that this conclusion would not be a valid argument for expanded water-
level manipulation.
    For evaluation of the needs of coho salmon, the National Marine 
Fisheries Service relied heavily on habitat modeling, which is common 
practice for predicting the benefits to fish of higher flows in streams 
or rivers. The modeling results were not available in final form to the 
NMFS when it wrote its 2001 opinion, and were not available to the NRC 
committee during its deliberations. Thus, the NMFS decisions in 2001 
based on incomplete modeling could not be considered well supported. 
More importantly, an underlying assumption of the modeling was that 
habitat requirements of coho salmon could be equated with habitat 
requirements of Chinook salmon, which also occupy the Klamath basin. 
The committee noted that coho salmon are much more strongly dependent 
on tributaries than Chinook salmon, and therefore are less sensitive to 
mainstem conditions during the rearing phase than Chinook salmon. Thus, 
the overall approach of the NMFS, in the opinion of the committee, was 
scientifically weak. The strongest point brought forward by NMFS had to 
do with possible benefits of an April flow pulse that would assist the 
young fish in migrating to the ocean. While this benefit had not been 
quantified or evaluated empirically, it at least had some potential to 
be valid.
    While the NRC committee found strong scientific support for a 
number of requirements given by the listing agencies in 2001, the 
requirements related to water levels in Upper Klamath Lake and water 
flow in the Klamath main stem had no substantial scientific basis, in 
the opinion of the committee. This conclusion, as given in the interim 
report, generated much positive reaction from the community of 
irrigators and their economic dependents and much criticism from 
environmentally oriented observers. It seemed to many that the 
committee had sided with the irrigators and against environmental 
interests. The committee, however, was merely responding to its charge, 
and was not aligning itself with one set of interests or the other.
    Following the issuance of the interim report, the agencies were 
required to go through yet another round of consultations and produce 
assessments and opinions, as before, because of the expiration of the 
2001 documents after one year. While the NRC report was not binding on 
the agencies, it stimulated some changes in the ESA consultations of 
2002. In general, the agencies were more energetic and innovative in 
their consultations than they had been in previous rounds, and were 
able to produce a ten-year plans rather than one-year plans. Although 
the ten-year plans can be reopened at any time by the listing agencies, 
they provide a degree of stability that favors both water management 
and recovery actions. The USBR, recognizing that use of water on behalf 
of fish would be a constant feature of future water management, offered 
increased concessions that it considered to be useful but still 
consistent with future delivery of meaningful amounts of water through 
the Klamath project over a wide range of water-year types. It proposed 
development of a water bank, which might include conditional water 
rights to be obtained by lease or purchase and to be used to reduce 
pressure on the irrigation water source during years of drought. The 
USBR also offered an April flow pulse below Iron Gate Dam to benefit 
coho during their migration and made several other kinds of concessions 
related to coho.
    The two listing agencies found the proposals of USBR to be useful 
but insufficient. Thus, they found that the USBR's proposed operations 
as outlined in the biological assessment of 2002 would leave the three 
species in jeopardy, and they issued ``reasonable and prudent 
alternatives,'' as required by the ESA. The reasonable and prudent 
alternatives placed deadlines on a number of the proposals made by USBR 
and also put a volumetric requirement on the water bank. The USFWS, 
while continuing to back the concept of benefit to the endangered 
suckers from reduced water-level fluctuations in Upper Klamath Lake, 
moderated its water-level requirements so as to be more consistent with 
the data collected on the suckers during the 1990s. Fish screening 
continued to be an issue; screening of the main canal supplying the 
Klamath Project was required by USFWS and was accomplished during 2004. 
The USFWS made several other requirements as well.
    The NMFS continued to endorse its habitat-based flow modeling 
leading to requirements for higher flows in the Klamath main stem, on 
grounds that expanded habitat in the main stem would benefit coho. The 
NMFS moderated the effect of these requirements on the Klamath Project, 
however, by recognizing that the USBR accounts for only approximately 
half (57%) of total irrigation water use above Iron Gate Dam. Thus, the 
NMFS apportioned to USBR 57%, rather than 100%, of the quantitative 
requirement for water needed to meet its prescribed flows at Iron Gate 
Dam. It also required, however, that USBR participate in actions 
required to make up the balance (43%) of the water required to provide 
minimum flows, and it endorsed the water-bank concept.
    In its final report, the NRC committee gave several major 
conclusions relevant to the long-term recovery of endangered and 
threatened species in the Klamath River basin. First, the committee 
noted that none of the three species could be expected to recover 
through any program that is primarily or solely based on consultations 
with the USBR related to operations of its Klamath Project. While the 
Klamath Project consultations are mandatory, factors suppressing the 
species extend well beyond the Klamath Project. For suckers, blockage 
of a large amount of potential spawning habitat by Chiloquin Dam and by 
numerous small, privately managed tributary dams and diversions 
constitutes ``take'' (mortality or life-cycle impairment) and must be 
eliminated or circumvented. Restoration of habitat in tributary 
spawning areas for the suckers above Upper Klamath Lake also is 
critical, and expansion of resting areas for larval fish at tributary 
mouths for Upper Klamath Lake is important. The committee viewed the 
feasibility of reversing poor water-quality conditions in Upper Klamath 
Lake as low for the near future, and therefore recommended strong 
emphasis on stimulation of the production of young fish for Upper 
Klamath Lake to offset adult mortality and expansion or introduction of 
subpopulations at other locations where manipulation of environmental 
conditions might be more feasible. For example, the committee 
recommended establishment of a subpopulation in Lake of the Woods, 
where suckers were poisoned decades ago in order to make way for game 
fish.
    For coho, the committee recommended much more emphasis on 
tributaries, where young coho either succeed or fail in reaching the 
smolt stage for migration to the ocean. The tributaries are plagued by 
a variety of problems, including excessive drawdown in summer, numerous 
blockages and diversions that affect the movement of salmon, high 
temperatures caused by loss of riparian vegetation and excessively low 
flows during summer, diversion of cold spring flows that originally 
provided year-round benefit to salmon, degradation of physical habitat 
by dams, inadequate control of erosion, and effects of livestock on 
stream banks and stream channels. In addition, mainstem dams block 
access of coho to tributary habitat, and introduction of large numbers 
of competitive hatchery-reared fish (mostly steelhead and Chinook) may 
reduce the success of young, wild coho during their downstream 
migration; both types of impairment should be considered for possible 
action. Correction of problems affecting coho obviously must extend far 
beyond the boundaries of the USBR's Klamath Project.
    The NRC committee also diagnosed some procedural and organizational 
problems with the recovery efforts in the basin. There are no adequate 
ESA recovery plans for any of the three species. Funding for recovery 
programs has been inadequate, and would not have supported actions of 
the scope necessary to produce recovery. Because of intense partisan 
feelings within the basin about recovery strategies, the agencies must 
find ways of fostering collaboration through a diverse committee of 
cooperators who are fully informed on recovery plans and proposals, and 
who have the opportunity to debate and contribute to them. Guidance for 
well-meaning landowners who attempt to improve the environment would be 
very useful in maximizing the beneficial effects of private money 
directed toward remediation.
    The listing agencies in the Klamath basin have been strongly 
criticized for using judgment not supported by bedrock scientific 
information. The NRC committee, as expressed in its reports, did not 
agree with the notion that professional judgment is a useless or 
inappropriate tool to be used in environmental actions such as those 
required by the Endangered Species Act. Professional judgment, which 
involves application of knowledge about the basic requirements of a 
listed species, is mandatory for agencies that implement the Endangered 
Species Act. The NRC committee did note, however, that the use of 
judgment is much more defensible when data are not available, or when 
judgment is confirmed by at least some data, than when it proves to be 
inconsistent with accumulating data. In the latter instance, the 
listing agencies would more likely be effective if they were to modify 
their judgments, and should not be criticized for doing so, given that 
modification of initial judgments in response to observations or data 
is a constant feature in all fields of applied science.
    The committee concluded that there is much untapped potential for 
recovery of the three listed species in the Klamath River basin. 
Recovery efforts must extend beyond the Klamath Project and its 
operations to embrace all major factors known to cause mortality or 
impairment of the endangered fishes. If efforts of this scope can be 
designed, and are supported by steady funding from the federal 
government, implementation of the Endangered Species Act in the Klamath 
River basin could be an inspirational example, especially for the 
western states.
                                 ______
                                 
    Mr. Calvert. Thank you. Our last witness, Mr. Rodgers, 
you're recognized for 5 minutes.


   STATEMENT OF KIRK RODGERS, REGIONAL DIRECTOR, MID-PACIFIC 
 REGION, BUREAU OF RECLAMATION; ACCOMPANIED BY STEVE THOMPSON, 
  REGIONAL DIRECTOR, U.S. FISH AND WILDLIFE SERVICE; AND JIM 
     LECKY, ASSISTANT REGIONAL ADMINISTRATOR FOR PROTECTED 
          RESOURCES, NATIONAL MARINE FISHERIES SERVICE

    Mr. Rodgers. Thank you, Mr. Chairman. My name is Kirk 
Rodgers. I'm the regional director for the Bureau of 
Reclamation's Mid-Pacific Region. Accompanying me today are 
Steve Thompson with the Fish and Wildlife Service and Jim Lecky 
of NOAA Fisheries. Both of those agencies have key roles in the 
Klamath effort. Your request for our testimony asked that we 
address water certainty and address endangered species issues 
as they relate to the project. We have provided written 
testimony and ask that that be entered into the record. I'd 
like to summarize that for you today.
    One of the fist things mentioned is, as you're aware, the 
Klamath River is not adjudicated, and although that is 
underway, it does--it will maybe take several more years to do 
that. And the importance of that is that it helps identify in 
times of shortage where the priorities go. And so that's one of 
the things that we think that is a significant challenge to 
certainty in operations.
    But beyond that, and under the current state of the law, 
Reclamation is obligated to operate the project in compliance 
with the Endangered Species Act. And the Act limits operational 
discretion and requires compliance with biological opinions. In 
the 2001 biological opinion from Fish and Wildlife Service 
requires minimum lake levels to protect endangered suckers. The 
NOAA Fisheries biological opinion requires releases to maintain 
river flows to protect downstream salmon.
    In 2001, the infloat Upper Klamath Lake was about half of 
the average and the 5th lowest it had been since '05. Median 
requirements from the BOs left insufficient water for the 
project, as we're all aware, and we're aware of the 
consequences that that had. And as those consequences were upon 
us, we were continually asked tougher and tougher questions. 
And as has been discussed today, we engaged the services of the 
National Research Council, and Dr. Lewis has eloquently covered 
their findings. Let me just add that we have, in addition to 
those things he's discussed, we've learned some things about--
many things from that. But I'd like to cover a couple. One 
would be that professional scientists can interpret and apply 
the same data in different ways. We've learned that peer review 
has value and that we can improve our decisionmaking when we do 
add additional scientific knowledge. So we should apply peer 
review as rigorously as we can, where it's appropriate.
    Second, I'd like to mention that, as an operational agency, 
the reclamation needs information in order to make good 
decisions. And we depend on the scientific community to provide 
a good knowledge base for us and to advise us in our 
decisionmaking. These are complex systems, and they need 
information to make good decisions.
    And so to that end, in cooperation with my colleagues, 
reclamation is taking action to support improvements in 
scientific data collection. And just to mention a few, we're 
looking at independent flow analysis of the Upper Klamath 
Basin. That will assist us in understanding and agreeing on 
base conditions. There's been a lot of disagreements on what 
base conditions were. We need to know that. We need to improve 
our forecast models so that we can include groundwater response 
and improve the accuracy and reliability of those forecasts. 
And we're cooperating in the development of a river flow 
analysis to better understand fish habitat needs. Those were a 
few examples.
    In addition to that, we're working with Fish and Wildlife 
Service and NOAA fisheries to adjust--make adjustments to the 
biological opinions. That will assist us in improving 
certainty. One example is a new incremental adjustment 
methodology, which will be employed when the hydrology dictates 
an adjustment to a different water year type. That's been a 
complication and a problem in the past, and this new 
methodology we have, hope will help smooth that out. We 
appreciate the cooperation from the Service and NOAA Fisheries 
in those action.
    We also are doing several other things, and let me just 
quickly tick off a few of those. This water bank thing that 
we're doing is helping to provide water for fish while it 
compensates landowners who voluntarily enter into those 
programs. We're conducting storage investigations, such as the 
Long Lake investigation for an off stream reservoir. We're 
implementing water conservation measures, such as the one we 
just offered to Klamath Irrigation District. That will save 
2,000 acre feet per year when they line their canal, and things 
like removing Chiloquin Dam.
    I see I'm out of time. Perhaps in the course of the Q & A, 
we can answer any other questions that you may have. Steve, 
Jim, and I will be glad to do that for you. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Rodgers follows:]

   Statement of Kirk Rodgers, Regional Director, Mid-Pacific Region, 
         Bureau of Reclamation, U.S. Department of the Interior

    Mr. Chairman, my name is Kirk Rodgers, and I am the Regional 
Director of the Bureau of Reclamation's Mid-Pacific Region. I 
appreciate the opportunity to appear before your Subcommittee this 
morning to discuss Reclamation's efforts here in the Klamath Basin. In 
attendance with me today are Steve Thompson of the Fish and Wildlife 
Service and Jim Lecky of NOAA Fisheries. Both agencies have played key 
roles in the Klamath effort.
    Your request for our testimony asked for Reclamation's approach to 
providing water certainty and resolving endangered species issues as 
they relate to the Klamath Project. We have provided written testimony 
and ask that it be made a part of our response to these important 
topics. I would like to briefly summarize that testimony today.
    As you are aware, the Klamath River is not adjudicated. That is, 
perhaps, one of the more significant challenges to certainty in 
operations. Under the current state of the law, Reclamation is 
obligated to operate the Klamath Project in compliance with the 
Endangered Species Act. The result is that operational discretion is 
limited to complying with the two existing Biological Opinions (BOs).
    The 2001 BO from the Fish and Wildlife Service requires minimum 
lake levels to protect endangered suckers in Upper Klamath Lake, while 
the NOAA Fisheries BO requires specific releases to maintain river 
flows to protect salmon downstream.
    In 2001, water inflow to Upper Klamath Lake was about half of 
average and the fifth lowest of any year since 1905. Irrigation needs 
were high because rain and soil moistures were low; however, meeting 
the requirements from the BOs left insufficient supplies for the 
irrigators.
    To irrigators, the water supply interruption in 2001 was 
unacceptable. And Reclamation could not wave a magic wand and instantly 
create enough water to satisfy all of the human and environmental water 
needs.
    Many agencies, irrigators, community leaders, and others began 
asking questions about the biological needs of the endangered species. 
The President formed the Klamath River Basin Working Group, involving 
the Secretaries of Interior, Commerce, and Agriculture and the Chairman 
of the Council on Environmental Quality. The National Academy of 
Sciences' National Research Council (NRC) was asked to assemble a team 
of top scientists to examine the Klamath Project and the 2001 BOs.
    The results were interesting. The NRC found that there was no 
connection between fish survival and lake levels. It found that water 
temperatures, particularly in late summer, and competition and 
predation from hatchery fish to be important factors affecting ESA-
listed fish survival in the river.
    The NRC also found that actions focusing primarily upon Klamath 
Project operations would not yield fish recovery in the Klamath basin.
    What have we learned from this effort? At least a couple of things:
    1.  Professional scientists can interpret and apply the same data 
in different ways;
    2.  Adding to our scientific knowledge base is very important to 
decision-making for these complex systems.
    To that end, Reclamation is taking action to support improvements 
in scientific data collection to support decision-making, such as:
    <bullet>  Developing an ``independent flow analysis'' of the Upper 
Klamath Basin, which will assist us in understanding and agreeing upon 
base conditions;
    <bullet>  Improving our forecast models to include groundwater 
response and improve the accuracy and reliability of our forecasts;
    <bullet>  Cooperating in the development of a river flow analysis 
to better understand fish habitat needs.
    We are also consulting with Fish and Wildlife Service and NOAA 
Fisheries with regard to adjustments to the BOs which will assist with 
improving certainty. One example is a new Incremental Adjustment 
Methodology which will be employed when the hydrology dictates an 
adjustment to a different water year type.
    We appreciate the cooperation of the Fish and Wildlife Service and 
NOAA Fisheries in addressing issues such as these.
    Other actions we have underway include:
    <bullet>  Managing a water bank, which compensates land owners who 
elect to forego Project water by either idling crop land or pumping 
groundwater
    <bullet>  Conducting storage investigations including Long Lake, an 
off-stream reservoir
    <bullet>  Increasing Upper Klamath Lake storage capacity
    <bullet>  Implementing water conservation measures, such as the 
recent Water 2025 grant to the Klamath Irrigation District for a canal 
lining project, saving up to 2000 AF per year
    <bullet>  Removing Chiloquin Dam
    Mr. Chairman, just about everyone--from the President's Cabinet 
Level Working Group to NRC scientists and others around the country--
have called for basin-wide cooperation, coordination, and management to 
deal with the tough water resource issues in the Klamath Basin. 
Consequently, Reclamation is leading the Conservation Implementation 
Program to develop a process based upon science, stakeholder 
involvement, adaptive management, and Basin-wide cooperation.
    The Conservation Implementation Program will help the stakeholders, 
Tribes, States, and all Federal agencies craft solutions for both the 
short and long term.
    I would be pleased to answer any questions you might have.
                                 ______
                                 
    Mr. Calvert. All right. I thank you, gentleman. We're now 
going to go into the questions. I'll remind the Members that 
under our Committee Rules, we have a 5-minute limitation. 
However, we'll have time for several rounds of questions.
    And first I'll recognize myself. I'll start with Mr. Carman 
and Mr. Hernandez. And again, Mr. Carman, thank you for your 
service. My father also served in the South Pacific. He was at 
Okinawa and Iwo Jima, and he's no longer with us, but your 
statement was quite eloquent, and we certainly appreciate what 
you've done.
    The question, though, is for both Mr. Carman and Mr. 
Hernandez. How did the 2001 shutoff impact the Hispanic and the 
agricultural communities in the basin? Mr. Hernandez, would you 
like to answer that?
    Mr. Hernandez. Well, number of families had to move, mainly 
the father, because he has to go find source of work, or you 
know, they got to support their families, so they have to do 
something. And unfortunately some of the kids, you know, in our 
culture, the kids don't mind the mom as they do the dad, so 
some of them got in trouble. Some of the kids did, so that's a 
big effect.
    Mr. Calvert. And it's one thing that, serving as Chairman 
of this committee, I go all around the country, and I see the 
pain with everyone. Mr. Brown mentioned, remember the people. I 
see various conflicts around water is a very emotional subject, 
because it is truly the lifeblood of many communities, whether 
it's Brownsville, Texas, or New Mexico, or here in California--
or here in Oregon or in California. But one of the issues that 
we need to reflect, how do we solve these problems? And one of 
the questions that I'd like to have an answer to is storage. 
Mr. Herger brought that up. Would more storage give us more 
flexibility in addressing this problem from everyone's 
perspective? And I'd just like a yes or no from all the 
witnesses, because I'm limited in time. Mr. Hernandez, why 
don't you start, yes or no, would flexibility help--would more 
water storage help?
    Mr. Hernandez. If we have more water, definitely will help.
    Mr. Calvert. Mr. Carman.
    Mr. Carman. Yes.
    Mr. Calvert. Mr. Vogel.
    Mr. Vogel. Yes.
    Mr. Calvert. Mr. LaMalfa.
    Mr. LaMalfa. Sites reservoir, Auburn Dam, please.
    Mr. Calvert. Mr. Fletcher.
    Mr. Fletcher. Depends on the type of storage.
    Mr. Calvert. Mr. Foreman.
    Mr. Foreman. Yes, location.
    Mr. Calvert. Mr. Brown.
    Mr. Brown. In general, I'd say yes.
    Mr. Calvert. Mr. Gaines.
    Mr. Gaines. Yes.
    Mr. Calvert. Mr. Smith.
    Mr. Smith. Yes.
    Mr. Calvert. Dr. Lewis.
    Dr. Lewis. Yes, if it's not firmly committed to continual 
use.
    Mr. Calvert. Mr. Rodgers.
    Mr. Rodgers. Yes.
    Mr. Calvert. Mr. Thompson.
    Mr. Thompson. Yes.
    Mr. Calvert. Mr. Lecky.
    Mr. Lecky. Yes.
    Mr. Calvert. My God, we've got a--it's unanimous.
    With the help of this group here, we just passed a bill in 
California. Actually, it affects the entire West, called Cal 
Fed, as Mr. LaMalfa referred to some of the storage that we've 
discussed over the years. But that is the most difficult part. 
It's not just money. Folks talk about money as part of the 
solution. That certainly is, but it also takes political will 
on everyone here to let everyone know that reasonable storage, 
done properly, given the flexibility in the systems to allow 
for water, for the environment, for farmers, for communities, 
is part of the solution. So I would hope that you as 
individuals and the areas that you represent and the committees 
that you head would be a proactive participant, and that is, I 
think, a part of the solution.
    This is one last question in my timeframe. In light of the 
NRC report indicating that the 2000 water shutoff was possibly 
not scientifically justified, did incomplete science lead to 
the action that caused such pain in this valley? I'd ask 
probably Dave Vogel first.
    Mr. Vogel. The short answer is yes. I think one of the 
speakers mentioned this earlier, there's a lot of data out 
there, but scientists often have different interpretations of 
the same data. And one of the benefits of peer review is you 
get a fresh new perspective to look at the same data and help 
determine whether or not you can come to the same conclusions. 
Usually you have a hypothesis you want to test. You subject 
that hypothesis to a rigorous set of scientific standards, then 
you let other scientists examine what you've done to make a 
determination, whether or not they agree or disagree with you. 
That's, again, one of the benefits of the peer review that was 
provided by the NRC's report.
    Mr. Calvert. And Dr. Lewis.
    Dr. Lewis. The NRC committee found that by the end of the 
1990s, there was a substantial amount of information on water 
level in Upper Klamath Lake to suggest that the original idea 
of holding the water level higher wasn't going to benefit the 
suckers in itself.
    That was a reasonable idea to begin with, data were 
collected as they should have been, but then the conclusion 
wasn't reached early enough that we were on the wrong track, 
either that or some scientists continued to believe there might 
be something wrong with the data or not enough data. The 
committee felt the data base was pretty substantial by 2000, 
2001.
    Mr. Calvert. Thank you. Mr. Walden.
    Mr. Walden. Thank you. Dr. Lewis, I want to follow up on 
that, because I know in the Tribes' testimony, Mr. Foreman's 
that's been submitted for the record, and I assume Mr. Fletcher 
would agree, they don't think your group paid enough attention 
to Tribal rights and that there are other issues involving lake 
levels that weren't considered. Can you respond to that?
    Dr. Lewis. Well, The NRC committees are very strictly held 
to their task. They're not allowed to embroider on their task. 
The task had to do only with the Endangered Species Act issues 
within a certain arena defined by that question about degree of 
scientific support.
    But it did acknowledge the Tribal Trust responsibilities of 
the Federal Government in its statement on context, but it did 
not deal with that question because it wasn't asked to.
    Mr. Walden. Part of the issue before this committee, and 
certainly in our mark-up next week, if that were to occur, is 
should peer review be required under major ESA decisions? Now, 
in your role on the NRC panel of the National Academy, you 
engaged in that peer review. Was your data--were your data or 
your conclusions peer reviewed?
    Dr. Lewis. Yes, they were very thoroughly reviewed.
    Mr. Walden. Internally and externally.
    Dr. Lewis. Yes, both.
    Mr. Walden. OK. So are you--is it correct to assume you're 
a supporter of peer review science?
    Dr. Lewis. It's sometimes unpleasant.
    Mr. Walden. But we all go through that every 2 years. You 
know, we get peer reviewed too. And I guess that's the point. 
There are those who say peer review will be too costly and slow 
down the process. Now, I believe--I suppose that could be the 
case, if you peer reviewed absolutely every single little 
decision that goes on. Where do we find the balance here, 
because is seems to be, in the case of Klamath, a lack of peer 
review, had we had your report before the decisions were made 
to shut off the water, I think we would have had a different 
outcome.
    Dr. Lewis. Quite possibly. No, I agree with you. I don't 
think every single decision or proposal needs to be reviewed. I 
think the main question for review is: Is the agency on the 
right track here or is it off track? Has it sort of drifted off 
of the line of evidence that is most suggestive of what should 
be done? Because that's easy to do if you're very closely 
involved with something, you have an initial idea, you continue 
to follow it, but maybe you get off track after a while, maybe 
somebody from the outside has fresh eyes and says--
    Mr. Walden. Wait a minute.
    Dr. Lewis.--you know, this really doesn't add up anymore.
    Mr. Walden. All right.
    Dr. Lewis. Might have been a reasonable idea to begin with, 
but doesn't anymore.
    Mr. Walden. All right. I want to pick up on what my 
Chairman did. Does everyone here on the panel support the 
concept of having these decisions independently peer reviewed 
by panels from the National Academy of Sciences? Can we start 
at this end, and just a yes or no. Does anybody here oppose it? 
I mean, do you support independent peer review of ESA related 
decisions?
    Mr. Hernandez. Do I support it?
    Mr. Walden. Yeah, yes or no, or if you don't have an 
opinion, that's fine too.
    Mr. Hernandez. I don't have an opinion.
    Mr. Walden. Mr. Carman.
    Mr. Carman. Yes.
    Mr. Walden. Mr. Vogel.
    Mr. Vogel. I would have to say with major decisions, yes. 
For minor ones, probably not.
    Mr. Walden. All right.
    Mr. LaMalfa. Where there's big economic impact or new 
precedence, I think it's critical.
    Mr. Walden. Or a major impact on the species, I assume too, 
economic or species. Mr. Fletcher.
    Mr. Fletcher. Yes. Different people consider different--is 
it the NRC, is it OSU? You know, we can get into that debate as 
well, who does the peer review.
    Mr. Walden. Sure. The legislature I have would call on the 
National Academy to set up panels, independent scientists who 
are certified in whatever issue it is, and from those panels 
you'd have peer review. So you'd support that concept? Mr. 
Foreman.
    Mr. Foreman. Yes, peer review should be done. Science 
remains within science; politics should be left out of it.
    Mr. Walden. OK. Mr. Brown.
    Mr. Brown. We've gone to peer review process in the Pacific 
Management Council for the stock assessments. It's pretty well 
ended most of the argument over the underlying science and 
level--
    Mr. Walden. OK. Mr. Gaines.
    Mr. Gaines. Absolutely.
    Mr. Walden. Mr. Smith.
    Mr. Smith. Yes.
    Mr. Walden. Dr. Lewis, I think you've already--
    Dr. Lewis. I endorse peer review, but if I commit the 
Academy to it, I could be in trouble.
    Mr. Walden. You can just speak for yourself as a scientist 
today.
    Dr. Lewis. Peer review can be very useful, but it also can 
be overdone.
    Mr. Walden. All right. And that's what we're going to have 
to figure out. Mr. Rodgers.
    Mr. Rodgers. We need peer review.
    Mr. Walden. OK. Mr. Thompson.
    Mr. Thompson. I think I'd agree with Dr. Lewis. I agree--
    Mr. Walden. Why don't you take that mike so our audience 
can hear.
    Mr. Thompson. I agree that the peer review process is a 
very healthy process and very good for us, but I would be 
concerned about the number of peer review actions for action 
agencies that have to take timely actions to get out the door.
    Mr. Walden. Can you give me an example of where that could 
cause a problem?
    Mr. Thompson. For instance, the Sacramento office does 250 
biological opinions in a year. If we were to do peer review of 
each one of them, that would add on 6 months, a year, a long 
period of time.
    Mr. Walden. All right.
    Mr. Doolittle. May I just add--would you yield just for a 
follow-up question?
    Mr. Walden. Since I'm in a negative zone on time, yes.
    Mr. Doolittle. Is that 6 months to a year for the total 250 
subject to peer review or 6 months to a year for each of the 
250?
    Mr. Thompson. Each individual action could add up to 6 
months to a year, depending on the complexity of the decision 
and how difficult they are.
    Mr. Doolittle. Thanks.
    Mr. Walden. All right. Mr. Lecky.
    Mr. Lecky. I think peer review is an important component of 
the scientific--essential component of the scientific process, 
but these aren't scientific decisions necessarily. We're 
required to make a decision in the absence of information. A 
legitimate scientific decision sometimes is, I don't know the 
answer. That's not an OK decision under the ESA. We have to 
arrive at an opinion.
    Mr. Walden. So even if you don't have science upon which to 
base your decision, you still have to make a decision?
    Mr. Lecky. That's correct.
    Mr. Walden. But once you make that decision, there's really 
no appeal anybody here has, right, short of going to the God 
squad?
    Mr. Lecky. Well, not even the God squad is eligible. The 
appeal they have is in the courts, which is frequently taken 
advantage of, and of course that slows things down as well. I 
think, my view, part of the solution is recovery planning and 
investing in that process and getting the kind of information 
that would lead us to understand the importance of watershed 
management and where the real limiting factors for populations 
are up front would help drive these consultation processes in a 
more logical fashion.
    Mr. Walden. I understand that, but I also think there's a 
role for peer review certainly. Thank you, Mr. Chairman.
    Mr. Calvert. Thank you, gentlemen. Mr. Radanovich.
    Mr. Radanovich. Thank you, Mr. Chairman. I've always 
thought that if the Endangered Species Act were as strictly 
enforced in urban America as they were in rural America, the 
dynamic in Congress would change rather quickly and we'd have 
ESA reform in a heartbeat. An example that I have found has 
been on the Wilson Bridge, the construction of the Wilson 
Bridge across the Potomac River in Washington, D.C., and the 
Washington Aqueduct, which purifies water for the District of 
Columbia. Clearly, the conclusions in those environmental 
reports that allowed for the construction of the bridge and the 
purification of water would never be considered as satisfactory 
in rural America, and yet each area has had a listed endangered 
species. And so my question is to anybody who wants to answer 
it, if the Klamath Basin here had a population of 2 million 
people, would what happened in 2001 have occurred? Anybody on 
the panel want to respond?
    Mr. Hernandez. Depends if you had the same number of people 
that made the wrong decision.
    Mr. Radanovich. No response.
    Mr. Calvert. Silence answers the question.
    Mr. Radanovich. Silence answers the question. Let me ask 
you this, because in the case of the Washington Aqueduct in 
Washington, DC, it had been occurring for about 30 years, that 
they'd dump about 200,000 tons of Potomac River sludge laced 
with chemicals through a national park into a heritage river, 
the Potomac River, onto the spawning grounds of the endangered 
short-nosed sturgeon. And for 20 to 30 years, there's never 
been a lawsuit challenging the Washington Aqueduct's conducting 
this practice. Can you tell me if there were environmental 
lawsuits that prompted the decision of 2001? Were there 
environmental lawsuits that prompted the agencies to shut the 
water down to farmers in 2001.
    Mr. Lecky. There was a lawsuit, I believe, for not having 
the opinion in place. The remedy was to just issue an opinion. 
It didn't specify what the outcome of that opinion had to be.
    Mr. Radanovich. Can you tell me who sponsored the lawsuit?
    Mr. Lecky. I can provide you with that information.
    Mr. Radanovich. You don't know it.
    Mr. Lecky. I don't recall. I don't want to misname the--
    Mr. Radanovich. Does anybody know? Mr. Fletcher.
    Mr. Fletcher. That was PCFFA, et al, challenging, I 
believe, the 2000 biological opinion.
    Mr. Calvert. Gentleman, for the record, please state the 
group again that filed the lawsuit.
    Mr. Fletcher. I think that was PCFFA, et al, challenging 
the 2000 biological opinions.
    Mr. Radanovich. Can you tell me what PCFFA is?
    Mr. Fletcher. It's the Pacific Coast Federation of 
Fishermen's Association. We also joined that lawsuit as well as 
a result of the 2002 fish kill, just for your information.
    Mr. Radanovich. OK. One further comment, can anybody give 
to me--Mr. Vogel, I have an idea that your testimony's very 
good, that might have an idea to answer this question, but how 
can a law be changed so that there's an equal application of 
the Endangered Species Act in every case where there is a 
listed endangered species?
    Mr. Vogel. Let's see, is your question referring to the 
enforcement or lawsuits or--
    Mr. Radanovich. All of the above.
    Mr. Vogel. OK. I think it's pretty evident, there's enough 
case history examples through biological opinions nationwide 
that there's no question it's inconsistently applied throughout 
the United States.
    Mr. Radanovich. Do you have a solution for that?
    Mr. Vogel. Well, I'm definitely an advocate for peer 
review.
    In fact, 2 years I went back to Congress and testified at 
the House Resources Committee in favor of peer review 
legislation. That would be a tremendous start. There's a lot of 
ambiguity in the ESA that I think needs to be clarified. That 
ambiguity allows too much subjectivity by individuals in how 
it's implemented, so the ambiguity needs to be clarified as 
well.
    Mr. Radanovich. Thank you very much. I'll wait for the next 
rounds. Thank you.
    Mr. Calvert. Mr. Herger.
    Mr. Herger. Thank you, Mr. Chairman. And I want to thank 
each of our witnesses for your outstanding testimony. Mr. 
Brown, I think you really hit on it, remember the people. I 
think that's why we're really all here today and how crucially 
important it is that we all work together cooperatively to 
solve this incredibly complex problem that we have.
    And I want to also specifically recognize a constituent of 
mine, Mr. Hernandez, and I want to thank you for coming today 
and being--and Mr. Carman, for having him come with you. Mr. 
Hernandez, you certainly do have a very unique story about how 
the tragic water shutoff of 2001 affected you and your family. 
And I believe it's important for us to--in highlighting the 
very real, very devastating human impacts. And if you would, 
Mr. Hernandez, could you take a brief moment to share with us 
your story on how you arrived here in the basin and how the 
2001 decision ultimately impacted you and your family?
    Mr. Hernandez. Well, I arrived here in 1973, and I work 
here for 5 years or so. Then I went back to Mexico, got 
married, but since I was here, you know, 5 years and I came 
here, I was only seventeen years old, so I know this was the 
place to grew up a family. So when I got married, I decide to 
come here to Klamath Basin.
    We have five kids. One of them was done with school; she's 
a nurse. Two more in college, one of them is--hopefully he'll--
and I know he'll graduate from high school this coming year. 
The other one decide to make his--he make his own decision to 
serve the Army--in the Army. And I thought, since he was going 
to be there for 3 years, I figured he had enough and would get 
out. Well, last January he told me that he was going to re-
enlist. I said what? You want to re-enlist? And he said--I say, 
why? I like it. And last 2 months or so, he says, I'm re-
enlisted and now I'm going to go to Iraq. I say, what? I'm 
going to Iraq. And I told him, why don't you just get a gun and 
shoot me and be dead? He pat me on the back, and he said, will 
be all right. One of you members, you said that somebody from 
Klamath Basin got killed. What assures me that he's going to be 
all right? It's his own decision, but you know, I think as a 
Congressman, we ought to do the right things, you know, ensure 
our kids or wives or whatever that they are reclude with all 
the rights and all the--you know, give them the rules so they 
know what they're going for and, you know. I just want to make 
sure that they are reclude properly and tell them their rights 
and the rest.
    And how this 2001 affect me, well, you know, farm went, as 
we say, bye-bye. If it was wrong decision or was right 
decision, I mean, I'm done now.
    Mr. Herger. So in other words, you lost your farm and you 
lost your--I believe you went out and did equipment work for 
other farmers; is that correct?
    Mr. Hernandez. Well, I lost my farm. My equipment that I 
slowly got, it was sold out.
    Mr. Herger. So you started here as an immigrant, raising a 
family here--
    Mr. Hernandez. Yes.
    Mr. Herger.--an outstanding family, obviously a patriotic 
family, that your son is serving our country now in the War on 
Terrorism. But in the process, in 2001, you actually lost what 
you had worked so hard for; is that correct?
    Mr. Hernandez. That's correct, that's all that.
    Mr. Herger. So we can see that we--and this is a concern of 
Blake, and again, his letter.
    Mr. Hernandez. I know Blake; I know that kid.
    Mr. Herger. You know Blake?
    Mr. Hernandez. I know his father.
    Mr. Herger. And the picture of working with the tractor.
    Mr. Hernandez. I know exactly what little kids will feel. I 
mean, Tulelake is nothing but farming. Merrill, Malin, and half 
of Klamath Falls, nothing but farming, or better than half of 
Klamath Falls. And not only them, you got Bonanza, I mean, you 
know, they might not be affected by the water cutoff, because 
they're down below us, I guess I should say--
    Mr. Herger. And these decisions have affected you so 
dramatically, to say that we deserve good science, at the 
minimum, we deserve good science.
    Mr. Hernandez. Yes, we do.
    Mr. Herger. We deserve to have all our scientists look at 
these issues and make sure they're not needlessly making these 
decisions to shut off your water, which ultimately causes you 
to lose your whole livelihood. To say those are important and 
crucial is quite an understatement, isn't it?
    Mr. Hernandez. Yes, it is.
    Mr. Herger. Thank you very much. Thank you, Mr. Chairman.
    Mr. Calvert. Thank you, gentlemen. Mr. Doolittle.
    Mr. Doolittle, you're recognized.
    Mr. Doolittle. Thank you, Mr. Chairman. Dr. Lewis, earlier 
when you testified, you indicated that you were not asked in 
the request that caused you to undertake your study, you were 
not asked to determine whether the decision made in 2001 or the 
actions taken there were the right actions; is that an 
accurate, fair phrase of what--
    Dr. Lewis. What I was trying to get at is that we were 
asked to judge whether there was significant scientific support 
beneath each of these recommended--required, actually, required 
actions. The difficulty of jumping directly from that to right 
and wrong and that the agencies, as indicated earlier, often 
are required by law to make a decision when there is no 
significant site-specific information at all. And then would be 
true to say there isn't any real strong scientific basis here, 
we're dealing with professional judgment. But one cannot 
possibly rule out the use of professional judgment in any sort 
of applied science. We don't do it--we don't rule it out in 
medicine or engineering. We have to use it in environmental 
work as well.
    However, where the committee came up with a distinction is 
that in this case, during the 1990s, quite a bit information 
had accumulated that ultimately looked directly contradictory 
to the original idea for fixing, if you will, the Upper Klamath 
Lake sucker population. So you could ask the question. We 
didn't ask the question: Was the agency right to go ahead 
anyway and retain the theory they was working on when it looked 
increasingly unsupportable from a scientific point of view, 
were they being--
    Mr. Doolittle. Dr. Lewis, I'm asking you that question. 
Give me your answer, please.
    Dr. Lewis. Is that--that would have to be personal to me, 
because I don't know what the committee would say in the case.
    Mr. Doolittle. All right. So let me ask you this: How do I 
get the committee to answer that question?
    Dr. Lewis. Well, you'd have--the committee is out of 
business.
    Mr. Doolittle. All right. So what process do we need to go 
through to have that question answered?
    Dr. Lewis. Well, see, the question is not entirely 
scientific.
    We gave you the science part of it, so someone in policy or 
law would have to say whether the agency was being excessively 
conservative, conservative to the point of making--running a 
high risk of making an error.
    Mr. Doolittle. I assume you may answer questions that 
aren't entirely scientific from time to time.
    Dr. Lewis. Yes, but I'm not considered an expert in 
nonscientific questions.
    Mr. Doolittle. So if we asked the National Research Council 
to answer that question, are they going to tell us, we can't do 
it, or we don't do it?
    Dr. Lewis. I suspect they would tell you they don't deal 
with policy or politics. They deal with technology, science. 
They answer science-based questions, and that's what they were 
formed for. That's what's in their founding documents.
    Mr. Doolittle. Well, just for my information, who exactly 
can address a question to the National Research Council? Does 
it have to come from the executive agencies, as this one did?
    Dr. Lewis. No, it can come from Congress, for example--
    Mr. Doolittle. And is Congress this Subcommittee, an 
individual Member of Congress, or a full committee, or a joint 
resolution, or a single House resolution? What is Congress for 
that purpose?
    Dr. Lewis. Anyone who has a budget.
    Mr. Doolittle. Fair enough.
    Dr. Lewis. Yes, the government makes the request, the 
Congress makes the request to the Academy, usually through an 
agency, through an agency budget, and basically requires the 
agency to request the Academy to do a job. Now, the Academy--
    Mr. Doolittle. They get somebody else to pay for it.
    Dr. Lewis. That's right.
    Mr. Doolittle. Good plan.
    Dr. Lewis. But the problem is that the Academy doesn't--is 
not part of the government and does not accept all requests. It 
doesn't do politics, and it rarely does policy, only does 
policy if there's a strong factual scientific technical 
component to it.
    Mr. Doolittle. All right. Thank you. Mr. Rodgers, I 
probably will only just get into this before my time ends, but 
the biological opinions that the agencies come up with, well, I 
guess really--maybe I'm asking--maybe I shouldn't ask you this. 
I guess the biological opinions come out of either the Fish and 
Wildlife or NOAA. So let me withdraw the question to you and 
ask Mr. Thompson or--is it Lecky?
    Mr. Lecky. Lecky.
    Mr. Doolittle. Lecky. Are those biological opinions--I 
guess those come about because someone has filed a petition for 
listing a species as threatened or endangered; is that right.
    Mr. Thompson. No. The biological opinions are to provide 
for incidental take, NEA section 7 is a Federal--
    Mr. Doolittle. OK. That pertains to section 7. All right.
    So somebody wants to do that, and then you do the section 7 
consultation.
    Mr. Thompson. Somebody has an incidental take in their 
legal duties if they do it out in the landscape, and they need 
coverage for that take.
    Mr. Doolittle. OK. And that request is made to--
    Mr. Thompson. Biological--
    Mr. Doolittle.--the regional director.
    Mr. Thompson. Usually it's a field level. The project 
leader out here for the Bureau would submit a biological 
assessment to the project leader in Klamath Falls or Fish and 
Wildlife Service or NOAA, and we would render a biological 
opinion based on their biological assessment.
    Mr. Doolittle. All right. Let me see if I understand this. 
So somebody out in the field makes a request, and when they 
make the request to the agency, who actually--who gets the 
request? Does it go through you first as the head of the 
region?
    Mr. Thompson. No, normally they go through the field level.
    Mr. Doolittle. So it just goes directly to the field?
    Mr. Thompson. And depending on the level of controversy. 
Some, like the Klamath, would come through Kirk probably and 
then back over to me, if they're that controversial.
    Mr. Doolittle. Then who makes the determination as to how 
controversial they are?
    Mr. Thompson. We do, sit and talk back and forth--
    Mr. Doolittle. You mean you and Kirk do?
    Mr. Thompson. Yes.
    Mr. Doolittle. So you get a chance, as the head of your 
region, each of you, before some opinion is actually issued, is 
that right, to decide?
    Mr. Thompson. The way it generally works is Kirk and I talk 
four or five times a day on a general basis. A topic will come 
up, we'll discuss it, and we'll try to estimate how 
controversial that would be and if we need to be involved or 
not, or if it's one that's a minor decision that the field 
project leader could make or even a medium or major.
    Mr. Doolittle. But the field project leader wouldn't just 
get this request and start to work on the opinion and tell you 
about it a few days later or something?
    Mr. Thompson. No.
    Mr. Doolittle. You'd know right away that this was going 
on; is that right?
    Mr. Thompson. Normally what we do on controversial or even 
tough biological opinions is, the day that we know about them, 
that they're initiated from the agency, we talk then with our 
field project leader, midway, and then toward the end of the 
decision.
    Mr. Doolittle. And do you have some discretion as to who 
actually writes this biological opinion?
    Mr. Thompson. Yes.
    Mr. Doolittle. As the head of the agency? All right. Well, 
I'll--yeah, Chairman, give me more time. Can you comment on 
that, Mr. Lecky?
    Mr. Lecky. I'm sorry. Just a point, NOAA Fisheries is 
organized a little bit differently than the Fish and Wildlife 
Service is, and we're a little more centralized. Our opinions 
result as requests for consultation from other agencies, and 
those requests come to our regional administrator, and their 
staff routes it to the appropriate location for work, but the 
product is actually signed approved by the original 
administrator.
    Mr. Doolittle. Oh, that's a key difference, whereas this 
product in Fish and Wildlife ends up being signed off in times, 
unless you decide otherwise, I guess by the project leader; is 
that right?
    Mr. Thompson. The controversial ones, I will sign those.
    Mr. Doolittle. You will sign those?
    Mr. Thompson. Yes.
    Mr. Doolittle. OK. But I mean, there's a lot of this gray 
area as to what's controversial and what's not. Maybe this 
thing in Klamath started out as noncontroversial, although 
probably not.
    Mr. Thompson. No.
    Mr. Doolittle. All right. I'll come back in my next round 
and want to go more into this, I think. Thank you.
    Mr. Calvert. Thank you, gentlemen. Maybe this question 
would be for Mr. Rodgers, and I'm going to get into the issue 
of adjudication. And I just kind of--I was involved in the 
negotiation with the Colorado River recently on trying to 
resolve that issue, the Quantification Settlement Agreement 
between the upper and lower basin states, which we finally came 
to some resolution on. But a lot of that, as you know, circled 
about the adjudication of the Colorado River and many, many 
years of work. And it seems to me that this problem here has a 
lot of different players, obviously the agricultural community, 
fishing community, the endangered species community, the 
environmental community, but it all goes back to water and how 
we utilize that water. How much adjudication has taken place 
over time? Is there any firm knowledge of who owns what around 
here, as far as water, just for the record?
    Mr. Rodgers. There have been more than one adjudication. 
Lost River did go through an adjudication, which is the east 
side of the project. And to my knowledge, no water rights 
certificates were ever issued as a result of that, although the 
priorities were established on the Lost River.
    The Klamath River is, as of this date, unadjudicated, but 
the adjudication is presently underway. And so as it stands 
right now, the State of Oregon, who would manage that 
adjudication, who is managing that adjudication, is in a 
position of having some knowledge about where the priorities 
are, based on permits that they've issued in the past, are in a 
difficult posture, because we've approached them about this in 
the past when there are water shortages and we ask them to 
regulate accordance with priority, they tell us because the 
river is unadjudicated, they don't have a legal mechanism with 
which to enforce priority.
    Mr. Calvert. Now, part of that adjudication, as it moves 
forward, and I know that, as they all are complicated, part of 
it is obviously involved with the Endangered Species Act and 
how we manage sufficient water flow to satisfy that Act the way 
it's presently configured. Hopefully we can make some changes 
to that, but as the way it's presently configured, has there 
been discussion here--people seem to be upset about single-
species management--about overlaying that with a multispecies 
habitat conservation plan? Has there been discussions in this 
region about that?
    Mr. Rodgers. There have been discussions about that. And in 
fact, we, working with NOAA Fisheries and Fish and Wildlife 
Service, have engaged a process called the Conservation 
Integration Program where we're looking, on a basin-wide basis 
at--the principal foundation of it will be for endangered 
species compliance, but we want to expand that out to encompass 
and look at the needs of other species so that we're taking 
them as a whole.
    Mr. Calvert. Because it seems to me we've got a short-term 
problem in how we manage this--get through this problem, 
continuing problem, in the short term, short term being the 
next few years, and how do we get through to a long-term 
solution to this problem? Part of that is going to be 
adjudication, where everybody understands what their rights are 
and can deal with it, and obviously management, both in the 
short term and the long term, management plan for this project, 
and then of course how we deal with the various species and 
agricultural rights, Tribal rights, etcetera, etcetera, 
etcetera. And are we heading down that path yet? Are the people 
getting in a room yet to start talking about that long-term 
solution--
    Mr. Rodgers. Yes, as it relates to the adjudication, but 
those matters take quite a long time. I would like to add one 
thing with regard to adjudication, that which is underway on 
the Klamath River is being handled by the State of Oregon, and 
the rights that they're adjudicating are for those residents of 
Oregon, and it won't address the adjudication of rights 
downstream from where--when the river crosses the border, as I 
understand it.
    Mr. Calvert. And it may be, though, that if we're going to 
have a long-term solution to this problem, obviously short-term 
work on that, but the long-term solution is to have all parties 
involved in this long-term negotiation--
    Mr. Rodgers. Absolutely.
    Mr. Calvert.--to come to an ultimate resolution?
    Mr. Rodgers. Yeah. Our view is that this is a basin-wide 
effort that must be engaged by the communities that are here to 
help solve the problem.
    Mr. Calvert. And in this case we have two step, you know, 
it seems to me that if we can--of course, I don't know if you 
want to use the quantification settlement agreement as an 
example. It took us a number of years to resolve that issue, 
but it seems that this would be somewhat--much more simpler 
than what we went through with the Colorado River.
    Mr. Rodgers. I'm not sure. My colleague Bob Johnson, who 
worked on that, has informed me of many of the issues they 
have. I think there's some very strong parallels and 
similarities here, that I think it would be equally as 
complicated.
    Mr. Calvert. But you don't start until you begin?
    Mr. Rodgers. That's correct.
    Mr. Calvert. Mr. Walden.
    Mr. Walden. Thank you, Mr. Chairman. I want to follow up on 
that. And this is probably a sensitive question to ask, but oh, 
well. Is there a forum in place today to reach a basin-wide 
solution? There are a lot of different groups, and it seems 
like we keep adding them. Do you all believe there is one group 
today that is capable, that everybody's in, or do we need to 
get rid of all those and start a new one? I'm just throwing out 
ideas here. Mr. Vogel, we'll start with you.
    Mr. Vogel. The short answer's no. There a lot of groups and 
organizations that have attempted--
    Mr. Walden. Right.
    Mr. Vogel.--that kind of approach over the years, but they 
haven't been successful, because the issues, frankly, are 
extremely complex. We have multiple interest groups, multiple 
legal priorities and so forth. The Endangered Species Act ends 
up being one of the biggest stumbling blocks. Despite what 
product those groups might produce, they still have to deal 
with the Endangered Species Act.
    Mr. Walden. All right. I'm going to have to move fairly 
quickly here because I got a couple other questions. Is there a 
group today, and this isn't disparaging about the work these 
people are doing, because Lord knows they put incredible hours 
into it, but the question is: Do we have a forum today to solve 
the problem? Assemblyman.
    Mr. LaMalfa. My answer would be, we need one, in that my 
dealings with some of our farmers on the California side see 
that we have this arbitrary stripe between--
    Mr. Walden. Right.
    Mr. LaMalfa.--California and Oregon, where there's two 
different sets of regulations, and one side maybe being more 
restrictive than the other, you can guess which side that is, 
but the folks that are farming up here--
    Mr. Walden. I know.
    Mr. Radanovich. There's four of us up here.
    Mr. Walden. Yeah. If you quit drilling your wells and 
sucking our water underneath the line--
    Mr. Calvert. Gentleman from Oregon will please--
    Mr. Walden. Oh, I will, I'll settle down. Would you like a 
little water, sir? OK. Can we--
    Mr. Calvert. This water's from California.
    Mr. Walden. I thought I noticed a taste to it. Go ahead.
    Mr. LaMalfa. Real quick, the need, though, for some kind of 
consistency for folks for the practical needs they have that 
work on both sides of the state lines with regards to 
regulation and having maybe some sort--
    Mr. Walden. So it needs to have be a bi-state--we ought to 
have people both sides of the line?
    Mr. LaMalfa. And maybe some kind of a waiver where there 
could be commonly accepted set of standards for farming 
practices and water use, etcetera.
    Mr. Walden. All right. Mr. Fletcher.
    Mr. Fletcher. Same thing goes for working groups, task 
force, those type of things, throw them out and make people 
come to the same table and speak to the same issues, don't 
argue over terms.
    Mr. Walden. Mr. Foreman, Chairman.
    Mr. Foreman. The forum that is available today, at least on 
the Oregon side, is the landowners and stakeholders in the 
basin. That's where the real solution needs to come from.
    Mr. Walden. All right. Mr. Brown.
    Mr. Brown. Thank you. I actually addressed that in my 
written testimony, where I concluded that there is not a forum 
at this time.
    Mr. Walden. All right. Mr. Gaines.
    Mr. Gaines. There absolutely is not a forum in place today 
that brings the right interests to the table and has everybody 
represented and that has people that are empowered to make 
decisions on behalf of their constituents. We need one.
    Mr. Walden. Good point. Mr. Smith.
    Mr. Smith. Thank you, Congressman. No, we don't have one, 
but not at the expense of the Management Council, Klamath 
Management Council or Task Force. Those are good groups.
    Mr. Walden. All right. Dr. Lewis.
    Dr. Lewis. The NRC committee recommended a committee of 
collaborators, which would consist of people who disagree with 
each other, not people who agree with each other, because there 
is the problem right now.
    Mr. Walden. All right. Mr. Rodgers.
    Mr. Rodgers. One does not exist. We do need one. Some 
preliminary work is underway.
    Mr. Walden. All right. Mr. Thompson.
    Mr. Thompson. I agree with Kirk.
    Mr. Walden. All right. Mr. Lecky.
    Mr. Lecky. Actually, we recognize that in our biological 
opinion, and we ask the Bureau to explore putting together the 
CIP, which we think is a forum that might work.
    Mr. Walden. Here's what then I would ask of each of you, is 
can you get back to, I think I'll speak for myself, but I 
assume for other members of the Committee, within the next 
couple of weeks on who should be on such a forum, how it should 
exist and all of that. Give us some ideas, each of you will 
commit to do that so we can look at create--if we got a bunch 
of forums and everybody at this panel agrees none of them are 
constituted in a way that will solve the problem or give us a 
basin-wide solution, then for heaven sakes, let's figure out 
how to come up with one. I know that won't be easy, but could.
    Dr. Lewis, on page 9 of your written testimony, you state 
that factors stressing the species, sucker and coho, extend 
well beyond the Klamath Project. What are the most beneficial 
activities we should be undertaking today, tomorrow, next year 
to recover those species? And before I have you answer, I just 
wanted to put on the record, too, because there was some 
discussion of funding into the basin, in Fiscal Year 2001, 
$11.1 million came into this basin for this sort of work. The 
budget we just approved, the appropriations bill in energy and 
water contains $28.1 million into this basin. That's a 153 
percent increase under this Administration and this Congress to 
try and address these issues, and that doesn't include other 
funds that I know are coming in through Equip and elsewhere. 
Dr. Lewis.
    Dr. Lewis. I think the--
    Mr. Walden. It's on.
    Dr. Lewis. OK. I think the money you provided is very 
invigorating, so I think that will do a lot. But let me give 
you an example of the role of money in doing important 
projects. U.S. Fish and Wildlife Service, probably as far back 
as 1988, when the suckers were listed, said put a screen on the 
A Canal.
    Mr. Walden. Right.
    Dr. Lewis. Now, they're documented thousands--tens of 
thousands of endangered fish being killed right there, very 
obvious. It's a mechanical solution. The USBR didn't do it. So 
our committee said, why didn't you do it? They said, well, we 
get our money from Congress, a lump of money that size must 
come from Congress. We can't do it out of our operating funds. 
So there's a problem there on implementation of physical 
projects and a lot of physical projects are necessary in this 
basin.
    Mr. Walden. And we've since done that.
    Dr. Lewis. Right, you've done--
    Mr. Walden. And Chiloquin Dam.
    Dr. Lewis. Chiloquin Dam's another one, yes. And we need--
in the lower basin, we need a lot of habitat restoration for 
coho; we need to remove or circumvent or build passes around a 
lot of small obstructions to the movement of fish.
    Mr. Walden. Do you concur that this problem will not be 
solved solely on the backs of the project?
    Dr. Lewis. No. This task is indicated in our summary. The 
list of items goes way beyond the physical layout or the 
operations of Klamath Project. Now, some good physical projects 
could be done inside the project, because the project overlays 
the center of the original distribution of the suckers. So 
there's some good opportunities there for physical projects 
that don't necessarily involve manipulation of water in the 
easy sense.
    Mr. Walden. OK. Thank you. I'm out of time. Thank you.
    Mr. Calvert. Mr. Radanovich.
    Mr. Radanovich. Just a couple quick questions. Thank you, 
Mr. Chairman. Can someone tell me how much money's been spent 
on the sucker and coho salmon restoration since 2001, and is it 
possible to determined how many fish have been recovered since 
then?
    Mr. Thompson. I could get you those numbers, but I don't 
have them right in front of me.
    Mr. Radanovich. Can you get them for me then?
    Mr. Thompson. Yes, I will.
    Mr. Radanovich. Is there any science right now saying that 
the sucker fish are better off because of the 2001 shutoff?
    Mr. Thompson. Science that says the suckers are better off 
because the shutoff.
    Mr. Radanovich. Right.
    Mr. Thompson. There was a drought year and a lot of other 
issues there, so it's kind of hard to say what the populations 
are because or not of the shutoff. There's a lot of other 
factors that affect the suckers. So the suckers are still 
struggling, if that's the answer you're looking for; they're 
still at low numbers.
    Mr. Radanovich. Still at low numbers.
    Mr. Thompson. Yes.
    Mr. Radanovich. Then science to show that.
    Mr. Thompson. Yes.
    Mr. Radanovich. OK. All right. Thank you, Mr. Chairman.
    Mr. Calvert. Mr. Herger.
    Mr. Herger. Thank you, Mr. Chairman. Everyone's talking 
about the fact that this species is down. Mr. Vogel, could you 
tell us, is there some evidence that the species is there?
    Mr. Walden. Can we get a microphone.
    Mr. Vogel. Thank you. The question was, are the species--
    Mr. Herger. Everyone is talking about the species not 
being--the species is down. Don't we have some evidence--have 
you found some evidence to indicate that perhaps the species is 
indeed there?
    Mr. Vogel. Oh, there's no question the species is there. 
The way the Endangered Species Act is structured is that they 
need a variety of population parameters to evaluate whether or 
not they're threatened or endangered. So we know they're there; 
there's no question about it. The question is: Where are they, 
how many are there, what's their distribution, what's their 
reproductive ability, and so forth. And I firmly believe that 
the data that we have in hand now demonstrates very clearly 
that the population numbers of both Lost River and short-nosed 
suckers is much greater in size, over a much broader 
distribution, demonstrating much greater recruitment than was 
believed at the time the suckers were listed in 1988.
    Mr. Herger. Therefore, if we--if they in 1988 knew that 
they had the numbers that you say we're aware of now, perhaps 
they might not have even been listed.
    Mr. Vogel. Yes, I think that's the case. And that's based 
on a lot of background research I did through the Freedom of 
Information Act of internal documents within the agencies that 
led up to the listing. In fact, in 1986 the U.S. Fish and 
Wildlife Service staff responsible for whether or not to pursue 
these listings believed there was only 12,000 Lost River 
suckers in Upper Klamath Lake, and the suckers elsewhere were 
considered very small or just remnant populations. But they 
said, we will not pursue endanger because they didn't believe 
they were endangered. Only 12,000 fish, and yet, just a couple 
years later, in the early '90s and mid '90s, we now know for a 
fact that that number's exceeded by tens of thousands of Lost 
River suckers all over the drainage. But now they flip flop and 
they say, they are endangered. So that's one of the problems 
with the subjective nature. What constitutes endangered?
    Mr. Herger. Did you work with the Fish and Wildlife at one 
time?
    Mr. Vogel. Yes, for 14 years.
    Mr. Herger. Fourteen years. That's a pretty alarming 
statement that you've just made.
    Mr. Vogel. Well, there is a lot of information in the 
administrative record that is in my written testimony that 
demonstrates even more examples of those type of situations.
    Mr. Herger. Just moving to another line of questioning, one 
thing everyone seems to agree with is that we need more water. 
And we live in an area of the country where our water falls in 
the winter time, and we're a desert in the summertime. So it 
really boils down to storage. And Mr. Rodgers, as I mentioned 
in my opening statement, I'm extremely concerned that we have 
not seen any positive movement forward on studies examining new 
storage opportunities here in the Basin. And as you know, under 
the legislation passed by Congress in 2000, the Bureau was 
directed to study ways to augment water supplies in the Klamath 
Project through construction of new facilities or by adding to 
existing ones to add net new water yield for the agriculture in 
the project.
    Mr. Rodgers, I'd like to ask, what is the status of these 
water storage feasibility studies? I understand the continued 
study of a potential Long Lake Project, an offstream storage 
reservoir is supported by more than twenty local groups, 
including five California and Oregon counties. It's also my 
understanding that this reservoir was examined in 1987 as part 
of a larger examination of three potential offstream reservoir 
sites, but that at the time it was not considered economically 
viable. However, an independent consultant, MBK Engineers of 
Sacramento, reviewed those numbers and indicated that they are 
unnecessarily large. That consultant indicated a new, different 
analysis could yield much different results. Again, what is the 
status of the Long Lake study, and what is the status of, in 
general, of water storage feasibility studies?
    Mr. Rodgers. Bureau of Reclamation did study Long Lake, and 
as you mentioned, we did have some technical problems that we 
had identified at the time. One was financial. When we were 
doing the study, one of the objectives is to figure out whether 
you're going to get sufficient benefits for the cost you're 
going to invest. And our finding at the time was we would get 
.4 dollars back for every dollar invested, based on the 
analysis that we were doing. That was one problem.
    And the second problem was that geology in the basin was 
suspect in the sense that, recognizing this was going to be an 
offstream storage, meaning you would have to use energy to pump 
water up into it out of Upper Klamath Lake area and then hold 
it there, you could recover some of that energy as you brought 
it back out through generators, but it wouldn't be a one-for-
one benefit. You wouldn't want that to leak, because if you 
were going to put that system in place and the foundation were 
to seep back out on you, then the energy would have been lost.
    So those two things led us to believe that it wasn't a 
viable project. Since that time, as you're correct, there have 
been consulting studies that have been engaged, and we are 
conferring with those groups and are re-engaging that study as 
we speak. So we are in the process of taking another look at 
Long Lake. Preliminarily, our findings are that there could be 
upwards of 300,000 acre feet of water stored in that system. By 
capacity I don't know what the yield might be on it yet, 
because recognize you'd have to capture water as it was coming 
out in a run-off state, and it might take very large pumps to 
capture that narrow window of time when you're having the run-
off in order to fill that system up. So the economics will also 
be a factor there. We'll need to look at that. We are looking 
at it.
    As far as other studies, there are a couple of things that 
we do have underway. One is the possibility of expanding the 
capacity of Upper Klamath Lake. We have looked at it from the 
standpoint of enlarging it or raising it and concluded that 
that might not be feasible preliminarily, but it doesn't mean 
that there isn't possibilities there, because as you're aware, 
Upper Klamath Lake is a reclaimed lake. And there's perimeter 
areas along that have been diked and farmed, and it's possible 
that one could consider reflooding some of that area to gain 
storage. So that would be one possibility. And one such example 
is, for instance, the Barns property, which has been identified 
as a great potential. It could increase the storage capacity of 
the lake by approximately 30,000 acre feet if reflood--or up to 
30,000, depending on how it was managed. So we are looking at 
those things. We recognize that you would like to see those 
moved along more quickly, and we're sensitive to that.
    Mr. Herger. Thank you.
    Mr. Calvert. Thank you, gentlemen. Mr. Doolittle.
    Mr. Doolittle. OK. Back to the biological opinions. I have 
here in the committee analysis that on June 3rd, 2002, 
Reclamation formally objected to both of the biological 
opinions and opted, I guess, one of those came from National 
Marine Fisheries and one came from National Fish and Wildlife 
Service; is that what we're talking about?
    Mr. Rodgers. [Witness nodded head.]
    Mr. Doolittle. OK. And opted to operate under a 1-year plan 
that it argued complies with the biological opinions. So when 
you object to biological opinions, whom do you object to? The 
ones that issued them, or you know, how does this work?
    Mr. Rodgers. The process that we follow is simply is, we 
put together a proposed course of action or a project that 
we're going to engage. We write up what the description of the 
project will be, and we do an analysis on whether or not we 
believe that--or what the effects will be to the species that 
are targeted, the endangered species, and we present that to 
the Fish and Wildlife Service for their opinion.
    Mr. Doolittle. Is this--and I just asked--is in response 
after you've read their biological opinion or while they're 
formulating it.
    Mr. Rodgers. I was just going--I'm doing a little bit of 
background--
    Mr. Doolittle. OK.
    Mr. Rodgers.--if I could, for the foundation. We then get 
their opinion back from them after we've presented them with 
our assessment. They either make a nonjeopardy call or a 
jeopardy call, and if it is a jeopardy call, meaning the 
proposed project will jeopardize the species, then their 
obligation is to present to us a reasonable and prudent 
alternative so we can proceed with the action and present that 
to us. Our responsibility then is to determine whether it's 
reasonable or prudent.
    Mr. Doolittle. So you're still kind of in the driver's 
seat, even though you have to be afflicted with their 
biological opinions.
    Mr. Rodgers. Yeah. I have the ability to object. And I can 
even say, that, no, I won't accept your biological opinion, and 
I'd going to do the action anyway.
    Mr. Doolittle. Oh, you can.
    Mr. Rodgers. Yes.
    Mr. Doolittle. Have you ever done that before?
    Mr. Rodgers. No.
    Mr. Doolittle. May I encourage you to do so?
    Mr. Rodgers. Well, let me tell you what the consequences 
are, Congressman. For each species that I harm, harass, or kill 
because I ignored their opinion and took the action, and I 
don't have incidental take, the fine is, if I recall, it's 
$25,000 per incident and a year in jail.
    Mr. Doolittle. So this is personal to you at that point?
    Mr. Rodgers. It gets very personal at that stage.
    Mr. Doolittle. So we've got a law like that, that basically 
no one then would ever do that.
    Mr. Rodgers. I wouldn't.
    Mr. Doolittle. Are you aware that anyone has? I mean, I 
would suspect not, but have you ever heard of anyone who did do 
that?
    Mr. Rodgers. I'm not aware of anyone who has.
    Mr. Doolittle. Would that be, gentleman, your experience as 
well?
    Mr. Lecky. There are many examples of where graft jeopardy 
opinions have resulted in discussions between our agencies, 
either with the Bureau or Core of Engineers or agencies that do 
most of the consultations in California. And those discussions 
usually find solutions and middle ground so that the project 
can go forward and incidental take can be authorized.
    Mr. Doolittle. Let me ask you this; this is really what I'm 
trying to get to. I don't think I'm mischaracterizing this, the 
National Research Council report came out and said that lake 
levels and the increased flows did not--there was not a 
scientific basis for solving the fish kill that happened in 
2001, and maybe they could be helpful in some other way, but I 
think that's pretty much what the NRC report said. And then, 
Mr. Rodgers, you've got a preliminary draft report issued by 
Reclamation, December, 2003, that indicates the historical 
summer flows on the Klamath were less than what had been 
prescribed in the 2001 opinion for coho as designed by the NOAA 
Fisheries. Since these actions that were taken in 2001 have had 
such devastating effect upon the people in this basin and since 
we now know that those actions were necessary and that indeed 
harm was done, why aren't these biologic opinions being 
modified in the light of subsequent knowledge and experience?
    Mr. Lecky. Congressman, they were. The 2001 opinions are no 
longer in place. They were both--they were both--
    Mr. Doolittle. OK. But you're still, for example, demanding 
under some opinion that we have to get to 100,000 acre feet in 
this water bank next year, which is--I understand is going to 
be nearly impossible, meaning that maybe it's possible, but not 
without hardship. You're going to impose hardship; why?
    Mr. Lecky. Just to clarify, that's the 2002 opinion.
    Mr. Doolittle. OK. The 2002.
    Mr. Lecky. We did look at the 2002 opinion for coho salmon 
does--is a jeopardy opinion. We made a finding that the 
Bureau's proposed operations for the period of time, 2002 
through 2012, would likely jeopardize coho. Our view was that 
their proposal was inconsistent with the NRC report and that it 
would have allowed river flows to degrade over that decade, and 
rather than operating to a ceiling of a minimum 12, we 
established the flow schedule as the floor and augmented that 
for use in the spring time. Again, the recommendations are 
consistent with the NRC report to improve out migration 
opportunities for coho salmon in the spring runs.
    Mr. Doolittle. And yet, in apparently their newest report 
that isn't final yet, and we wish it would be, indicates that 
the river dried up in spots, historically, before we ever had 
the Klamath Project. So if anything, the Klamath Project made 
things better in the terms of the amount of water available, 
not worse?
    Mr. Lecky. Well, that report is still in process. It hasn't 
been developed, there are--so we need to look at that report 
and consider it.
    Mr. Doolittle. Well, Mr. Rodgers, it's indicated to me that 
this--well, I don't know, when's it going to happen? When are 
we going to have it final so we can move on this?
    Mr. Rodgers. We are proposing to reconsult on the present 
biological opinions, and our plan is to have the reconsultation 
concluded by the water year that begins in 2006. We'll be going 
through the process of reconsultation through '05, at the end 
of this water year and beginning of next, and have it concluded 
by '06.
    Mr. Doolittle. Well, given that that will impose an 
enormous hardship, to get to 100,000 acre feet, because you're 
waiting until 2006, can't you speed this up so that we can 
avoid imposing that additional hardship?
    Mr. Rodgers. Well--
    Mr. Doolittle. After all, you kind of owe them that, given 
what you did in 2001, don't you?
    Mr. Rodgers. Well, these are--you know, these are difficult 
questions and issues. We work on this water bank that--I mean, 
you're characterizing as a hardship, and I know it's not easy 
for folks, but it is a willing seller arrangement, where they 
do get compensated by coming forward and saying, we have this 
water that we would have diverted, we're willing to make it 
available and be compensated for it so that it can go to these 
fishery needs.
    Mr. Doolittle. Here's what I worry about, I mean, willing 
sellers is good as far as it goes, but there's a famous example 
in the southern part of the state involving willing sellers 
that permanently changed the whole region and basically made it 
pretty much a desert. And I worry about that as the area's 
representative, for at least part of the area. I worry about 
that being the solution, that we--you know, because look what's 
happened to the logging industry under the phony nonsense 
involving the spotted owl. We've lost all these mills, we've 
ruined our forests, we're paying millions and millions of 
dollars to fight forest fires that now are so out of control we 
have no hope in the next 20 years of ever getting on top of 
this problem, and I see that type of thing happening here in 
the Klamath Basin unless we jump in.
    So I just want to--I guess my time is up, but as one 
representative, Mr. Rodgers, and the rest of you, not just Mr. 
Rodgers, he's just stuck in this position being head of the 
local Bureau of Reclamation here, but I just would say, as the 
people's elected representative for one congressional district 
from the State of California, I would urge you to do everything 
you can to err on the side of the people who live here. And if 
you have to make a choice that either benefits the people or 
the species and you have that discretion, err on the side of 
the people, because if the people aren't there, you're not 
going to have the species, you're not going to have the Klamath 
Irrigation Project that provides the water in the dry years, 
you're not going to have the crops being grown that support the 
waterfowl that we're heard about, that Mr. Gaines talked so 
eloquently about.
    I mean, after all, God created the earth for men and women, 
and these men and women have been good stewards of what has 
been under their jurisdiction, and I just would, you know, 
hearing that--given the history of this in 2001 and now that, 
you know, not you personally, Mr. Rodgers, I'm going to say you 
to the ones who are involved as decisionmakers, when you had to 
make a quick decision and you decided to take a radical action 
that nearly killed the patient, you know, even the Hippocratic 
oath says do no harm, you just about killed the patient in that 
one. And now you have a chance to help the patient considerably 
by mitigating the requirements of this water bank. And please 
consider that, because I think putting these people through the 
idea of getting into 100,000 acre feet, I suspect once some of 
these people have sold their water rights, they may throw in 
the towel and leave. And I'm afraid that's the agenda of some, 
not of the people sitting here, but I think the agenda of some 
would be to have this become sort of a quasi national park or 
something up here, where there's very little going on except 
the waterfowl flying back and forth, and next thing I know, 
we'll be paying tax payers subsidies to grow crops at the 
government's expense so that we have food for these things. I'd 
like to see a multidimensional, multipurpose use.
    Thank you, Mr. Chairman.
    Mr. Calvert. Thank you, gentlemen. Mr. Walden. Mr. Walden 
will ask the last round of questions, and we'll be closing the 
hearing out.
    Mr. Walden. Thank you, Mr. Chairman. Again, I want to thank 
my colleagues for being here today and speaking out on behalf 
of the folks of this basin, and I appreciate your comments and 
certainly glad to have your participation in this issue.
    Mr. Brown, I want to thank you. I remember our meeting in 
my office, I think you made reference to it in testimony, about 
the need and some of the problems your folks face are identical 
to problems my folks face, glad you all got together, Dan Capen 
and you, and began some conversations. I think a lot of these 
problems emanate from the ESA being improperly administered or 
flawed. And if the ESA is flawed, it's up to us in the Congress 
to fix it. That buck stops here, and I think it's flawed, and I 
think it needs to be fixed.
    Mr. Fletcher referenced the fact that PCFFA, the Pacific 
Coast Fishermen's Federation Association, I think I'm close on 
that, Glen Spain's group, was part of the ligation. Tell me, 
are you a member of that as a fisherman, Mr. Brown?
    Mr. Brown. No.
    Mr. Walden. Do you know of--can we get a mike down there to 
you? Do you know fishermen who are? Is this--I've never figured 
out who PCFFA is and who they speak for. Are they a fishermen's 
group?
    Mr. Brown. Yes. And actually, the acronym, Pacific Coast 
Federation of Fishermen's Associations is just as it says, it's 
a federation of associations. And to some degree Mr. Smith can 
speak a little bit more to that in terms of California, in that 
it grew out of California, and there were member associations 
in California. As far as I know, there are no member 
associations in Oregon.
    Mr. Walden. In PCFFA?
    Mr. Brown. Right.
    Mr. Walden. All right.
    Mr. Brown. And again, individuals don't join, 
associations--
    Mr. Walden. Associations join.
    Mr. Brown.--join, and like I said, there's--as far as I 
know, there are no association members in Oregon.
    Mr. Walden. All right. Mr. Smith, are there--how many 
association members, do you know, in California?
    Mr. Smith. It's, Congressman, a number of ports, and they 
don't all participate, but there are a number of ports that are 
under the umbrella of PCFFA, or at least when I was involved.
    Mr. Walden. You're not involved now?
    Mr. Smith. No.
    Mr. Walden. All right. Do you know--
    Mr. Smith. Would you like the individual ports, some of 
them?
    Mr. Walden. That would be good.
    Mr. Smith. Santa Barbara, Morro Bay, Half Moon Bay, San 
Francisco, Bodega Bay, Ft. Bragg, Eureka, and I think there are 
probably a couple of others in southern California.
    Mr. Walden. Do you feel PCFFA speaks for individual 
fishermen? Because they weigh in on all of these issues up 
here.
    Mr. Smith. I think there's a mixed feeling.
    Mr. Walden. All right. I can tell you there's an intense 
feeling among some. I want to go back to this issue of suckers 
and, Mr. Thompson, I'm going to direct this at you, and then 
maybe Mr. Foreman and Mr. Vogel could weigh in as well. One of 
the questions I've asked at just about every one of these 
hearings is, how many suckers were they when it was determined 
there weren't enough and they had to be listed? How many are 
there now? But most importantly, how many do there need to be 
to delist? And I know I'm asking for empirical data here, how 
many suckers, and I know there's also this issue about the year 
class of suckers, so I'd like comments as well about what led 
to the decline in the populations, because I understand that a 
lot of them were simply snagged and caught and killed in a 
period of time when perhaps we didn't recognize the importance 
of age class of fish. So I know that's a lot in one question, 
but can you weigh in, and then hopefully we have time for the 
other witnesses.
    Mr. Thompson. Yeah. I'm trying to think of where to start.
    The listing part, Mr. Vogel is correct, and part of it, in 
the listing--to get a species listed is, and to generalize, a 
little bit easier than it is to get off the list. And if you 
look at the, you know, what the National Academy report said, 
and their report was the population densities of suckers are 
low, and there are no signs of the population returning to 
their previously high levels, so what we start to look at then 
is the threats that occur to the population. And we've talked a 
lot about the screening, about Chiloquin Dam, about the lack of 
spawning habitat out there, and the abandonment of spawning 
habitat, the reduction in the fishing pressures, all those 
things are good things that have happened, that continue to 
happen and hopefully will help recover the species.
    To get off the list, we have to look at the population 
levels and also the threats that are in place. And that's what 
we're proposing to do now with a 5-year status review, which we 
are going to walk through the current status of the species, 
take into account the National Academy's report, and also ask 
all the other people in the valley and up and down the river 
what their thoughts are on the status of the science, of the 
species, and the populations. After we complete the peer-
reviewed status review, we will ask--I will ask our staff to 
complete the updated recovery plan, and then I can answer your 
questions a lot better about how many, when they would come off 
the list, and when populations would be stable.
    Mr. Walden. Because, I mean, I'll make sure Chairman will 
not only get the information, too, from the Klamath Tribes and 
Dr. Vogel, but it just seems to me that we go into these 
listings, I think the Chairman said there are 7 that have 
recovered out of 1,300 put on the list, and we need to do a 
better job of figuring out what the end target is, because we 
keep throwing things out that--we've taken 24,000 acres out of 
farm production, we've screened the A Canal, we're working on 
removal of Chiloquin Dam or pass it. We're doing a lot of these 
things, but it seems like the end of the day, it's never 
enough. And so I want a recovery program and I want to hold 
people's feet to the fire to say, if we do these things, then 
that will lead to a delisting and not keep moving the goal 
post. Is that--do you have any other comments on that?
    Mr. Thompson. No. I think those are all valid concerns, 
that we need to move in that direction. And I would like to 
also compliment the farming community up here for--my uncle's a 
dairy farmer, and I have seen, when you challenge farmers to do 
good things to the resource, they generally respond the best 
way they know how, so I think the farming community's made some 
huge strides forward.
    Mr. Walden. I'm getting the hook from the Chairman, but can 
we have the Chairman respond maybe, Mr. Foreman? Can we get a 
mike down to Chairman Foreman? And while that's happening, I 
want to thank Sheriff Evenger of the Klamath County Courts, 
City of Klamath Falls, Donny Boyd, Mike Burn, Bob Gasser, Dan 
Kempen, and others here, and everybody involved in the Ross 
Ragland Theater, and everybody who made the hearing possible. 
There, I got that public service announcement in, and you now 
have the microphone, Chairman Foreman. Thank you.
    Mr. Foreman. OK. Thank you, Congressman Walden, and I 
appreciate your efforts in making it possible for the Klamath 
Tribes to at least be here to answer some questions. I think 
the real issue here today, and with all due respect, 
Congressman Doolittle, is at what point in time are we going to 
go back and determine the damages done to society? We've got to 
think about this a bit, because life did not begin with the 
creation of the Klamath Reclamation Project; life began before 
that. There were people here prior to that. Their hurts and 
their lifestyle was upturned just as much as anybody else's 
was. And the loss of our fisheries is just as important as the 
loss of other things.
    And I'm somewhat offended by the tone here, because we 
sympathize, we recognize with the farm community, and we don't 
want to see them suffer the things that we've suffered. But 
life did not begin in 1959 or 1905. There was life before that, 
and we have to recognize that all of us in this basin have 
suffered, and we've got to keep that in mind.
    I want to as--I want Tribal children to grow up knowing 
that there's fish available for them to harvest, just as farm 
children should grow up knowing that they should have a future. 
There has to be a balance here. If we continue on this road, 
that doing away with the ESA is going to solve this problem in 
the basin, we're deceiving ourselves. We've really got to get 
to the point where we recognize the real problems here. Storage 
is one of them, we all agree to that. We've got to work toward 
a solution toward the real issue.
    I view the ESA as basically the gas gauge in your car. And 
if one were to take the gas gauge out--the gas gauge basically 
warns you if you're low on gas. By taking the gas gauge out and 
repairing it, removing it, doing whatever, is not going to 
solve the problem that you're low on gas. You can put a new one 
in, and you're still going to be low on gas. We've got a more 
serious problem here in the Basin, and I really need to make 
that point. So I thank you.
    Mr. Walden. I would just--I think what you're hearing some 
of us say is we want to make sure that gas gauge reads 
adequately and appropriately and you can trust what the reading 
is. I mean, that's my view of why we need peer science.
    Mr. Foreman. We agree.
    Mr. Walden. Mr. Chairman, I'd also like to ask unanimous 
consent at this time to enter into the record a video recording 
of some events that took place today.
    Mr. Calvert. Without objection, so ordered.
    [NOTE: The video submitted for the record has been retained 
in the Committee's official files.]
    Mr. Walden. Thank you, and thank you for your generous 
time.
    Mr. Calvert. No problem. Mr. Herger, you have a closing 
statement.
    Mr. Herger. Thank you, Mr. Chairman. I want to, on behalf 
of everyone, sincerely thank you for bringing this hearing 
here. We've heard this morning how incredibly important, 
crucial this is to the lives of all of us who live here in 
southern Oregon and northern California. And I have to believe, 
and I do believe and know, that a nation that some three 
decades ago could not only put a man on the moon but bring him 
back alive can certainly work together to meet the needs of our 
fishermen, of our Indian Tribes, of the Venancio Hernandez of 
our community and certainly of the 8-year-old Blakes of the 
world, that we can do that. Certainly that is our task, and by 
working together and rolling up our sleeves, we can do that. 
And again, I believe this hearing today is helping us move 
closer to doing that. So thank you very much.
    Mr. Calvert. Thank you, gentleman. Mr. Doolittle for his 
brief closing statement.
    Mr. Doolittle. Thank you, Mr. Chairman. Mr. Foreman, I 
apologize if my remarks offended you. I did not mean to offend 
you, but I do believe in those remarks, but I hope you know--
and that's why I began opening the way I did today--that I 
recognize that this is a complex problem that has many parties. 
I think this has been an outstanding hearing. I mean, there's 
more agreement here that we saw out of everyone today, even 
with widely divergent points of view, that we have seen, at 
least that I have seen expressed before. I do believe that 
there is a solution. I recognize that, and you had great 
testimony, by the way. For those of you who haven't read it, 
I'm sure it's out there to read. But it was--it made the points 
very effectively about how life didn't begin with the birth of 
this Klamath Irrigation Project. And I recognize there are 
problems to the fisheries that are--perhaps they're permanent, 
maybe many of them can be resolved. We hope they can, and I 
will certainly support, you know, that resolution to improve 
them, not just getting the things delisted, but making them be 
even more prolific as they once were.
    And that will take a cooperative effort.
    But I just--I do want to say, as the area's representative, 
we can all sit around here and have our rhetorical positions, 
or we can find a solution. I believe that with goodwill and 
with enough resources devoted to it, it is possible to have a 
solution.
    I must say, I appreciated hearing from the coastal 
representatives, since those aren't my areas, learning about 
the, you know, the real problems of the commercial fishermen at 
that end. That was useful to understand. And if we do these 
things right, then all of these issues should improve. Anyway, 
I for one make the commitment to work together to do that, and 
I'm sure my colleagues feel the same. And I thank you, Mr. 
Chairman, for this hearing.
    Mr. Calvert. I thank you, gentleman, for his statement. I 
would like to thank this community for hosting us here today. 
It certainly was helpful to me and certainly to this committee 
to listen to this great testimony from all of our witnesses, 
obviously from a diverse point of view, but as Mr. Doolittle 
stated, there's some hope here. I hear some folks who want to 
come around and sit down and try to work this out. This has 
happened before, and I would suggest that that begin as soon as 
possible, that you all start working for a long-term solution 
to this. It won't happen overnight. You got a lot of Federal 
agencies involved, such as Core of Engineers, EPA, Fish and 
Wildlife, etcetera, etcetera, etcetera. But it won't begin 
until you start, as I said earlier, so I would encourage you do 
that.
    In the short term, I hope that we, all of us, can help. 
We're legislators, we have a job to do, but at the end of the 
day, it really takes good management on the part of our 
agencies, and I know that they feel under the gun here today, 
and I appreciate that, but it's a big responsibility. We 
appreciate your attention to this issue.
    Again, I'd like to thank this community for hosting us, and 
with that, I have one little statement here for the record. The 
hearing record will be held open for ten additional days for 
responses. For those interested in submitting testimony for the 
record, please e-mail the testimony to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a5d7c0d6cad0d7c6c0d68bc6cac8c8ccd1d1c0c0e5c8c4ccc98bcdcad0d6c08bc2cad3">[email&#160;protected]</a>, or fax the testimony, 
that's easier, (202)226-6953. If there's no further business 
before this committee, I want to thank the Members for 
attending. We are adjourned.
    [Whereupon, at 11:40 a.m., the Subcommittee was adjourned.]

    NOTE: The letters and statements submitted for the record 
by the following individuals and organizations have been 
retained in the Committee's official files.
    <bullet>  Armstrong, Marcia H., Fort Jones, California
    <bullet>  Baines, Larry, Medford, Oregon
    <bullet>  Black, Eric, Co-Chair, SOSS
    <bullet>  Borchmann, Craig
    <bullet>  Bowen, Liz, Callahan, California
    <bullet>  Bradford, Carol District Manager, Medford Irrigation District
    <bullet>  Brock, William and Melyn, Bonanza, Oregon
    <bullet>  Buckman, Jennifer T., Lingell Valley Irrigation District
    <bullet>  Bushue, Barry, President, and Greg Addington, Associate
              Director, Government Affairs, Oregon Farm Bureau Federation
    <bullet>  California Farm Bureau Federation (faxed)
    <bullet>  Cartwright, Therese, Rocky Point, Oregon
    <bullet>  Cheyne, Alvin, Klamath Falls, Oregon
    <bullet>  Cochran, Jo Whitehorse, Klamath Falls, Oregon
    <bullet>  Cole, Robert, Chiloquin, Oregon
    <bullet>  Cowman, Chuck, Everett, Washington
    <bullet>  Eicher, Jeff, Manager, Rogue River Valley Irrigation District
    <bullet>  Foreman, Allen, Chairman, The Klamath Tribes
    <bullet>  Fuhr, Brian, Rocky Point, Oregon (support upgrade of ESA)
    <bullet>  Gasser, Patsy, Merrill, Oregon
    <bullet>  Gasser, Bob, Merrill, Oregon
    <bullet>  Gherardi, Terry, Pollack Pines, California (faxed)
    <bullet>  Grader, William F. ``Zeke,'' Jr., Klamath Falls, Oregon
    <bullet>  Griffith, John
    <bullet>  Hart, Blair, Hart Cattle LLC
    <bullet>  Hays, John V., Unity, Oregon
    <bullet>  Heiney, Wilma, Tulelake, California
    <bullet>  HisleBeard, Will
    <bullet>  Howell, Donald, President, Siskiyou Resource Conservation
              District
    <bullet>  Hunt, Helen Newkirk
    <bullet>  Jud, William
    <bullet>  Kennedy, William D., Klamath Falls, Oregon
    <bullet>  Keppen, Dan, Klamath Water Users Association
    <bullet>  Kerns, E. Martin and Shirley, Klamath Falls, Oregon
    <bullet>  Kerr, John and Priscilla, Merrill, Oregon
    <bullet>  Krizo, David, Tulelake, California
    <bullet>  Krizo, Jacqueline, Tulelake, California
    <bullet>  LeDieux, Patricia, Klamath Falls, Oregon (support upgrade of
              ESA)
    <bullet>  Ligon, Jeraldine, Sierra Vista, Arizona
    <bullet>  Meline, Rick, Klamath Falls, Oregon
    <bullet>  Moudry, Chris
    <bullet>  Pendleton, Jim, Manager, Talent Irrigation District
    <bullet>  Ransom, William C., Chairman, The Klamath Bucket Brigade, 
              Inc.
    <bullet>  Rathbun, Floyd W., Fallon, Nevada
    <bullet>  Rick, Sharon E., Tulelake, California (faxed)
    <bullet>  Riddle, Lee
    <bullet>  Rivett, Robin L., Pacific Legal Foundation
    <bullet>  Rodenhurst, Aaron K., Rocky Point, Oregon
    <bullet>  Rykbost, Dr. Kenneth, Klamath Falls Oregon
    <bullet>  Scronce, Karl, President, Oregon Wheat
    <bullet>  Shepard, Richard B., Ph.D..
    <bullet>  Shumate, Sharon, Chairman, Ferry County Natural Resource 
              Board
    <bullet>  Smith, Joan T. Supervisor, Siskiyou County, California
    <bullet>  Smithson, Julie Kay, London, Ohio
    <bullet>  Stefenoni, Thomas E. Manager, California State Grange
    <bullet>  Thomas, Rachel, Huachuca City, Arizona
    <bullet>  Tonsing, Robert, Executive Director, NPPC
    <bullet>  Tulelake Growers Association, Tulelake, California
    <bullet>  Turner, Randall and Bonnie, Malin, Oregon
    <bullet>  Unger, Roberta, Klamath Falls, Oregon
    <bullet>  Urquides, Jess
    <bullet>  Ward, Rick, Klamath Falls, Oregon
    <bullet>  Wiggins, Gary, Meza, Arizona
    <bullet>  Will, Wade and Dorothy, Tulelake California
    <bullet>  Williams, McCoy, Director, Financial Management, GAO
    <bullet>  Winnied, Mr. and Mrs., Tulelake, Oregon
    <bullet>  Woodley, Rick, Klamath Falls, Oregon
    <bullet>  Woodman, Barbara, Klamath Falls, Oregon
    <bullet>  Wright, Cindy, Tulelake, California
    <bullet>  Wright, Jan, Gem Limousin Ranch

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
